APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
————
No. 16-1052
————
Consolidated with 16-1055, 17-1255, 17-1259,
18-1021, 18-1024, 18-1025, 18-1029
————
ALON REFINING KROTZ SPRINGS, INC.,
Petitioner,
v.
ENVIRONMENTAL PROTECTION AGENCY,
Respondent,
MONROE ENERGY, LLC, et al.,
Intervenors.
————
On Petitions for Review of Agency Action of the
United States Environmental Protection Agency
————
Argued October 5, 2018
Decided August 30, 2019
————
Samara L. Kline argued the cause for petitioners.
With her on the briefs were Evan A. Young, Megan H.
Berge, Lisa M. Jaeger, Brittany M. Pemberton, Clara
Poffenberger, Richard S. Moskowitz, Robert J. Meyers,
Thomas A. Lorenzen, Elizabeth B. Dawson, Warren R.
Neufeld, LeAnn M. Johnson, and Jonathan G. Hardin.
Albert M. Ferlo Jr. and Krista Hughes entered
appearances.

2a
Meghan E. Greenfield, Trial Attorney, U.S. Department of Justice, argued the cause for respondent. With
her on the brief was Jeffrey H. Wood, Acting Assistant
Attorney General. Daniel R. Dertke, Attorney, entered
an appearance.
Robert A. Long Jr. argued the cause for intervenors
American Petroleum Institute and Growth Energy.
With him on the brief were Kevin King, Seth P.
Waxman, David M. Lehn, Saurabh Sanghvi, and
Claire Chung. Stacy R. Linden entered an appearance.
Shannen W. Coffin and Linda C. Bailey were on the
brief for amici curiae NACS, et al. in support of
respondent EPA.
————
No. 17-1044
————
Consolidated with 17-1045, 17-1047, 17-1049,
17-1051, 17-1052
————
COFFEYVILLE RESOURCES REFINING & MARKETING,
LLC AND WYNNEWOOD REFINING COMPANY, LLC,
v.

Petitioners,

ENVIRONMENTAL PROTECTION AGENCY,
Respondent,
ALON REFINING KROTZ SPRINGS, INC., et al.,
Intervenors.
————
On Petitions for Review of Action of the United
States Environmental Protection Agency
————

3a
Brian Killian argued the cause for petitioner The
National Biodiesel Board. With him on the briefs was
Douglas A. Hastings.
Samara L. Kline and Thomas Allen Lorenzen,
argued the causes for Obligated Party Petitioners.
With them on the briefs were Evan A. Young, Lisa M.
Jaeger, Brittany M. Pemberton, Clara Poffenberger,
Richard S. Moskowtiz, Robert J. Meyers, Elizabeth B.
Dawson, David W. DeBruin, Thomas J. Perrelli,
Matthew E. Price, LeAnn M. Johnson, and Jonathan G.
Hardin. David Y. Chung, Eric D. Miller, and Albert M.
Ferlo Jr. entered appearances.
Patrick R. Jacobi and Samara M Spence, Attorneys,
U.S. Department of Justice, argued the causes for
respondent. With them on the brief was Jeffrey H.
Wood, Acting Assistant Attorney General.
Thomas Allen Lorenzen argued the cause for intervenors American Fuel & Petrochemical Manufacturers
and American Petroleum Institute in support of
respondent regarding Biomass-Based Diesel Issues.
With him on the brief were Robert J. Meyers, Elizabeth
B. Dawson, Richard S. Moskowitz, Robert A. Long, Jr.,
and Kevin King. Stacy R. Linden entered an appearance.
Robert A. Long, Jr., Kevin King, Bryan M. Killian,
Douglas A. Hastings, Seth P. Waxman, David M. Lehn,
Saurabh Sanghvi, and Claire H. Chung were on the
brief for intervenors Growth Energy, et al. in support
of respondent. Eric D. Miller entered an appearance.
Before: PILLARD and KATSAS, Circuit Judges, and
WILLIAMS, Senior Circuit Judge.
Opinion for the Court filed PER CURIAM.
Opinion concurring in part and concurring in the
judgment filed by Senior Circuit Judge WILLIAMS.

4a
TABLE OF CONTENTS
I. Introduction ..................................................... 6 [5a]
II. Background ..................................................... 7 [6a]
A. Legal Background ...................................... 7 [6a]
B. Procedural Background ......................... 12 [11a]
1. 2007, 2010, and 2017 Point of
Obligation Proceedings .................... 12 [11a]
2. 2017 Annual Volumetric Proceedings .................................................... 15 [14a]
III. Standard of Review ................................... 17 [16a]
IV. 2010 Point of Obligation Rule ................... 17 [17a]
A. Jurisdiction ............................................ 17 [17a]
1. Final Agency Action Under Section
7607(b)(1) .......................................... 19 [19a]
2. After-Arising Grounds Under Section
7607(b)(1) .......................................... 28 [28a]
3. Mandatory Reconsideration Under
Section 7607(d)(7)(B) ........................ 29 [29a]
B. Merits of Challenges to EPA’s Refusal
to Revise the 2010 Point of Obligation
Rule ........................................................ 32 [32a]
V. 2017 Annual Volumetric Rule .................... 41 [42a]
A. Point of Obligation ................................. 42 [42a]
1. Jurisdiction ....................................... 42 [43a]
2. Merits ................................................ 43 [44a]
B. Cellulosic Biofuel Projection.................. 53 [55a]
C. Cellulosic Waiver ................................... 58 [60a]
VI. 2018 Volume for Biomass-Based Diesel ... 62 [64a]
A. NBB’s Standing...................................... 63 [65a]
B. Merits of NBB’s Challenges .................. 65 [67a]
VII. Conclusion ................................................. 70 [72a]

5a
PER CURIAM:
I. Introduction
The Clean Air Act requires EPA to publish “renewable fuel standards,” ultimately expressed as “applicable
percentages,” each year to ensure that the total supply
of transportation fuel sold or imported into the United
States contains specified proportions of each of four
categories of renewable fuels. Congress intended the
Renewable Fuel Standards (RFS) program to “move
the United States toward greater energy independence and security” and “increase the production of
clean renewable fuels.” See Energy Independence and
Security Act of 2007 (EISA), Pub. L. No. 110-140,
preamble, 121 Stat. 1492 (2007) (codified at 42 U.S.C.
§ 7545(o)).
In these related cases, Alon Refining Krotz Springs,
together with other petroleum refineries and their
trade associations—the “Alon Petitioners”—seek review
of EPA’s decision not to revise its 2010 point of obligation regulation requiring refineries and importers, but
not blenders, to bear the direct compliance obligation
of ensuring that transportation fuels sold or introduced into the U.S. market include the requisite
percentages of renewables. Coffeyville Resources Refining & Marketing and another group of refineries and
trade associations—the “Coffeyville Petitioners”—
challenge EPA’s refusal to reassess the appropriateness of the point of obligation in the context of its 2017
annual volumetric rule, which set the 2017 applicable
percentages for all four categories of renewable fuel
and the 2018 applicable volume for one subset of such
fuel, biomass-based diesel. See 81 Fed. Reg. 89,746
(Dec. 12, 2016) (2017 Rule). The Coffeyville Petitioners
also contend that EPA arbitrarily set the 2017 percentage standards too high. The National Biodiesel

6a
Board (NBB)—a biomass-based diesel industry trade
association—separately contends that EPA set the
2018 applicable volume for biomass-based diesel too
low. Various trade associations representing refineries
and producers of renewable fuels have intervened in
support of EPA. For the reasons that follow, we deny
each of the petitions for review, many of which recycle
arguments raised and rejected in prior challenges.
II. Background
A. Legal Background
Congress established the RFS program in 2005 as
part of the Energy Policy Act, Pub. L. No. 109-58, 119
Stat. 594 (2005) (as amended at 42 U.S.C. § 7545(o)).
The statute mandates the gradual introduction of four
nested categories of renewable fuels into the United
States’ supply of gasoline, diesel, and other transportation fuels. See 42 U.S.C. § 7545(o)(2)(B). These
categories include: (1) total renewable fuel; (2) advanced
biofuel; (3) cellulosic biofuel; and (4) biomass-based
diesel. Id. § 7545(o)(2)(A)(i), (B). The umbrella category, total renewable fuel, covers the three other
categories plus any conventional renewable fuels, such
as corn-based ethanol. See id. § 7545(o)(1)(F), (J),
(2)(A)(i). The advanced biofuel subset includes any
renewable fuel (except ethanol from cornstarch) that
has at least 50% lower lifecycle greenhouse gas
emissions than fossil fuels. Id. § 7545(o)(1)(B). The
statute further specifies two nonexclusive subsets of
advanced biofuels: cellulosic biofuel (a renewable fuel
derived from cellulose materials such as corn stalks
and husks) and biomass-based diesel (a diesel fuel
substitute made from feedstocks such as animal fats).
Id. § 7545(o)(1)(B), (D), (E); EPA Coffeyville Br. 4-5.
The following figure depicts the nested nature of the
four fuel categories.

7a

Source: Coffeyville Br. 11.
Four tables in the statute set forth gradually
increasing annual “applicable volume” requirements
for each category of renewable fuel. See 42 U.S.C.
§ 7545(o)(2)(B)(i). The statute sets applicable
volumes for biomass-based diesel through 2012, id.
§ 7545(o)(2)(B)(i)(IV), and applicable volumes for
the other three categories through 2022, id.
§ 7545(o)(2)(B)(i)(I)—(III). Under those tables, as the
total quantities of renewable fuel rise over time, the
ratio of advanced biofuels relative to conventional
renewable fuel gradually increases. Id. For compliance
years (which match calendar years) after those specified
in the tables, the statute requires EPA, in coordination
with the Secretaries of Energy and Agriculture, to set
the annual applicable volumes based on a review of the
implementation of the program plus an analysis of six

8a
listed factors. Id. § 7545(o)(2)(B)(ii). For years not
specified in the table, EPA must publish the applicable
volumes fourteen months before the year in which
they will apply—volumes that, shortly before the
start of the compliance year, EPA translates into
percentage standards. Id.
Various “waiver” provisions require or permit EPA
to lower the annual applicable volumes. Two are
relevant for the purposes of this case. First, under the
“cellulosic waiver provision,” EPA must make its
own projection of the volume of cellulosic biofuel
that will be produced in the following year. Id.
§ 7545(o)(7)(D)(i). If that projection is less than the
statutory figure, the agency must use its own projection as the applicable volume of cellulosic biofuel. Id.;
see Am. Petroleum Inst. v. EPA, 706 F.3d 474, 477-80
(D.C. Cir. 2013) (API). The same cellulosic waiver
provision authorizes (but does not require) EPA to
also reduce the advanced biofuel and total renewable
biofuel volume requirements “by the same or a lesser
volume” as the cellulosic biofuel reduction, 42 U.S.C.
§ 7545(o)(7)(D)(i), and EPA has “broad discretion”
regarding whether and how to do that, Monroe Energy,
LLC v. EPA, 750 F.3d 909, 915 (D.C. Cir. 2014).
Separately, under the “general waiver provision,” EPA
may reduce any of the statutory applicable volumes if
it determines “that implementation . . . would severely
harm the economy or environment,” or “that there
is an inadequate domestic supply.” 42 U.S.C.
§ 7545(o)(7)(A); see Ams. for Clean Energy v. EPA, 864
F.3d 691, 707-13 (D.C. Cir. 2017) (ACE).
After EPA determines the waiver-adjusted applicable volumes, it must translate those volumes into
“renewable volume obligation[s]” for each category of
renewable fuel for the upcoming compliance year.

9a
42 U.S.C. § 7545(o)(3)(B)(i). The volume obligation for
each category of renewable fuel is expressed as an
“applicable percentage,” also known as a “percentage
standard,” calculated by dividing the adjusted applicable volume for that category of fuel by the total
anticipated volume of non-renewable transportation
fuel that will be introduced into commerce (which EPA
derives based on an estimate provided by the Energy
Information Administration) in the coming compliance
year. Id. § 7545(o)(3)(A), (B)(ii)(II); 40 C.F.R. § 80.1405(c).
The statute calls on EPA to publish the percentage
standards not later than November 30—a month
before the start of the compliance year. 42 U.S.C.
§ 7545(o)(3)(B)(i).
EPA must place the renewable volume obligations
on “refineries, blenders, and importers, as appropriate.” 42 U.S.C. § 7545(o)(3)(B)(ii)(I); see also id.
§ 7545(o)(2)(A) (requiring EPA to promulgate implementing regulations, including “compliance provisions
applicable to refineries, blenders, distributors, and
importers, as appropriate,” designed to ensure that
transportation fuel sold or introduced into the United
States “contains at least” the required annual applicable volumes). The entities that EPA designates to
meet the volume obligations are known as “obligated
parties.” Monroe Energy, 750 F.3d at 912. Each
obligated party must ensure that the volume of nonrenewable fuel it sells or introduces into U.S. commerce
is matched by selling or introducing a corresponding
volume of each category of renewable fuel at the level
EPA’s percentage standard requires for that category.
See ACE, 864 F.3d at 699. The percentage standards
are set in the anticipation that, if each obligated party
meets them and EPA’s projection regarding the country’s
total transportation fuel supply bears out, the amount
of each category of renewable fuel introduced into the

10a
economy in the upcoming compliance year will equal
the applicable volumes for that year. Id. Obligated
parties bear no direct responsibility for any shortfalls
in the applicable volumes so long as they comply with
the percentage standards.
EPA assigns a set of “renewable identification
numbers” (RINs) to each batch of renewable fuel that
is produced or imported for use in the United States.
40 C.F.R. § 80.1426; see 42 U.S.C. § 7545(o)(5); Monroe
Energy, 750 F.3d at 913. The number of RINs assigned
to each batch corresponds to the amount of ethanolequivalent energy per gallon in that batch. See 40
C.F.R. § 80.1415; Monroe Energy, 750 F.3d at 913.
RINs remain attached to the renewable fuel until that
fuel is purchased by an obligated party or blended into
fossil fuels to be used for transportation fuel. See ACE,
864 F.3d at 699 (citing 40 C.F.R. § 80.1429(b)(1)—(2)).
At that point the RINs become “separated,” meaning
they are, in effect, a form of compliance credit. Id.
Obligated parties demonstrate their compliance with
their renewable fuel obligations by “retiring” RINs in
annual compliance demonstrations to EPA. 40 C.F.R.
§§ 80.1427(a), 80.1451(a)(1).
Because the four categories of renewable fuel are
nested, obligated parties can comply with their obligations for a type of fuel by retiring any combination of
RINs corresponding to that category of fuels or any
subset thereof. See 40 C.F.R. § 80.1427(a)(3)(i). For
instance, retiring a cellulosic biofuel or biomass-based
diesel RIN counts not only toward the volume obligation for that fuel, but also toward both the advanced
biofuel and total renewable fuel obligations. Thus, “if
one million gallons of cellulosic biofuel are blended
into the fuel supply, the statute allows those one
million gallons to be credited toward the advanced

11a
biofuel and total renewable fuel obligations in addition
to the cellulosic biofuel obligation.” ACE, 864 F.3d at
698.
Obligated parties who have more RINs than they
need may sell or trade their excess, 40 C.F.R. § 80.1428(b),
or they may “bank” those RINs for use to meet up to
20 percent of their obligations for the following compliance year, Monroe Energy, 750 F.3d at 913; see 40
C.F.R. § 80.1427(a)(1), (5); Regulation of Fuels and
Fuel Additives: Changes to Renewable Fuel Standard
Program, 75 Fed. Reg. 14,670, 14,734-35 (Mar. 26,
2010). Obligated parties without enough RINs to meet
their compliance obligations may purchase RINs, use
banked RINs from the prior year, or carry a deficit
forward to the following year to be satisfied together
with the following year’s obligations. See ACE, 864
F.3d at 699-700; see also 42 U.S.C. § 7545(o)(5)(D); 40
C.F.R. § 80.1427(b).
B. Procedural Background
The procedural history of these cases follows two
paths: first, the proceedings relevant to the challenge
that EPA arbitrarily declined to initiate a rulemaking
to modify the 2010 regulation designating refineries
and importers, but not blenders, as obligated parties;
and second, the proceedings challenging the 2017 Rule.
1. 2007, 2010, and 2017 Point of Obligation
Proceedings
In its 2007 regulations implementing the RFS program, EPA designated refiners and importers, but not
blenders, as the “appropriate” parties to meet the
renewable fuel obligation. 72 Fed. Reg. 23,900, 23,92324 (May 1, 2007). At the time, those designations were
not challenged in court. EPA reaffirmed its designations in a 2010 regulation now commonly known as the

12a
“point of obligation rule.” 75 Fed. Reg. at 14,721-22
(codified at 40 C.F.R. § 80.1406(a)(1)). During the
2010 rulemaking, several refiners—including petitioner
Valero Energy Corporation—argued that failing to
obligate blenders, who combine renewable fuel with
fossil fuels, would make the RFS program unworkable.
EPA concluded that the program was functioning
adequately and that the burdens and disruption from
changing the point of obligation would outweigh any
benefits. See Summary and Analysis of Comments
3.9.2, Alon J.A. 287-90. Although other aspects of the
2010 regulations were challenged in court, see, e.g.,
Nat’l Chicken Council v. EPA, 687 F.3d 393 (D.C. Cir.
2012); Nat’l Petrochemical & Refiners Ass’n v. EPA,
630 F.3d 145 (D.C. Cir. 2010), the point of obligation
rule was not.
On December 14, 2015, EPA promulgated the volume
requirements for 2014, 2015, and 2016. Renewable
Fuel Standard Program, 80 Fed. Reg. 77,420 (Dec. 14,
2015). In so doing, EPA exercised its general waiver
authority to lower the total renewable fuel volumes
based on a finding of inadequate domestic supply due
to market factors “affecting the ability to distribute,
blend, dispense, and consume . . . renewable fuels” at
the levels required by statute. Id. at 77,435/2. Among
those factors was “the slower than expected development of the cellulosic biofuel industry.” Id. at 77,422.
The agency thought an additional “real world constraint[]”
was the “E10 blendwall”—the difficulty for most
American vehicle engines to run on blends containing
more than 10% ethanol. Id. at 77,423. EPA explained
that those factors made the statutory requirements
“impossible to achieve.” Id. at 77,422/2. This Court
later vacated the general waiver on the ground that
EPA had misinterpreted the statutory term “inadequate

13a
domestic supply” to include demand-side constraints
such as the E10 blendwall. See ACE, 864 F.3d at 704-13.
On February 12, 2016, sixty days after EPA promulgated the volume requirements for 2014-16, the Alon
Petitioners petitioned this Court for review of the 2010
point of obligation rule. These petitions contend that
the rule was arbitrary and capricious insofar as it
failed to impose the obligation on downstream blenders—
the parties petitioners think are best able to comply
with it. The petitions assert jurisdiction under the
after-arising provision in 42 U.S.C. § 7607(b)(1), which
permits otherwise-untimely challenges to a rule if the
challenges are “based solely on grounds arising after”
the sixty-day deadline for seeking judicial review. The
petitioners assert that EPA’s exercise of its general
waiver authority in the 2014–16 volume regulations,
and its acknowledgment of the RFS program’s
shortcomings as of that time, provided such an afterarising ground.
The Alon Petitioners simultaneously petitioned EPA
to revise the point of obligation rule. Some of their
requests were styled as petitions for a rulemaking.
Others were styled as petitions for mandatory reconsideration under 42 U.S.C. § 7607(d)(7)(B), which
requires EPA to reconsider a rule if centrally important
objections were impracticable to raise during the comment period or “arose after” that period “but within the
time specified for judicial review.” The petitions cited
the waiver in the 2014-16 volume regulations and
EPA’s acknowledgment of program difficulties as
grounds supporting mandatory reconsideration. This
Court held in abeyance the petitions for review of the
point of obligation rule pending resolution of the
petitions to revise it.

14a
On November 10, 2016, EPA published a proposed
denial of the petitions to revise the point of obligation
rule. On November 22, 2017, after reviewing more
than 18,000 comments on the proposal, EPA denied
the petitions. It concluded that the statutory requirements for mandatory reconsideration were not met, so
it treated all the filings as petitions for a rulemaking.
Denial of Petitions for Rulemaking to Change the RFS
Point of Obligation, EPA-HQ-OAR-2016-0544-0525, at
7 (Nov. 22, 2017) (EPA Denial), Alon J.A. 61. EPA then
denied the petitions on the ground that “changing the
point of obligation would . . . likely result in a decrease
in the production, distribution, and use of [renewable]
fuels” and would “do nothing to incentivize the research,
development, and commercialization of cellulosic biofuel
technologies critical for the growth of the RFS program
in future years.” EPA Denial at 8-9, Alon J.A. 62-63.
Within sixty days (in December 2017 and January
2018), the Alon Petitioners sought judicial review of
that denial, which it cast as a final agency action
under section 7607(b)(1). The two sets of petitions—
the February 2016 petitions for review of the 2010
point of obligation rule and the 2017-18 petitions for
review of EPA’s refusal to reconsider the rule—were
consolidated and are now before us.
2. 2017 Annual Volumetric Proceedings
EPA issued its 2017 annual volumetric rule on
December 12, 2016. The 2017 Rule establishes: (1) the
applicable volume for biomass-based diesel for 2018,
81 Fed. Reg. at 89,751/2; (2) the waiver-adjusted applicable volumes for cellulosic biofuel, advanced biofuel,
and total renewable fuel for 2017, id. at 89,747 tbl.
I-1; and (3) percentage standards for all four fuel types
for 2017, id. at 89,751, tbl. I.B.6-1.

15a
EPA exercised its mandatory cellulosic waiver
authority to decrease the 2017 applicable volume for
cellulosic biofuel by more than 94 percent, dropping
5.189 billion gallons from the statutory target of 5.5
billion gallons, to 311 million gallons. Id. at 89,750/2;
42 U.S.C. § 7545(o)(2)(B)(i)(III). EPA then had discretion under that same waiver authority to cut as much
as 5.189 billion gallons off the statutory volumes for
advanced biofuel and total renewable fuel. See 42
U.S.C. § 7545(o)(7)(D)(i); 81 Fed. Reg. at 89,762 & tbl.
IV.A-1. EPA partially exercised that authority, reducing the 9-billion-gallon statutory target for advanced
biofuel by 4.72 billion gallons, resulting in an adjusted
applicable volume of 4.28 billion gallons—a greater
than 50% decrease. 81 Fed. Reg. at 89,750–51;
42 U.S.C. § 7545(o)(2)(B)(i)(II). EPA reduced the total
renewable fuel volume requirements by the same
amount, lowering the statutory target of 24 billion
gallons to 19.28 billion gallons.81 Fed. Reg. at 89,751/1;
42 U.S.C. § 7545(o)(2)(B)(i)(I). EPA considered but
decided against also using its general waiver authority
to further lower the applicable volume of total renewable fuel. 81 Fed. Reg. at 89,751/1.
Using the waiver-adjusted applicable volumes, EPA
set the 2017 percentage standards for each of the four
renewable fuel categories. See id. at 89,751, 89,799801. Finally, EPA set the biomass-based diesel applicable volume for 2018 at 2.1 billion gallons. Id. at
89,751/2. EPA received comments urging it to reassess
the point of obligation in the 2017 Rule, but declined
to address them on the grounds that the comments
were “beyond the scope” of the 2017 rulemaking.
Response to Comments at 542, Coffeyville J.A. 761.
After EPA published the 2017 Rule, various parties
petitioned for judicial review. The Coffeyville Petitioners

16a
contend that EPA erred by refusing to reconsider which
types of parties would bear the direct compliance obligation under the 2017 Rule. They also argue that EPA
arbitrarily calculated the 2017 production of cellulosic
biofuel and arbitrarily exercised its discretionary cellulosic waiver authority, resulting in percentage standards
that are too high. NBB argues that EPA set the 2018
applicable volume for biomass-based diesel too low by
considering factors it should not have and omitting or
incorrectly assessing others. Two trade associations
representing refineries have intervened in defense of
EPA’s biomass-based diesel decision, and a coalition of
trade associations representing renewable fuel producers and refineries have intervened to oppose the
Coffeyville Petitioners’ claims. None of the petitioners’
challenges succeeds.
III. Standard of Review
“This court applies the familiar, deferential standard
announced in Chevron, U.S.A., Inc. v. Natural Resources
Defense Council, Inc., to sustain any reasonable
agency interpretation of ambiguity in the Clean Air
Act.” Nat’l Ass’n for Surface Finishing v. EPA, 795
F.3d 1, 7 (D.C. Cir. 2015). “We employ the deferential
State Farm standard of review when reviewing arguments based on allegedly arbitrary or unreasoned
agency action.” ACE, 864 F.3d at 726 (citing Motor
Vehicle Mfrs. Ass’n of U.S., Inc. v. State Farm Mut.
Auto. Ins. Co., 463 U.S. 29, 43 (1983)). Under that
rubric, EPA’s actions are “presumptively valid provided
[they] meet[] a minimum rationality standard.” Nat.
Res. Def. Council, Inc. v. EPA, 194 F.3d 130, 136 (D.C.
Cir. 1999). We uphold EPA’s actions so long as they
are “reasonable and reasonably explained.” Jackson v.
Mabus, 808 F.3d 933, 936 (D.C. Cir. 2015).

17a
IV. 2010 Point of Obligation Rule
We start with the Alon Petitioners and their challenges to the 2010 point of obligation rule.
A. Jurisdiction
We begin, as we must, with our jurisdiction. In
general terms, the question presented involves our
review of rules promulgated under the Clean Air Act,
or EPA’s failure to amend them, after the initial
window for seeking judicial review has passed. Various
statutory provisions frame this inquiry.
Section 7607(b)(1) of Title 42 provides for judicial
review of regulations promulgated by the Administrator
of EPA under the Clean Air Act. The first sentence of
section 7607(b)(1) vests this Court with exclusive jurisdiction to review “nationally applicable regulations
promulgated, or final action taken, by the Administrator” under the Act. The fourth sentence of section
7607(b)(1) specifies the time for seeking judicial
review. It imposes a sixty-day time limit, but provides
an exception for petitions based on grounds arising
after the limit: “Any petition for review under this
subsection shall be filed within sixty days from the
date notice of such promulgation, approval, or action
appears in the Federal Register, except that if such
petition is based solely on grounds arising after such
sixtieth day, then any petition for review under this
subsection shall be filed within sixty days after such
grounds arise.”
Section 7607(d) of Title 42 sets forth provisions for
various rulemakings under the Clean Air Act, including
for the “promulgation or revision of any regulation”
involving the RFS program. Id. § 7607 (d)(1)(E).
Section 7607 (d)(7)(B) addresses various issues regarding exhaustion, agency reconsideration, and judicial

18a
review. The first sentence of that provision imposes a
conventional exhaustion requirement, limiting judicial
review to objections “raised with reasonable specificity
during the period for public comment.” The second
sentence requires EPA to reconsider regulations in
certain narrow circumstances: “If the person raising
an objection can demonstrate to the Administrator
that it was impracticable to raise such objection within
such time or if the grounds for such objection arose
after the period for public comment (but within the
time specified for judicial review) and if such objection
is of central relevance to the outcome of the rule, the
Administrator shall convene a proceeding for reconsideration of the rule and provide the same procedural
rights as would have been afforded had the information
been available at the time the rule was promulgated.”
The third sentence of section 7607(d)(7)(B) makes any
“refusal” to provide such mandatory reconsideration
judicially reviewable.
At various times in this litigation, the petitioners
have asserted three different jurisdictional theories.
First, EPA’s refusal to revise the point of obligation
rule in 2017 was a final action reviewable under the
first sentence of section 7607(b)(1), regardless of the
after-arising provision. Second, EPA’s statements and
actions in its 2014-16 volume regulation constitute
after-arising grounds permitting a challenge to the
point of obligation rule as promulgated in 2010. Third,
these same EPA statements and actions triggered a
right to mandatory reconsideration under section
7607(d)(7)(B), which in turn makes the denial of
reconsideration judicially reviewable. As explained
below, we conclude that the first contention is correct,
the second has been abandoned, and the third lacks
merit.

1. Final Agency
7607(b)(1)

19a
Action

Under

Section

In 2016, various refiners petitioned EPA for a
rulemaking to modify the point of obligation rule.
The petitions urged that the need for a modification
became evident in 2015, when EPA waived certain
statutory volume requirements and concluded that
changing economic conditions had made the requirements “impossible to achieve.” 2014-16 Rule, 80 Fed.
Reg. at 77,422/2. In November 2017, EPA denied the
rulemaking petitions on the ground that any current
problems with the RFS program were manageable and
that changing the point of obligation at this juncture
would be disruptive. EPA Denial at 8-9, Alon J.A.
62-63. The refiners sought review of the denial in
December 2017 and January 2018. As petitioners in
this Court, they contend that the November 2017
denial constituted final agency action reviewable
under section 7607(b)(1). We agree.
As noted above, the first sentence of section
7607(b)(1) gives this Court exclusive jurisdiction to
review any nationally applicable “final action” taken
by EPA under the Clean Air Act. The parties agree
that the denial of the rulemaking petitions was
nationally applicable, final, and taken under the Clean
Air Act. It was also agency “action” within the meaning of the statute. That word “bears the same meaning
in [section 7607(b)(1)] that it does under the Administrative Procedure Act,” Whitman v. Am. Trucking
Ass’ns, 531 U.S. 457, 478 (2001), which defines “agency”
to include EPA, 5 U.S.C. § 551(1), and “agency action”
to include “the whole or a part of an agency rule, order,
license, sanction, relief, or the equivalent or denial
thereof, or failure to act,” id. § 551(13) (emphases

20a
added). So, EPA’s denial of the petitions for rulemaking was a reviewable “action.”
The petitions for review were timely. As a general
matter, section 7607(b)(1) requires a petition for
review to be filed within sixty days of when “notice of
such promulgation, approval, or action appears in the
Federal Register.” Here, the “action” at issue—denial
of the petitions for rulemaking—was published in the
Federal Register on November 22, 2017, and the
petitions for review of that action were filed within
sixty days of that date. Moreover, this conclusion does
not depend on the after-arising provision. To the
contrary, because the petitions for review were filed
within sixty days of the “action” under review, the
exception for “grounds arising after such sixtieth day”
was not triggered.
Our caselaw confirms this framing of the jurisdictional issue. In Massachusetts v. EPA, 415 F.3d 50
(D.C. Cir. 2005), this Court held that EPA’s denial of
a petition to regulate greenhouse gas emissions as
air pollutants was itself “final action” reviewable
under section 7607(b)(1). See id. at 53-54 (opinion of
Randolph, J.); id. at 61 (Sentelle, J., concurring in the
judgment). The Supreme Court reversed our judgment
on the merits, but agreed that we had jurisdiction.
Massachusetts v. EPA, 549 U.S. 497 (2007). In
particular, the Court noted that section 7607(b)(1)
“expressly permits review” of EPA’s “rejection of [a]
rulemaking petition.” Id. at 520, 528; see also id. at
517 (section 7607(b)(1) affords “the right to challenge
[this] agency action unlawfully withheld”). Likewise,
in Natural Resources Defense Council v. EPA, 824 F.2d
1146 (D.C. Cir. 1987) (en banc) (NRDC), we held that
a 1985 decision to withdraw proposed amendments to
certain 1976 regulations—which we described as a

21a
“decision not to amend” the regulations—was “reviewable agency action” under section 7607(b)(1). Id. at
1150 (quotation marks omitted). We concluded that
the petition for review at issue, which on its face
challenged the 1985 withdrawal decision, was not, in
substance, an untimely “‘back-door’ challenge to the
1976 regulations.” Id. On that point, we reasoned that
the petitioners claimed legal errors in the 1985 withdrawal and sought vacatur only of that order. Likewise,
in this case, the petitions for review filed in 2017 and
2018 raise no back-door challenge to the 2010 regulation: the petitions contend that EPA in 2017 arbitrarily
refused to take account of changing economic conditions, and they seek vacatur only of the 2017 order
denying a new rulemaking going forward.
Background principles of administrative law reinforce our conclusion that the denial of a petition to
modify a rule based on changed circumstances is itself
a reviewable order. Ordinarily, the denial of a petition
to amend or rescind a regulation is judicially reviewable. See, e.g., NLRB Union v. FLRA, 834 F.2d 191,
195-96 (D.C. Cir. 1987). When the petition to amend
attacks defects in the regulation as originally promulgated, and when the time limit for seeking review of
the regulation has passed, questions can arise about
whether the time limit is being improperly circumvented. In these circumstances, we have held that the
petitioner cannot raise procedural challenges to the
regulation, but can raise substantive arguments that
the regulation is unauthorized by or conflicts with a
statute. See id. at 196-97. But the circumvention
concern does not even arise when the petitioner raises
arguments about changed circumstances or new
information. Those kinds of arguments—that recent
developments compel the amendment of an older
regulation—are always cognizable through review of

22a
the denial of a petition to amend, though they trigger
an “extremely limited” review on the merits. Id. at 196.
Our decision today harmonizes the judicial-review
provisions of the Clean Air Act with this general
background principle.
EPA recognizes the general rule that, under the
NLRB Union line of cases, the denial of a petition to
amend a rule is a reviewable order, which supports
both challenges based on recent developments and
substantive challenges to the original regulation.
Nonetheless, EPA urges a different rule where the
applicable judicial-review provision contains a time
limit for seeking review and an exception for grounds
arising after the time limit, as in the Clean Air Act. In
those circumstances, according to EPA, a challenge to
the denial of a petition to amend is untimely—and the
denial is thus entirely unreviewable—unless the afterarising provision is satisfied. EPA rests this conclusion
on National Mining Ass’n v. Department of Interior, 70
F.3d 1345 (D.C. Cir. 1995), and American Road &
Transportation Builders Ass’n v. EPA, 588 F.3d 1109
(D.C. Cir. 2009) (ARTBA), but neither decision supports its position.
National Mining involved judicial review under the
Surface Mining Control and Reclamation Act (SMCRA),
which requires petitions for review to be filed “within
sixty days” of the agency action at issue “or after such
date if the petition is based solely on grounds arising
after the sixtieth day.” See 70 F.3d at 1350. In 1986,
parties petitioned the Department of Interior to
rescind a 1979 SMCRA regulation on two grounds.
First, the petitioners argued that the rule was inconsistent with the statute—an argument attacking the
regulation itself and “available” when the regulation
was originally promulgated. See id. After the agency

23a
declined to rescind the rule, the challengers sought
judicial review. We held that the after-arising provision made this first challenge untimely, by explicitly
requiring challenges to a regulation either to be filed
“within the statutory period” or to “meet the afterarising test.” Id. at 1350-51. At the same time, however,
we held that the petitioners’ second challenge—to the
agency’s 1986 decision refusing to “repeal” the regulation based on changed circumstances—was timely and
reviewable. Id. at 1352. To be sure, we described the
latter challenge as resting on “grounds that arose after
the sixtieth day.” Id. But we failed to explain what
jurisdictional theory that observation supported: a
challenge to the 1979 regulation rendered timely by
the after-arising exception; or a challenge, in substance as well as form, to the 1986 refusal to repeal,
akin to the challenge that we held reviewable in
NRDC. Instead, we simply concluded that, under the
“limited scope of our review,” the agency did not “act[]
unreasonably in denying the petition for rulemaking.”
Id. at 1352-53. Thus, while National Mining blessed
jurisdiction to review agency refusals to amend
regulations based on changed factual circumstances, it
did not ultimately address what we clarify today—the
precise statutory basis for that jurisdiction.
ARTBA applied the reasoning of National Mining to
the Clean Air Act, which also contains a time limit
for judicial review and an exception for after-arising
grounds. ARTBA involved a 2002 petition to amend
1997 regulations on the ground that they allowed
states “to adopt precisely the kinds of regulations that
the statute forbids.” 588 F.3d at 1110. As in National
Mining, the challenge was thus a substantive attack
on a regulation as originally promulgated. We held
that, under National Mining, EPA’s “denial of a
revision-seeking petition does not allow review of

24a
alleged substantive defects in the original rule even
under the deferential standards applicable to review
of such denials, outside the statutory limitations
period running from the rule[’s] original promulgation.” Id. at 1113 (emphasis added). In other words,
National Mining “require[d] us to treat ARTBA’s petition to EPA as a challenge to the regulations it sought
revised.” Id. at 1110. As a result, dismissal was
necessary unless the petition satisfied the exception
for after-arising grounds, which it did not. See id.
Neither decision controls here, where the 2017 and
2018 petitions for review challenge not the point of
obligation regulation as originally promulgated in
2010, but the failure to amend the regulation in light
of changed circumstances flagged by EPA in 2015.
EPA rejected that argument in 2017, and the petitioners sought review of the rejection within sixty days. In
substance as well as form, the challenge was to the
2017 refusal to amend, not to the underlying 2010
regulation. Under these circumstances, there was no
risk of circumventing the original time limit. Therefore,
there was also no reason to treat the 2010 promulgation
and the 2017 refusal to amend as one-and-the-same
agency action, despite binding APA definitions treating
them as separate.
Precedent aside, EPA’s proposed approach—making
the after-arising provision the exclusive vehicle for
challenging refusals to amend regulations based on
new information or changed circumstances—creates
various difficulties. For one thing, there is a conceptual mismatch between that provision and these kinds
of challenges. Though the after-arising exception and
the opportunity to seek rule revision based on postrulemaking events may seem similar, the first allows
an intervening event to secure judicial review on the

25a
basis of defects extant at the time of the rulemaking,
whereas the second allows review on the question
whether intervening events have fatally undermined
the original justification for the rule. The arrow of time
runs forward, not backward, so it is at best awkward—
and at worst incoherent—to speak of a later development rendering unlawful an earlier promulgation.
Economic developments in 2015 may have made it
arbitrary for EPA to adhere to the point of obligation
rule in 2017, but they cannot have retroactively made
arbitrary its promulgation in 2010.
Even worse, the Clean Air Act’s after-arising provision, if used to judge the timeliness of challenges based
on new information, would be difficult to apply, capriciously narrow, or both. To satisfy that provision, a
petition for review must be both (i) based “solely” on
after-arising grounds and (ii) filed “within sixty days
after such grounds arise.” 42 U.S.C. § 7607(b)(1). Yet
the case for changing an environmental regulation will
almost never manifest itself at one discrete moment.
Instead, it will accumulate progressively over time, as
scientific knowledge advances or economic conditions
change. And so, under EPA’s approach, the relevant
filing deadlines would become practically unknowable.
When did some environmental risk become serious
and obvious enough to compel a rulemaking to
strengthen an existing regulation? That will usually
be a hard question, and it would be little short of
miraculous if the answer turned out to be on a date
certain within sixty days of the filing of a petition for
review, as required to satisfy the after-arising provision.
In contrast, the approach we have sketched out
produces simple questions and discernible deadlines:
ask when EPA denied the rulemaking petition, then
add sixty days. If possible, we should avoid trying to

26a
fix arbitrarily precise accrual dates for events that
develop incrementally over time. See Nat’l R.R.
Passenger Corp. v. Morgan, 536 U.S. 101, 115-21
(2002). And we should avoid jurisdictional tests that
are complex as opposed to straightforward. See, e.g.,
Hertz Corp. v. Friend, 559 U.S. 77, 94 (2010). Treating
the denial of a petition to amend a rule based on
changed circumstances as reviewable agency action
honors both principles, while attempting to shoehorn
such denials into the after-arising provision does the
opposite.
We acknowledge that, in Oljato Chapter of Navajo
Tribe v. Train, 515 F.2d 654 (D.C. Cir. 1975), we
assumed that the after-arising provision would govern
review of orders denying petitions to modify EPA rules
based on changed circumstances. But our only holdings
were that such petitions must first be presented to
EPA, id. at 666, and then are reviewable directly in
the courts of appeals, id. at 657-65. Moreover, our
assumption was understandable in context; the petitioners had missed the statutory deadline to file a
petition for review (then thirty days), see id. at 657, so
they pressed alternative jurisdictional theories (involving either district-court review or the after-arising
provision) that would avoid that deadline. Furthermore,
we expressly reserved the precise bounds of what
constituted a petition based solely on after-arising
grounds. See id. at 666-68. Finally, we stressed that
review should generally be available “when new
information casts doubt upon the validity of a
[regulatory] standard.” Id. at 665. At the time, the
after-arising provision contained no separate deadline
requiring a petition for review to be filed within sixty
days of the after-arising ground. See id. at 657 n.3. So
the difference between “direct review” of a regulation
through the after-arising provision and review of a

27a
“refusal to revise” the regulation appeared largely
semantic. See id. at 666. But, two years after Oljato
was decided, Congress amended section 7607(b)(1) to
include the separate filing deadline, see Pub. L. No. 9595 § 305(c)(3), 91 Stat. 685, 776 (1977), which, as
explained above, made the after-arising provision a
singularly poor vehicle for securing the review that
Oljato assumed would be readily available.
After Oljato, we held in Group Against Smog &
Pollution v. EPA, 665 F.2d 1284 (D.C. Cir. 1981), that
the failure to challenge a 1974 regulation within the
original sixty-day deadline did not bar “judicial review
of the agency’s subsequent refusal to revise the
standard on the basis of new information.” Id. at 1291.
Quoting liberally from Oljato, we suggested that such
review would proceed through the after-arising provision. Id. at 1289. But we permitted review even though
the after-arising provision, as amended, could not
have applied. The case involved comments filed with
EPA in April 1977, which we treated as a petition for
a rulemaking. Id. at 1290 & n.47. On April 13, 1978,
EPA declined to amend the rule as requested. Id. at
1288. The ensuing petition for review was filed on
June 12, 1978—more than a year after the technological changes discussed in the comments, but precisely
sixty days after the refusal to amend. See id. Because
the petition for review was not filed within sixty days
of the asserted after-arising grounds, the after-arising
provision plainly did not apply. So, review must have
rested on the theory that the refusal to amend was
itself a reviewable action triggering its own sixty-day
filing window.
The approach we follow here—treating denials of
rulemakings based on new facts as independently
reviewable decisions—does not reduce the after-arising

28a
provision to surplusage. Our cases have recognized
other circumstances triggering the after-arising provision, including judicial decisions that significantly
“changed the legal landscape” faced by petitioners,
Honeywell Int’l, Inc. v. EPA, 705 F.3d 470, 473 (D.C.
Cir. 2013), and “the occurrence of an event that ripens
a claim,” Coalition for Responsible Regulation v. EPA,
684 F.3d 102, 129 (D.C. Cir. 2012) (per curiam). In
cases like these—where, for example, an intervening
statute, regulation, or judicial decision extends old
regulations to new parties—the after-arising ground is
easily dated, the relevant filing deadlines are clear,
and so the provision functions predictably. Moreover,
where the after-arising provision does apply, it permits the petitioner to contend not only that changed
circumstances warrant amending an existing regulation but also that the regulation was unlawful as
originally promulgated. See, e.g., Honeywell, 705 F.3d
at 473.
For these reasons, we conclude that we have
jurisdiction to consider the petitioners’ argument that
EPA arbitrarily refused to amend the point of
obligation rule based on the changed circumstances
cited by the petitioners.
2. After-Arising
7607(b)(1)

Grounds

Under

Section

The February 2016 petitions for review, filed before
EPA resolved any of the rulemaking petitions, rested
on the alternative jurisdictional theory that EPA’s
publication of the 2014-16 volume requirements constituted an after-arising ground within the meaning of
section 7607(b)(1). Our conclusion above does not moot
this question, because if this alternative theory were
valid, then the petitioners could directly attack the
point of obligation rule as originally promulgated.

29a
Nonetheless, the petitioners have abandoned this
theory of jurisdiction. In their merits briefs, they never
actually attack the 2010 rule as originally promulgated; instead, they challenge only the 2017 denial of
their rulemaking petitions. Moreover, in requesting
relief, they do not ask us to set aside the 2010 rule, but
only to “vacate the [2017] Denial[] and remand to
EPA” for a rulemaking to change the point of obligation rule going forward. Alon Br. 58. And at oral
argument, they disclaimed any challenge to the 2010
rule itself and confirmed that their only challenge was
to EPA’s 2017 refusal to revise the point of obligation
rule. See Rec. of Oral Argument at 2:18:50-2:19:15.
3. Mandatory Reconsideration Under Section
7607(d)(7)(B)
Finally, the petitioners assert jurisdiction under
section 7607(d)(7)(B), on the ground that EPA erroneously denied petitions for mandatory reconsideration
of the point of obligation rule. To review, section
7607(d)(7)(B) provides in relevant part that only
objections “raised . . . during the period for public
comment” may be “raised during judicial review.” But
if the objector “can demonstrate to the Administrator
that it was impracticable to raise such objection within
such time or if the grounds for such objection arose
after the period for public comment (but within the
time specified for judicial review) and if such objection
is of central relevance to the outcome of the rule,” then
EPA must “convene a proceeding for reconsideration
of the rule,” and any refusal to do so is judicially
reviewable. Here, the petitioners assert that the
ground for their objections—EPA’s statements and
actions in its 2014-16 volume regulation—arose “after
the period for public comment” on the 2010 point of

30a
obligation rule, and that the objections are “of central
relevance to the outcome of the rule.”
The petitioners misapprehend the statutory text
and structure. Section 7607(d)(7)(B) does not extend
the jurisdictional deadline to seek judicial review
imposed in section 7607(b)(1); instead, it specifies a
non-jurisdictional exhaustion requirement. See EPA v.
EME Homer City Generation, L.P., 572 U.S. 489, 512
(2014). Its first sentence generally requires parties
to raise objections “during the period for public
comment” in order to later present them in court. Its
second sentence allows a narrow exception when a
centrally important objection cannot feasibly be raised
during the comment period—either because “the grounds
for such objection arose after the period for public
comment,” or because commenting was otherwise
“impracticable.” If an objection fits within this exception, the consequences are weighty: EPA must grant
reconsideration and conduct a new, full-dress, noticeand-comment rulemaking. And if EPA denies
reconsideration, the objector may seek judicial review.
This “limited exception” to the normal exhaustion
deadline, Util. Air Regulatory Grp. v. EPA, 744 F.3d
741, 746 (D.C. Cir. 2014), does not come with a free
pass from the subsequent deadline to seek judicial
review. To the contrary, the second sentence of section
7607(d)(7)(B) covers only objections that arise after
the close of the comment period, yet within the time
specified for judicial review. As noted above, that time
for judicial review—sixty days from the promulgation
of the final rule—is specified in section 7607(b)(1).
Section 7607(d)(7)(B) does not enlarge that filing period,
but merely fills a narrow gap within it: allowing
orderly exhaustion of important objections that “first
became known to the petitioner after the comment

31a
period ended, but before the period for petitioning for
review expired.” Am. Petroleum Inst. v. Costle, 665
F.2d 1176, 1192 (D.C. Cir. 1981). We recognize that, as
a textual matter, the statutory phrase “but within the
time specified for review” qualifies the requirement
that the grounds must have arisen “after the period for
public comment,” but not the alternative requirement
that “it was impracticable” to raise the objection
“during the period for public comment.” However, the
petitioners do not invoke the impracticability prong of
section 7607(d)(7)(B). Moreover, we have construed
that prong to cover instances when the final rule was
not a logical outgrowth of the proposed rule, Clean Air
Council v. Pruitt, 862 F.3d 1, 10 (D.C. Cir. 2017) (per
curiam), which likewise involve problems during the
period for public comment on or petitioning for review
of the regulation itself—not problems that arise when
circumstances change years or decades later.
The petitioners argued in briefing that the “time
specified for judicial review” referenced in section
7607(d)(7)(B) encompasses not only the initial sixtyday window after a rule’s promulgation, but also the
secondary sixty-day limit from after-arising grounds
in the fourth sentence of section 7607(b)(1). But as
noted above, the petitioners abandoned at oral argument any reliance on the latter after-arising provision.
Moreover, their theory would transform what we have
described as a “limited” gap-filling provision, Util. Air
Regulatory Grp., 744 F.3d at 746, into a perpetually
looming threat of mandatory notice-and-comment
reconsideration. Tellingly, the petitioners can cite no
case employing section 7607(d)(7)(B)’s mandatory
reconsideration procedure for objections that arose
after the close of the initial window for judicial review.
Their interpretation would “make a mockery of
Congress’ [s] careful effort to force potential litigants

32a
to bring challenges to a rule issued under this statute
at the outset.” Am. Rd. & Transp. Builders Ass’n v.
EPA, 705 F.3d 453, 458 (D.C. Cir. 2013) (quotation
marks omitted).
Because the petitioners’ objections to the point of
obligation rule did not arise within the initial window
for judicial review of the 2010 point of obligation rule,
but only some five years later, EPA properly denied
mandatory reconsideration.
B. Merits of Challenges to EPA’s Refusal to
Revise the 2010 Point of Obligation Rule
The Alon Petitioners offer an array of arguments to
challenge the denial. None, however, is persuasive.
We are reviewing EPA’s denial of a petition for
rulemaking to amend the agency’s point of obligation
rule. See supra Part IV.A.1. Accordingly, our review is
“‘extremely limited’ and ‘highly deferential.’” New York
v. EPA, 921 F.3d 257, 261 (D.C. Cir. 2019) (quoting
Massachusetts, 549 U.S. at 527-28). “To set aside the
agency’s judgment, [we] must conclude that EPA had
not ‘adequately explained the facts and policy concerns
relied on’ or that those facts did not ‘have some basis
in the record.’ Id. (quoting WildEarth Guardians v.
EPA, 751 F.3d 649, 653 (D.C. Cir. 2014)). We have no
basis for such a conclusion. In denying the petition for
rulemaking, EPA considered the “information currently before” it and determined “that the point of
obligation is appropriately placed,” wrestling with the
petitioners’ claims to the contrary. EPA Denial at 8,
Alon J.A. 62. As is evident from our discussion below,
EPA did so with enough thoroughness and reasonableness to satisfy our limited, deferential review.

33a
We start with EPA’s reasoning, which petitioners
say is arbitrary and capricious. See 42 U.S.C.
§ 7607(d)(9)(A).
At the root of petitioners’ claim is a single premise:
that the current point of obligation misaligns incentives by requiring those who refine fossil fuel, but not
those who blend it, to meet the RFS program’s annual
standards. In petitioners’ view, this misalignment
forces refiners to purchase RINs to satisfy their RFS
obligations, jacking up their costs, while giving windfall profits to blenders, who produce (but don’t consume)
RINs. From this cycle of “RINsanity,” petitioners say,
flow harms galore. Alon Reply Br. 25. Higher RIN
prices not only threaten the financial viability of
refiners (putting our economy and energy security in
jeopardy), see, e.g., Alon Br. 46, but they incentivize
RIN hoarding, which feeds market volatility, and gives
some market participants an unfair leg up, see, e.g., id.
at 40.
The problem with this argument, however, is that
EPA reasonably explained why, in its view, there is no
misalignment in the RFS program. According to EPA,
refiners “recover the cost of the RINs they purchase”
by passing that cost along in the form of “higher prices
for the petroleum based fuels they produce.” EPA
Denial at 25, Alon J.A. 79. It grounded that conclusion
in studies and data in the record. EPA and the authors
of the pertinent studies took advantage of the fact that
there are pairs of petroleum products in which one
variant is subject to the RIN obligation (such variants
being awkwardly called “obligated fuels”), whereas its
not-quite-identical twin is not. For example, gasoline
and diesel sold for use in the United States are
“obligated,” whereas the same fuels sold for export are
not. EPA Denial at 23, Alon J.A. 77. The same goes for

34a
domestic diesel fuel, which is “obligated,” and jet fuel,
which is not. Christopher R. Knittel et al., The PassThrough of RIN Prices to Wholesale and Retail Fuels
Under the Renewable Fuel Standard 4 (July 2015)
(Knittel), Alon J.A. 534. Comparing these pairs, the
agency found that as RIN prices increased, a gap
“open[ed] up between” the price for obligated and
unobligated fuels, a gap rather precisely matching
the contemporaneous increase in RIN price—a strong
indication that refiners were “recoup[ing] the costs
associated with RIN prices.” EPA Denial at 23, Alon
J.A. 77.
Further confirming the price relationship, Professor
Knittel and his colleagues found that 73% of a change
in RIN price was passed through in the form of higher
petroleum prices in the same day, 98% within two
business days. Knittel 26, Alon J.A. 536.
Reviewing the findings, EPA (accurately) reported
that the papers by Knittel and his colleagues, and by
Argus Consulting Services, “concluded that the RIN
cost was generally included in the sale prices of
obligated fuels.” EPA Denial at 25, Alon J.A. 79; see
Knittel 26, Alon J.A. 536; Argus Consulting Services,
Do Obligated Parties Include RINs Costs in Product
Prices? 15 (Feb. 2017), Alon J.A. 564 (“There are very
specific correlating price data for diesel that indicate
that refiners . . . pass along the RINs cost . . . .”).
A similar analysis, EPA concluded, reveals that just
as (obligated) refiners do not pay excess costs, neither
do blenders (who are not obligated under the program)
nor integrated refiners (who perform their own inhouse blending) reap windfall profits. True, both earn
RINs, without purchasing them on the open market,
by blending renewable fuel into petroleum blendstock.
And true, as well, both can sell those RINs, enjoying

35a
whatever revenues market conditions and their own
efficiencies permit. But as EPA quite accurately
explained, this is only half the equation. In a competitive market there’s no such thing as a free lunch, and
blenders and integrated refiners pay their tab just as
others do; they just do so indirectly. To offer finished
fuel without attached RINs at a competitive price,
these entities must discount their blended fuel by
roughly the value of the RINs that they detached and
kept for themselves. EPA Denial at 29, Alon J.A. 83.
In other words, they “sell the finished transportation
fuel at a loss,” but “maintain[] profitability through
RIN sales.” Id. at 27-28, 29, Alon J.A. 81-82, 83.
To be sure, in response to EPA’s proposed denial,
commenters criticized the studies relied on by the
agency. They contended, for example, that Professor
Knittel and his colleagues erred by removing certain
spreads from the analysis, by including others, and by
pooling the results of various comparisons. See EPA
Denial at 25, Alon J.A. 79. But petitioners have not
raised these arguments here, and for that reason we
do not consider them. While petitioners do complain
that EPA relied on a “preliminary” analysis, see Alon
Br. 54; Alon Reply Br. 23, that objection—whatever its
persuasive force—says nothing about the other studies
in the record (for example, by Professor Knittel et al.).
Petitioners try, instead, to trace various refiner
problems to EPA’s refusal to obligate blenders. They
suggest that the alleged misplacement of the point of
obligation causes bankruptcies, see, e.g., Alon Br. 3, 47,
and inflicts economic hardship on small refineries, see,
e.g., id. at 49, especially in the form of inflicting wildly
disproportionate RIN acquisition costs on them, see,
e.g., Alon Reply Br. 26. But some of these events
occurred after EPA issued its denial, see, e.g., Alon Br.

36a
49 (“following the Denial”); Alon Reply Br. 26 (“just
after the Denial”), and are therefore not properly
before us, see Environmental Defense Fund, Inc. v.
Costle, 657 F.2d 275, 284 (D.C. Cir. 1981). More
importantly, the claims presuppose that refiners
cannot recover their RIN costs and that blenders reap
windfall profits—suppositions that, as discussed
above, EPA reasonably rejected.
Petitioners respond by plucking snippets from the
denial, stringing them together with contrasting
(bolded) conjunctions, and asserting that EPA’s
“discussion of RIN prices” is “irreconcilably inconsistent.” Alon Br. 53. But we find no inconsistency on
EPA’s part.
Take one of petitioners’ examples:
. . . RIN prices had no “significant impact on retail
gasoline (El 0) prices,” JA75;
although “RINs . . . provide a price signal to
consumers to help achieve . . . greater renewable
fuel production and use,” JA75.
Alon Br. 53 (second and third alterations in original)
(quoting EPA Denial at 21, Alon J.A. 75). At first
blush, the two comments, located on the very same
page, seem inconsistent. How could RIN prices have
no “significant impact” on retail prices, while, at the
same time, provide “a price signal to consumers”?
They can do so for the simple reason that the
remarks refer to different things, a detail omitted from
petitioners’ brief. This becomes apparent when the
passage from which petitioners plucked their quotes
(bolded and underscored below) is viewed in full:
External, non-EPA assessments similarly
concluded that increased RIN prices had

37a
not had a significant impact on retail
gasoline (E10) prices. When RIN prices rise,
the market price of the petroleum blendstocks
produced by refineries also rise to cover the
increased RIN costs, in much the same way
as they would rise in response to higher crude
oil prices. The effective price of renewable
fuels (the price of the renewable fuel with
attached RIN minus the RIN price), however,
decreases as RIN prices increase. When
renewable fuels are blended into petroleum
fuels these two price impacts generally offset
one another for fuel blends such as E 10 with
a renewable content approximately equal to
the required renewable fuel percentage
standard. Higher RIN prices also generally
result in higher prices for fuels with lower
renewable content (such as E0 or petroleum
diesel) and lower prices for fuels with higher
renewable content (such as E85 or B20). The
cost of the RIN therefore serves as a crosssubsidy, reducing the price of renewable fuels
and increasing the price of petroleum based
fuels in transportation fuel blends, thus
incentivizing increased blending of renewable
fuels into the transportation fuel pool. In this
way the RINs also help provide a price
signal to consumers to help achieve the
Congressional goals of greater renewable
fuel production and use. Fuels with higher
renewable content are relatively cheaper to
consumers than they would be absent high
RIN prices, while fuels with lower renewable
content are relatively more expensive when
RIN prices are high.
EPA Denial at 20-21, Alon J.A. 74-75.

38a
As we can see, the first statement (no significant
price impact) is referring to the price of E10—a blend
of 90% gasoline, 10% ethanol. As EPA explained, RINs
work as a “cross-subsidy,” effectively taxing the use of
petroleum-based fuels (e.g., gasoline) and subsidizing
the use of renewables (e.g., ethanol) in making a
blended transportation fuel like E10. EPA Denial at
21, Alon J.A. 75.
Before we dig in further, let’s take a step back. We
must first recognize that EPA assumes that we are
talking of a market where the RFS program, in effect,
mandates minimum levels of renewables in marketed
fuels, a mandate that necessarily impacts fuel prices.
EPA is not making a claim that the mandatory
inclusion of renewables in transportation fuel renders
a gallon of gasoline lawfully purchased at the pump
cheaper than it would have been absent the RFS
program.
To see what this means, start on the subsidy side:
Suppose a blender can realize $2.25 on a gallon of
ethanol with an attached RIN. If the blender can
detach and sell that RIN for $0.05, then the net
ethanol value is only $2.20—a $0.05 savings that in a
competitive market should pass through to consumers.
Now take the tax side: Because refiners must purchase
RINs to satisfy the RFS obligations that arise from
selling gasoline to blenders, a blender’s value for a
gallon of gasoline may rise, due to the RFS program,
from, say, $2.75 to $2.76. See Dallas Burkholder,
Office of Transportation & Air Quality, EPA, A
Preliminary Assessment of RIN Market Dynamics,
RIN Prices, and Their Effects 17, EPA-HQ-OAR-20160544-0009 (May 14, 2015), Alon J.A. 337. As a result
of both price impacts, EPA described, blended fuels
with a higher percentage of renewable content (e.g.,

39a
85% ethanol) will be cheaper than they would have
been (absent the program), whereas fuels with a lower
percentage of renewable content (e.g., pure gasoline)
will be more costly than they would have been (absent
the program). EPA Denial at 21, Alon J.A. 75. For E10,
the “two price impacts generally offset one another,”
so (back to the first statement) any change in RIN
price generally has no “significant impact on” the E10
price. Id.
But that’s just E10. There is an effect (of differing
magnitude) on, say, E85 or E0. And that is where the
second statement (“provide a price signal”) comes in:
the signal arises from a comparison of relative prices
across the spectrum of transportation fuels. Again, as
EPA explains, “[f]uels with higher renewable content
are relatively cheaper to consumers than they would
be absent high RIN prices, while fuels with lower
renewable content are relatively more expensive when
RIN prices are high.” Id. The two statements are
consistent.
Continuing the search for inconsistency, petitioners
direct our attention to “EPA’s past pronouncements.”
Alon Br. 50. In them, they see an irrational “aboutface”—with EPA saying, at first, that “low RIN prices
[were] a sign that the [RFS program] was working,”
but claiming, now, “that high RIN prices are . . .
desirable.” Id. at 51-52. Again, that’s not quite right.
All EPA originally said was that when it first adopted
the point of obligation, it did so based, in part, on its
“expectation at that time that there would be an excess
of RINs at low cost.” Regulation of Fuels and Fuel
Additives: Changes to Renewable Fuel Standard
Program, 74 Fed. Reg. 24,904, 24,963/2 (May 26, 2009)
(proposed rule); see also Alon Br. 50 (citing EPA Denial
at 13, Alon J.A. 67 (citing, in turn, 74 Fed. Reg. at

40a
24,963)). EPA did not suggest that low RIN prices were
a sign of market health—nor that high prices were a
cause for alarm.
In any case, EPA addressed petitioners’ concern
over high RIN prices head on; the agency explicitly
determined, on the current record, that “higher RIN
prices” are not “indicative of a dysfunctional RIN
market.” EPA Denial at 19, Alon J.A. 73. Rather, EPA
explained, these prices accurately reflect the increasing cost associated with “getting ever-greater volumes
of renewable fuel into the transportation fuel pool—
the explicit goal [of] the RFS program.” Id. Put more
bluntly, the increases in RIN prices are a completely
understandable effect of the program’s ever-increasing
pressure to expand renewable volumes. Pushing out
along the supply curve takes the raw market price of
the RIN-eligible fuel steadily into higher realms—
except to the extent that production innovations or
economies may tend to lower costs. So far as appears,
it has nothing to do with EPA’s allocation of the
obligation.
What about EPA’s concern, petitioners ask, that
including blenders in the point of obligation would
expand the number of obligated parties and, as a
result, ratchet up the program’s complexity? Isn’t that
hard to square with EPA’s claim, made years earlier,
that “essentially all downstream blenders . . . are
[already] regulated parties”? Alon Br. 42 (quoting 75
Fed. Reg. at 14,722/2). Again, not at all. Although the
participation of all (or nearly all) blenders in the
RIN market subjects them to RFS registration,
recordkeeping, and reporting requirements, “the majority of these downstream [regulated] parties are . . .
currently not obligated parties.” EPA Denial at 69,
Alon J.A. 123 (emphasis added). As EPA explained,

41a
there “is a significant distinction between being a
‘regulated party’ and being an ‘obligated party’” Id.
“Obligated parties must meet all of [the requirements
faced by regulated parties] and also calculate an
annual renewable volume obligation, acquire the
appropriate number of RINs in the market, practic[e]
due diligence to ensure [the RINs’] validity, file annual
compliance reports demonstrating compliance, and
maintain records to that effect.” Id. at 69 n.205, Alon
J.A. 123 (emphasis added); see, e.g., 40 C.F.R.
§§ 80.1427(a), 80.1450(a), 80.1451(a), 80.1454(a). It
was not unreasonable for EPA to conclude that imposing these burdens on additional entities would add to
the program’s complexity (and therefore be undesirable absent an adequate offsetting benefit).
Nor was it unreasonable to find that going down
this route—overhauling a foundational element of the
program would create “uncertainty in the fuels marketplace.” EPA Denial at 2, Alon J.A. 56. As EPA said,
“all parties regulated in the RFS program have made
significant investments and decisions about their participation in the program and their position in the
market on the basis of the existing regulations,
including the definition of obligated parties.” EPA
Denial at 79, Alon J.A. 133. In these circumstances, it
isn’t hard to imagine how changing course could throw
players off their game. Of course, as petitioners note,
uncertainty may have “plagued the RFS Program for
years.” Alon Br. 37. But true or not, EPA needn’t pile
on; the cure for uncertainty isn’t spawning more
uncertainty.
Taking a step back, petitioners launch a closing
broadside against the entire process. They assert that
EPA “disregarded this Court’s remand” in ACE, 864
F.3d at 737, and arbitrarily credited some comments

42a
over others. Alon Br. 31-32, 55-56. But the ACE
remand required, at most, that the agency “address
the point of obligation issue.” 864 F.3d at 737. And, as
detailed throughout this opinion, the agency has done
so reasonably, analyzing the data and explaining its
decision. Nothing more was required.
* * *
We have considered the Alon Petitioners’ other
arguments and have found them to be either without
merit or, in the case of the argument relying on 42
U.S.C. § 7545(o)(5)(A), see Alon Br. 34, insufficiently
developed, see, e.g., Masias v. EPA, 906 F.3d 1069,
1077 (D.C. Cir. 2018). For the foregoing reasons, the
petitions for review are denied.
V. 2017 Annual Volumetric Rule
We turn now to the Coffeyville Petitioners’
challenges.
A. Point of Obligation
We first consider the Coffeyville Petitioners’ challenge to EPA’s decision in the 2017 Rule not to reassess
which categories of industry players are “obligated
parties” under the renewable fuel program. As the
Coffeyville Petitioners read it, the statutory provision
requiring EPA to set annual renewable fuel percentage standards also imposes on EPA a nondiscretionary
duty to reconsider—every year—which types of entities
are obligated to demonstrate to EPA compliance with
the percentage standards. See 42 U.S.C. § 7545(o)(3)(B).
They claim EPA shirked that duty when it treated the
issue as beyond the scope of its 2017 annual rulemaking. EPA counters that it identified the obligated
parties in 2007 pursuant to Congress’s mandate to set
“compliance provisions” for the new renewable fuel

43a
program, id. § 7545(o)(2), reaffirmed that decision in
2010, and that nothing in the mandate to calculate the
annual percentage standards requires it to reconsider
the point of obligation each year. EPA also asserts that
it appropriately addressed the Coffeyville Petitioners’
complaints that it obligated the wrong parties in a
separate proceeding from its annual volumetric
rulemaking.
1. Jurisdiction
EPA and a coalition of Respondent-Intervenors
representing the renewable fuel and refinery industries
assert that we lack jurisdiction because the Coffeyville
Petitioners effectively challenge the compliance rule
that has been on the books for a decade or so, see
40 C.F.R. § 80.1406(a)(1), and did not petition within
60 days of its publication or within 60 days of any
valid “grounds arising” thereafter. See 42 U.S.C.
§ 7607(b)(1); Med. Waste Inst. v. EPA, 645 F.3d 420,
427 (D.C. Cir. 2011). But petitioners are not challenging EPA’s decision to adopt the rule in 2007 or retain
it in 2010. Rather, they contend that the provision
calling on EPA to set annual volumes of biofuels
“applicable to refineries, blenders, and importers, as
appropriate,” requires EPA to reassess each year
whether the point of obligation set when the agency
established the program is still “appropriate,” or if
EPA should re-assign it and restructure the RIN
market and other compliance infrastructure going
forward. See 42 U.S.C. § 7545(o)(3)(B)(ii)(I). That
challenge was timely filed within 60 days of the
promulgation of the annual fuel standards. See supra
Part IV.A.1.

44a
2. Merits
This dispute turns on the roles of two provisions of
the statute directing the EPA to establish and run a
Renewable Fuel Program, 42 U.S.C. § 7545(o)—
paragraphs (2) and (3).
Paragraph (2) directs EPA to “promulgate regulations”
setting up a program to “ensure that transportation
fuel sold or introduced into commerce in the United
States . . . contains at least the applicable volume[s] of
renewable fuel,” as specified in subparagraph (2)(B).
Id. § 7545(o)(2)(A)(i). Among the parameters Congress
required EPA to include were “compliance provisions
applicable to refineries, blenders, distributors, and
importers, as appropriate,” to ensure that the requirements of paragraph (2), including the applicable volume
requirements specified in subparagraph (2)(B), are
met. Id. § 7545(o)(2)(A)(iii)(I), (B). There is no question
that EPA has authority to set those parameters,
including the point of obligation, and to adjust them if
a change is needed.
Paragraph (3), in turn, requires EPA to determine
and publish annual renewable fuel obligations designed
to “ensure[] that” the applicable volumes specified in
paragraph (2) are met. Id. § 7545(o)(3)(B)(i). Those
renewable fuel obligations must:
(I) be applicable to refineries, blenders, and
importers, as appropriate;
(II) be expressed in terms of a volume
percentage of transportation fuel sold or
introduced into commerce in the United
States; and

45a
(III) . . . consist of a single applicable
percentage that applies to all categories of
persons specified in subclause (I).
Id. § 7545(o)(3)(B)(ii)(I)–(III).
The parties’ dispute centers on the meaning of “as
appropriate” in subclause (3)(B)(ii)(I). The Coffeyville
Petitioners contend that the phrase unambiguously
requires EPA annually to reconsider which parties it
is “appropriate” to obligate to meet the renewable fuel
obligations. EPA responds that the statute is, at most,
ambiguous as to whether Congress expected EPA
annually to revisit the obligated-parties designation,
or whether the agency may generally rely on the
“appropriate[ness]” finding it made pursuant to its
paragraph (2) authority. We begin by asking “whether
Congress has directly spoken to the precise question
at issue,” and conclude that it has not. Chevron, 467
U.S. at 842.
EPA reads “as appropriate” in paragraph (3) to
mean that the agency has “discretion” to decide
whether, when, and how to reassess which of three
types of industry actors—refineries, blenders, and
importers—should continue to bear the point of
obligation, as originally designated in the compliance
provisions. See EPA Denial, Coffeyville J.A. 779-80. At
oral argument, the agency conceded that its exercise
of this discretion is reviewable, so that the exclusion of
the point of obligation issue from an annual rulemaking could, under other circumstances, constitute an
abuse of discretion. Rec. of Oral Arg. 1:22:22-1:24:00;
1:37:45-1:40:11.
The Coffeyville Petitioners object that the phase
“applicable . . . as appropriate” means applicable as
contemporaneously determined to be appropriate in

46a
the annual volumetric rulemakings. Coffeyville Br. 3033; see also Conc. Op. 4-5, 7. But paragraph (3) does
not specify when or in what context EPA must make
its appropriateness determination, nor does the phrase
“as appropriate” itself specify a particular temporal
dimension—as between, for example, parties appropriately designated in the past (as EPA interprets it)
and parties now appropriately selected (as Coffeyville
insists). The term “appropriate” “naturally and traditionally includes consideration of all the relevant
factors,” Michigan v. EPA, 135 S. Ct. 2699, 2707 (2015)
(quoting White Stallion Energy Center, LLC v. EPA,
748 F.3d 1222, 1266 (D.C. Cir. 2014) (Kavanaugh, J.,
concurring in part and dissenting in part)), but it does
not dictate when that consideration must be made.
In other words, the requirement that the point of
obligation be “appropriate” is at most grounds for
assessing whether the agency adequately explained its
policy choices regarding the appropriateness determination, not for imposing our own gloss on that broad
term as a matter of law. See Kisor v. Wilkie, 139 S. Ct.
2400, 2448-49 (2019) (Kavanaugh, J., concurring in
the judgment) (“[S]ome cases involve regulations that
employ broad and open-ended terms like ‘reasonable,’
‘appropriate,’ ‘feasible,’ or ‘practicable.’ Those kinds
of terms afford agencies broad policy discretion, and
courts allow an agency to reasonably exercise its
discretion to choose among the options allowed by the
text of the rule. But that is more State Farm than
Auer” or Chevron (emphasis added)). Here, as explained
below, EPA reasonably exercised its discretion, and
explained its decision, to address the point of obligation issue in a separate proceeding from its annual
volumetric rulemaking.
The fact that paragraphs (2) and (3) both include the
phrase “as appropriate” does not make the Coffeyville

47a
Petitioners’ the only permissible interpretation. Even
if, as our colleague contends, Conc. Op. 7, the two
phrases bear the exact same meaning, but see Coffeyville
Br. 30-31 (arguing that paragraphs (2) and (3) are
“worded differently” and have “different contexts”),
paragraph (3) simply does not dictate when or in what
context EPA must make the appropriateness determination. It is the surrounding context, not the
phrases themselves, that suggests when EPA might
make that choice.
Unable to point to any express textual requirement
that EPA annually reconsider the point of obligation,
the Coffeyville Petitioners contend that, had Congress
intended to allow EPA in annual volumetric rulemakings to rest on its paragraph (2) appropriateness
determination, subclause (3)(B)(ii)(I) could have more
simply cross-referenced paragraph (2). But replacing
subclause (3)(B)(ii)(I) with a simpler cross-reference
would not have achieved quite the same effect.
While refineries, blenders, importers, and distributors
may all be subject to compliance provisions under
paragraph (2), paragraph (3)’s applicability provision
points to a more limited universe of potential obligated
parties—to refineries, blenders, and importers, but not
distributors. That supports EPA’s understanding of
subclause (3)(B)(ii)(I) as a cross-reference that also
clarifies a limit on EPA’s options in setting the point
of obligation. See 72 Fed. Reg. at 23,923/2 (preamble
for compliance rule referencing paragraph (3)’s applicability provision).
We are unpersuaded by the suggestion that such
limitation was so clear even without subclause
(3)(B)(ii)(I) that EPA’s reading of that applicability
provision renders it superfluous. The suggestion is
that, because distributors do not “introduce” fuel into

48a
commerce, they could not be obligated parties in any
event, with or without the applicability provision. Our
colleague posits that blenders—but not distributors—
can in fact “introduce” transportation fuel into commerce by blending gasoline and diesel fuel with other
fuels that have not already been introduced by
someone else. Conc. Op. 11. But that argument rests
on a complicated series of inferences from spare
statutory text, as well as post-enactment regulations
that do not necessarily show what the statute must
have meant. For example, our colleague reasonably
infers that the national “volume[] of transportation
fuel,” 42 U.S.C. § 7545(o)(3)(A), must be counted at the
first moment each gallon of fuel enters commerce, in
order to avoid double-counting. But, the statute
nowhere states the point directly. Still less clearly
does the statute state our colleague’s corollary—
necessary to the surplusage argument—that the point
of obligation must also be placed, if at all, at the first
moment a gallon of fuel enters commerce. That
corollary is less obvious, because the statutory link
between the point of obligation and entry into
commerce is not ironclad: All parties agree that not
every gallon of transportation fuel must be subject to
the point of obligation upon entry into commerce. The
statute plainly allows EPA to obligate an “appropriate” subset of the three categories of parties. And
obligating blenders would involve double counting
unless the transportation fuel they use to create
blends were not already counted upon its importation
or sale to them. Under the circumstances, it is reasonable to read subclause (3)(B)(ii)(I) as clarifying what is
at best a non-obvious inference that distributors
cannot be subjected to the point of obligation.
So subclause (3)(B)(ii)(I) as EPA reads it is not a
superfluity, but makes clear that EPA may have

49a
permissibly placed the point of obligation on refineries, blenders, and importers, but not distributors. For
the same reason, subclause (3)(B)(ii)(III), which
requires that the annual standards apply “to all
categories of persons specified in subclause (I),” id.
§ 7545(o)(3)(B)(ii)(III), does not contain what our
colleague views as an unnecessary double crossreference to paragraph (2), because it, too, is operative
in not just cross-referencing, but also clarifying a limit
on the three permissible targets of its “single applicable percentage.”
The thrust of the Coffeyville Petitioners’ retort—
that if Congress had wanted to confer discretion or
provide a limiting cross-reference to paragraph (2), it
would have said so more plainly—applies with greater
force against their own reading. Had Congress
intended EPA to consider on an annual basis whether
to redo the point of obligation designation—a designation that no-one disputes is a necessary cornerstone of
the paragraph (2) compliance provisions—it knew how
to impose such a requirement. The Clean Air Act’s
provisions on ambient air quality, for instance, require
EPA to “complete a thorough review” of the air quality
standards “at five-year intervals” and “promulgate
such new standards as may be appropriate.” Id.
§ 7409(d)(1). The Act’s provisions controlling hazardous
air pollutants emitted from major and area sources
require EPA to “review, and revise as necessary” the
applicable emission standards “no less often than
every 8 years.” Id. § 7412(d)(6). Paragraph (3) of the
RFS program, in contrast, does not tell EPA to
“complete a thorough review,” or “review, and revise
as necessary” its point of obligation decision—or
anything even close.

50a
To be sure, EPA’s reading is not ineluctable. We do
not doubt that Congress could have more directly
provided that the renewable fuel obligations do not
apply to distributors. See Conc. Op. 8. But, for the
reasons discussed, we are unconvinced that paragraph
(3) plainly requires EPA to consider adjusting the
point of obligation each year. See Valero Energy Corp.
v. EPA, No. 7:17-cv-00004-O, 2017 WL 8780888, at *4
(N.D. Tex. Nov. 28, 2017) (holding that “there is no
clear statutory mandate . . . obligating [EPA] to evaluate or adjust . . . what entities are ‘appropriate[ly]’
forced to comply with” the annual renewable fuel
obligations (alterations in original) (quoting 42 U.S.C.
§ 7545(o)(3)(B)(ii)(I))). Accordingly, we conclude that
the meaning of “as appropriate” in paragraph (3) is
ambiguous and turn now to whether EPA’s construction is “based on a permissible construction of the
statute.” Chevron, 467 U.S. at 843.
The difficulty of squaring the Coffeyville Petitioners’
reading of “as appropriate” with the structure and
purpose of the statute convinces us of the reasonableness of EPA’s interpretation. As a structural matter,
the RFS program contains not only “annual” volumetric determinations, Conc. Op. 1, but also a slew of
compliance provisions that are not annually redetermined. As a practical matter, the point of
obligation is the foundational “compliance provision”
of the entire renewable fuels program; EPA could not
“ensure” that applicable volumes of renewable fuels
are introduced into the nation’s transportation fuel
supply without designating the parties responsible for
carrying the renewable fuel standards into operation.
Id. § 7545(o)(2)(A)(i). To that end, in writing the
compliance provisions, EPA placed the renewable fuel
obligation on the entities at the head of the United
States supply chain for nonrenewable fuels—domestic

51a
refiners, and importers of fuel refined elsewhere. See
72 Fed. Reg. at 23,923-24. After additional consideration, EPA in 2010 adhered to that decision. See 75 Fed.
Reg. at 14,721-22 (codified at 40 C.F.R. § 80.1406(a)(1));
see also Monroe Energy, 750 F.3d at 912. No one
challenged EPA’s decision in 2007 or 2010, and EPA
declined to revisit the issue in response to comments
in the 2017 annual rulemaking urging it to shift the
2017 point of obligation to blenders. See Response to
Comments at 542, Coffeyville J.A. 761.
The focus of the annual rulemakings, in contrast, is
to translate the applicable volumes—as specified in
paragraph (2), or set according to the process there
described—into percentage requirements for each
renewable fuel. 42 U.S.C. § 7545(o)(3)(B)(ii). It would
be strange indeed if Congress required EPA, as it went
about its annual quantitative standard-setting duties,
also to rethink a choice so basic to the RFS program’s
architecture. This implausibility is illuminated by the
fact that Congress required EPA to facilitate statutory
compliance through a credit trading program, which of
necessity requires some year-to-year stability. See id.
§ 7545(o)(5). EPA responded by setting up the RIN
system, with flexibility anchored to a fixed baseline—
the point of obligation. The compliance system is
flexible in that RINs may be retired in compliance
demonstrations not only in the compliance year during
which they were generated, but also throughout the
ensuing compliance year, 40 C.F.R. § 80.1427(a)(6),
and obligated parties may carry over excess RINs or
RIN deficits from year to year, id. § 80.1427(a)(1), (5)–
(6); see Monroe Energy, 750 F.3d at 913.
Annual changes to the point of obligation could
cause “disparities in RIN-holdings,” leaving formerly
obligated parties with “significantly more RINs,

52a
including carryover RINs, than they desire or can use”
and newly obligated parties with “lower balances than
they would desire to protect themselves against
shortfalls in RIN availability or RIN price volatility.”
EPA Denial at 78, Coffeyville J.A. 850. “[A] change to
the point of obligation could also cause volatility in the
[RIN] market,” inhibiting the “ability [of] parties that
possess excess carryover RINs to recover the cost of
the RINs they hold by selling them to other parties.”
Id. It is not plausible that Congress meant EPA to
consider uprooting the baseline of the RFS program
every year. The real stretch is that Congress would
have imposed such an onerous and potentially disruptive duty merely by use of the phrase “as appropriate.”
The Coffeyville Petitioners’ reading is not made any
more plausible by highlighting the likelihood that, on
annual consideration of the point of obligation, EPA
would only need to consider recent information, and
likely would stay its course. Even if the point of obligation in fact rarely changed, the mere “reconsider[ation]”
of the framework would “likely cause delays to the
investments necessary to expand the supply of
renewable fuels in the United States.” See EPA Denial
at 2, Coffeyville J.A. 774. EPA reasoned that “fuel[]
industry participants [would] withhold significant
investment decisions until the EPA’s final decision
and the fallout from the decision are known.” Id. at 8182, Coffeyville J.A. 853-54. Insisting that the issue be
on the regulatory agenda every year would sow
“significant market uncertainty and potential turmoil”
into the RFS program without offsetting benefit. Id.
Furthermore, any requirement that an agency
repeatedly go through a regulatory process on an issue
that promises to draw a regular parade of criticism
from interest groups with ample resources is itself

53a
burdensome. See AT&T Corp. v. FCC, 220 F.3d 607,
630-31 (D.C. Cir. 2000). This issue is no exception. As
discussed above, EPA in 2016 and 2017 considered and
decided against reopening its point of obligation rule.
In so doing, it received upwards of 18,000 comments
and published an exhaustive, 85-page decision. See
EPA Denial at 1-85, Coffeyville J.A. 771-857. “Given
the time pressure associated with its annual standards rulemaking,” EPA believes it would not be
feasible or worthwhile to undertake such reconsideration annually. Id. at 7 n.10, Coffeyville J.A. 779.
Indeed, as EPA acknowledged at oral argument, the
agency “has been late on [its annual rules] before,”
even “when [it hasn’t] taken up the point of obligation.” Rec. of Oral Arg. 1:25:44-52. “[A]dd[ing] on the”
duty to reassess the point of obligation annually, EPA
tells us, “would be a significant burden.” Id. at 1:25:551:26:05. Our colleague doubts that EPA’s year-to-year
burden would be appreciable, but we see no ground to
question EPA’s judgment to the contrary. It seems
unlikely that Congress wrote the applicability provision in order to heap that annual duty onto EPA’s
plate. It seems even less likely given the absence of
reason to think that yearly second-guessing of program fundamentals makes sense, or that, when and if
the need for a program restructuring arises, EPA
would fail to act. Indeed, the statute elsewhere explicitly requires EPA to conduct “periodic reviews of . . .
the feasibility of achieving compliance with the [applicable volume] requirements.” 42 U.S.C. § 7545(o)(11).
That provision has not been briefed, but would appear
to require EPA to reconsider the point of obligation if
it concluded that its placement was obstructing
compliance.
Finally, EPA’s approach coheres with basic principles of administrative law. In general, the choice

54a
between various procedural channels lies within the
“informed discretion of the administrative agency.”
SEC v. Chenery Corp., 332 U.S. 194, 203 (1947). That
discretion properly includes judgments about the scope
of rulemakings and when to relegate ancillary issues
to separate proceedings: “Agencies, like legislatures,
do not generally resolve massive problems in one fell
regulatory swoop.” Massachusetts, 549 U.S. at 524;
see, e.g., Grp. Against Smog & Pollution, 665 F.2d at
1292 (“. . . EPA cannot soundly be charged with arbitrariness merely because it chose a separate rulemaking
proceeding as the process for proposing a revised
standard in lieu of an undertaking to do so in the
narrower context of the opacity standard proceedings
as petitioners requested.”). Once the agency has resolved
an issue in a separate proceeding, it may defend
against related criticism by “simply refer[ing]” to the
other proceeding, so long as the “reasoning remains
applicable and adequately refutes the challenge.”
Bechtel v. FCC, 10 F.3d 875, 878 (D.C. Cir. 1993). EPA
reasonably reads “as appropriate,” in paragraph
(3)(B), to leave undisturbed these background norms
of broad but reviewable procedural discretion.
Our holding today does not give EPA the limitless
and unreviewable discretion feared by our colleague.
As we have said, EPA’s determination as to whether it
is “appropriate” to reconsider the point of obligation in
the context of an annual volumetric rulemaking is
reviewable for abuse of discretion. EPA did not abuse
its discretion in refusing to do so here. Indeed, it
considered whether to change the point of obligation
rule in a separate, contemporaneous proceeding that
yielded a final order that we also have reviewed and
found to be adequately justified. See supra Part IV.B.
We do not address whether it would be an abuse of
discretion for EPA to refuse to reconsider the point of

55a
obligation—in an annual volumetric rulemaking or
otherwise—in extreme circumstances akin to those
posited by our colleague’s hypothetical about the
continuing study of an abolished tort. See Conc. Op. 5.
In sum, we hold that EPA permissibly rejected the
claim that paragraph (3) requires the agency annually
to reassess the point of obligation in the renewable fuel
program. Because EPA has no duty to reconsider the
appropriateness of its point of obligation regulation as
part of its yearly determination of volumetric requirements, it was not arbitrary for EPA to treat comments
complaining that it obligated the wrong parties as
appropriately assessed in a separate proceeding, and
beyond the scope of proceedings for the 2017 volumetric rulemaking. For these reasons, we deny the
Coffeyville Petitioners’ petition.
B. Cellulosic Biofuel Projection
The Coffeyville Petitioners lob a variety of
challenges at EPA’s cellulosic biofuel projection for
2017. Many of these petitioners, however, raised many
of the same arguments before. See ACE, 864 F.3d at
727-29 (addressing challenges to EPA’s 2014-16 projection). We rejected those arguments once—and do so
again.
First, the Coffeyville Petitioners contend that
“EPA’s [m]ethodology” for projecting cellulosic biofuel
production is invalid because it “[c]hronically [o]verestimates [a]ctual [p]roduction.” Coffeyville Br. 40. But
that argument—that EPA has “repeatedly . . . overshot
the mark,” id. at 41—doesn’t apply to the methodology
EPA actually used here, as we found in ACE, 864 F.3d
at 727-28. As we explained when petitioners deployed
this same argument in challenging the 2014-16 projection, “the majority of EPA’s prior overestimations”

56a
utilized a different methodology—one that we rejected
in API, 706 F.3d at 478-81, and that the EPA
accordingly abandoned. ACE, 864 F.3d at 727. The
new methodology—the one EPA used here—has been
applied only twice before. At the time EPA made its
final evaluation for 2017, that methodology had (as
detailed in the table below) undershot for 2015 and
overshot for 2016. See Assessment of the Accuracy of
Cellulosic Biofuel Production Projections in 2015 and
2016, EPA-HQ-OAR-2016-0004-3687, at 1-4 (Dec. 12,
2016), Coffeyville J.A. 515-18. This is hardly a pattern
of chronic overestimation.
EPA
Actual
RFS
Record
Estimate Production EPA
Compliance
(millions (millions of Error ** Citation
Year
of RINs)
RINs)
Q1
2015

[No Data in the Record]

Q2
Q3
Q4

35.00

53.36

- 34.4%

J.A. 515

230.00

198.39*

+ 15.9%

J.A.

Q1

Q2
2016

Q3
Q4

* At the time of EPA’s assessment, the agency had
actual RIN production data for only the first nine
months of 2016 (123.99 million gallons). To calculate
actual production for the year, EPA extrapolated the
likely RIN generation for the last three months of the
year based on the historical relation (a multiple of 1.8)
between the average quarterly generation in the first

57a
three quarters and that of the last quarter, yielding a
figure of 74.39 million RINs for the last quarter. See
Coffeyville J.A. 51617.
** The EPA error has been calculated as the
difference between the EPA estimate and actual
production, divided by the actual production.
Second, the Coffeyville Petitioners claim that EPA
failed to generate a projection “based on” the cellulosic
biofuel estimate provided by the Energy Information
Administration (EIA), as required by statute. 42 U.S.C.
§ 7545(o)(7)(D)(i). That is so, they say, because 96% of
EPA’s projected volume was biogas, a type of cellulosic
biofuel that EIA did not include in its estimate. See
Coffeyville Br. 43-44. The problem for petitioners,
however, is that this closely parallels an argument we
rejected in ACE: “[W]e do not agree that EPA failed to
generate projections ‘based on’ the [EIA’s] estimates,”
even though those “estimates did not contain figures
for [biogas] production—production that accounts for
the vast majority of cellulosic biofuel” (“around 90
percent”). ACE, 864 F.3d at 724, 729. Here, as there,
EPA showed sufficient “respect” for EIA’s estimates.
Id. at 729. When limited to fuels actually analyzed by
EIA, EPA’s estimates were “very similar” to EIA’s, id.;
see 2017 Rule, 81 Fed. Reg. at 89,758/1, a fact that the
Coffeyville Petitioners do not contest.
Congress demanded no more. Nothing in the statute
required EPA to, as the Coffeyville Petitioners insist,
“work[] with the EIA to develop information” about
biogas. Coffeyville Br. 44. “[T]he Administrator of the
Energy Information Administration shall provide . . .
an estimate,” 42 U.S.C. § 7545(o)(3)(A), and EPA shall
“respect” it, API, 706 F.3d at 478. That’s it. In showing
such respect, EPA, of course, must “understand how
EIA derived” its estimate. Coffeyville Reply Br. 24.

58a
But, contrary to the Coffeyville Petitioners’ contention, EPA did just that. The agency identified the types
of cellulosic biofuels that EIA considered and then,
to test the integrity of its projection, conducted an
apples-to-apples comparison, “limiting the scope of
[its] projection to the companies assessed by EIA.” See
2017 Rule, 81 Fed. Reg. at 89,757-58. Nothing more
was required.
Third, the Coffeyville Petitioners object that EPA
relied on “information from the [biogas] industry”—an
industry “with a direct financial interest in the outcome of the rule.” Coffeyville Br. 45. The Petitioners
characterize this as “reliance on undisclosed information.” Id. But EPA did disclose the information
from the biogas industry—and that the information
came from that industry; it just did so in the aggregate. See October 2016 Assessment of Cellulosic
Biofuel Production from Biogas (2017), EPA-HQ-OAR2016-0004-3711, at 2-6 (Dec. 12, 2016), Coffeyville J.A.
536-40. All the agency withheld was company-specific
information, claiming that it had to withhold such
data as confidential business information, see id. at 7,
Coffeyville J.A. 541; see also 40 C.F.R. § 2.211(b), a
claim that petitioners never even attempt to rebut, see
Masias v. EPA, 906 F.3d 1069, 1077 (D.C. Cir. 2018)
(“It is not enough merely to mention a possible argument in the most skeletal way, leaving the court to do
counsel’s work . . . .” (quoting Schneider v. Kissinger,
412 F.3d 190, 200 n.1 (D.C. Cir. 2005))).
As for the implication of bias, we have previously
upheld EPA’s reliance on “biofuel producers’ own
forecasts.” ACE, 864 F.3d at 728; see also API, 706
F.3d at 478 (recognizing that producers are an “almost
inevitable source of information”). Here, as in ACE,
EPA did not “blindly adopt[] the facilities’ own

59a
forecasts”; it “performed its own investigation.” 864
F.3d at 728; see October 2016 Assessment of Cellulosic
Biofuel Production from Biogas, supra, at 4, Coffeyville
J.A. 538 (“To verify the reasonableness of these projections, EPA compared the projected volume from each
registered facility to the registered capacity of that
facility.”). Petitioners point to no unreasonable step by
EPA in its efforts to address “the uncertainty and
unreliability identified by the [Coffeyville] Petitioners.”
ACE, 864 F.3d at 728.
Fourth, the Coffeyville Petitioners protest EPA’s
reliance on “facilities’ actual production in prior years”
as a floor for projecting future cellulosic biofuel production. Coffeyville Br. 46. This was error, they say,
because some companies might cease production. Perhaps
so. But, as we said in ACE, although unforeseen issues
“could prevent a producer from meeting” its prior
year’s production, it was “reasonable” for EPA to
expect, as a general matter, “that a company’s output
would grow year-over-year as the company gained
experience.” 864 F.3d at 728. This seems especially
true in an industry with the government’s wind
surging at its back. And even were EPA’s assumption
not true for each company, any one facility’s shortfall,
EPA explained, could be “off-set” by new facilities
coming online or existing facilities exceeding the
high end of their projected production range. See
Renewable Fuel Standard Program—Standards for
2017 and Biomass-Based Diesel Volume for 2018:
Response to Comments, EPA-HQ-OAR-2016-0004-3753,
at 444 (Dec. 12, 2016), Coffeyville J.A. 707. This explanation fulfills EPA’s “duty to articulate a ‘reasonable
and reasonably explained’ approach to setting the low
end of the production ranges.” ACE, 864 F.3d at 729
(quoting Comtys. for a Better Env’t v. EPA, 748 F.3d
333, 335 (D.C. Cir. 2014)).

60a
Fifth, the Coffeyville Petitioners complain that EPA
should have based its cellulosic biofuel projections on
“actual” prior production. Coffeyville Br. 47. But this
backward looking approach would have, in EPA’s
view, “ignore[d] the potential for facilities . . . to
increase their fuel production rates” and would have
been “inappropriately conservative” in light of the
“year-over-year increases” that EPA had observed “in
recent years.” 2017 Rule, 81 Fed. Reg. at 89,761/1. We
cannot say that in rejecting such an approach EPA
violated “its duty to take a ‘neutral aim at accuracy.’”
ACE, 864 F.3d at 727 (quoting API, 706 F.3d at 476).
For these reasons, we reject the Coffeyville Petitioners’
challenges to EPA’s cellulosic biofuel projection for
2017. See ACE, 864 F.3d at 729.
C. Cellulosic Waiver
The Coffeyville Petitioners also challenge EPA’s
decision to use less than all of its discretionary cellulosic waiver authority to lower the 2017 requirements
for advanced biofuel and total renewable fuel. Having
reduced the 2017 cellulosic biofuel requirement by
5.189 billion gallons, EPA had authority to reduce the
advanced biofuel and total renewable fuel requirements “by the same or a lesser volume.” 42 U.S.C.
§ 7545(o)(7)(D)(i). To decide by how much to reduce
these statutory requirements, EPA first determines
what reduction in the advanced biofuel requirement
will yield a “reasonably attainable” volume, and it
then mechanically applies an equivalent reduction to
the total renewable fuel volume. 2017 Rule, 81 Fed.
Reg. at 89,752-53. Petitioners do not directly challenge
this methodology. Instead, they argue that EPA
applied it arbitrarily in deciding to waive only 4.719
billion gallons of the advanced biofuel volume for 2017,
rather than the maximum available waiver of 5.189

61a
billion gallons. We again reject some of their arguments as foreclosed by precedent and others on their
own terms.
First, the Coffeyville Petitioners argue that EPA
sought to justify its 2017 advanced biofuel volume in
part by making an impermissible comparison to the
statutory volume set by Congress for 2022. In response
to a comment expressing concerns about utilization of
non-cellulosic advanced biofuels (which could be
food-based) and possible adverse effects on food availability, EPA noted that its “reasonably attainable”
non-cellulosic advanced biofuel volume for 2017 (approximately 4 billion gallons) was “somewhat higher than
the level envisioned in the statute for 2017” (3.5
billion), “but well below the level of such fuels
Congress expected would be used by 2022” (5 billion).
Response to Comments at 214, Coffeyville J.A. 689.
According to petitioners, “by comparing 2017 volumes
with 2022 statutory targets, EPA departed from
Congress’s intent.” Coffeyville Br. 50.
However, nothing in the statute forbids EPA from
taking account of future statutory volumes in this way.
Although Congress specified presumptively applicable
volumes for certain years, it also provided waiver
authority to depart from those volumes. Indeed, the
discretionary waiver provision necessarily empowers
EPA to depart upward from the statutory level of noncellulosic advanced biofuel for a given year: reducing
the advanced biofuel volume by less than the reduction
in cellulosic biofuel, as section 7545(o)(7)(D)(i) permits,
is mathematically equivalent to increasing the volume
of non-cellulosic advanced biofuels, to “partially
backfill for missing cellulosic biofuel.” 2017 Rule, 81
Fed. Reg. at 89,763/1. As we have noted, the cellulosic
waiver provision “grants EPA ‘broad discretion’ to

62a
consider a variety of factors” in exercising this authority to depart from the presumptive statutory volumes.
ACE, 864 F.3d at 733 (quoting Monroe Energy, 750
F.3d at 915). In this case, while deflecting a comment
about food availability, EPA observed that its noncellulosic advanced biofuel volume for 2017—while
higher than the statutory volume envisioned for that
year—was lower than the presumptive statutory volume
for the near future. And it then reasonably concluded
that this “somewhat higher interim volume reflect[ed]
[its] assessment that it is appropriate to allow noncellulosic advanced biofuels to partially backfill for
missing cellulosic volumes in light of the associated
[greenhouse gas] and energy security benefits.” Response
to Comments at 214, Coffeyville J.A. 689.
Second, the Coffeyville Petitioners argue that EPA
failed to explain its estimate of reasonably attainable
2017 imports of sugarcane ethanol, a type of noncellulosic advanced biofuel. Sugarcane ethanol imports
have varied greatly from year to year, reaching a high
of 681 million gallons in 2006 but falling to 64 million
gallons in 2014 and 89 million gallons in 2015. See
2017 Rule, 81 Fed. Reg. at 89,764. At the time of the
2017 Rule, EPA expected only 76 million gallons to be
imported in 2016, but it nonetheless adhered to its
proposed estimate of 200 million gallons for 2017—
an estimate originally based on EPA’s judgment that
circumstances in 2017 were “not . . . significantly
different” from circumstances in 2016, for which EPA
had also projected 200 million gallons. Id. at 89,763/3.
EPA acknowledged the “recent low import levels,” but
also cited “the difficulty in precisely identifying the
reasons” for the historical “high variability,” given
“uncertainty” as to market factors including “ongoing
growth in gasoline demand in Brazil, and competing
world demand for sugar.” Id. at 89,764-65. The agency

63a
accordingly reaffirmed that 200 million gallons
“reflects a reasonable intermediate point between the
lower levels imported recently and the considerably
higher levels that have been achieved in earlier years.”
Id. at 89,765/2.
There is some force to petitioners’ objection to EPA’s
adherence to an estimate well over double the actual
imports in the three preceding years. However, our
review is “particularly deferential in matters implicating predictive judgments.” Music Choice v. Copyright
Royalty Bd., 774 F.3d 1000, 1015 (D.C. Cir. 2014)
(quoting Rural Cellular Ass’n v. FCC, 588 F.3d 1095,
1105 (D.C. Cir. 2009)). We accordingly upheld EPA’s
identical 2016 sugarcane ethanol estimate as “reasonable and reasonably explained” in ACE, 864 F.3d at
736 (quotation marks omitted). In that case, we held
that EPA reasonably “concluded that ‘a somewhat
lower level of imports will occur than the historic
average’ of 300 million,” based on a similar analysis of
market factors. Id. (quoting 2014-16 Rule, 80 Fed. Reg.
at 77,478/2). Here, we cannot say that one more year
of low imports made it arbitrary for EPA to adhere to
that same projection for 2017.
Third, the Coffeyville Petitioners object to EPA’s
analysis of supply and demand for regular gasoline
(E0) and gasoline with added ethanol (E15 and E85).
However, this analysis played no role in EPA’s exercise
of its discretionary cellulosic waiver authority under
section 7545(o)(7)(D)(i). As noted above, EPA’s exercise
of that authority rested entirely on its determination
of reasonably attainable advanced biofuel volumes.
See 2017 Rule, 81 Fed. Reg. at 89,773-74. The disputed
analysis of E0, E15, and E85 supported EPA’s separate
decision not to invoke its “general waiver” authority,
under section 7545(o)(7)(A)(ii), based on “inadequate

64a
domestic supply.” See generally ACE, 864 F.3d at 70513. But in their opening brief, petitioners failed to
challenge EPA’s decision not to invoke that separate
waiver provision for 2017. Although their reply brief
gestures at this point, “an argument first made in a
reply brief is forfeited.” Bartko v. SEC, 845 F.3d 1217,
1225 n.7 (D.C. Cir. 2017).
Finally, the Coffeyville Petitioners take issue with
EPA’s response to various comments. We have considered these arguments and find them to be without merit.
For these reasons, we reject the Coffeyville Petitioners’
challenges to EPA’s exercise of its discretionary
cellulosic waiver authority to reduce advanced biofuel
and total renewable fuel volumes for 2017.
VI. 2018 Volume for Biomass-Based Diesel
Since 2012, EPA, acting in coordination with the
Secretaries of Energy and Agriculture, has calculated
the annual applicable volume (also known as the
“volume requirement”) for biomass-based diesel based
on a holistic, backward- and forward-looking consideration of relevant factors. In particular, it has set
the volume requirement “based on a review of the
implementation of the program during calendar
years specified in the tables, and an analysis of” six
statutorily enumerated factors: (1) “the impact of the
production and use of renewable fuels on the environment”; (2) “the impact of renewable fuels on the energy
security of the United States”; (3) “the expected annual
rate of future commercial production of renewable
fuels, including advanced biofuels in each category
(cellulosic biofuel and biomass-based diesel)”; (4) “the
impact of renewable fuels on the infrastructure of the
United States”; (5) “the impact of the use of renewable
fuels on the cost to consumers of transportation fuel

65a
and on the cost to transport goods”; and (6) “the impact
of the use of renewable fuels on other factors, including
job creation, the price and supply of agricultural
commodities, rural economic development, and food
prices.” 42 U.S.C. § 7545 (o)(2)(B)(ii)(I)—(VI).
EPA set the 2018 applicable volume for biomassbased diesel at 2.1 billion gallons, up from 2.0 billion
gallons in 2017, and 1.1 billion gallons above a
statutory minimum that Congress set to plateau at 1
billion gallons as of 2012. 2017 Rule, 81 Fed. Reg. at
89,798/1; see 42 U.S.C. § 7545(o)(2)(B)(i)(IV), (v). NBB
had asked EPA to set the biomass-based diesel volume
at 2.5 billion gallons, and now challenges the volume
EPA set as arbitrary and capricious and contrary to
the Clean Air Act.
A. NBB’s Standing
Before considering the merits of NBB’s claims, we
must satisfy ourselves that NBB has standing to
assert them. Respondent-Intervenors, the American
Fuel & Petrochemical Manufacturers and the American
Petroleum Institute, contend that NBB lacks standing
because, they say, it has not shown that the 2017 Rule
inflicted a cognizable injury on any of its members.
NBB has associational standing here for the
same reasons we held it did in National Biodiesel
Board v. EPA, 843 F.3d 1010, 1015 (D.C. Cir. 2016)
(NBB v. EPA), where EPA’s actions “incentivize[d] . . .
compet[ition] with [NBB’s members’] domestic production.” Here, too, NBB’s members “compete with” the
other industry players EPA’s rule is designed to affect.
Id. at 1016. Recall that biomass-based diesel is a
nested subset of advanced and total renewable fuels,
such that NBB’s members get (1) a market for compelled buyers of the specified volume of biomass-based

66a
diesel, for which they are the exclusive suppliers, plus
(2) a market for compelled buyers of advanced and
other renewable fuels alongside a broad array of
competing suppliers. See supra at 6-8, 11. The 2017
Rule preamble explains that biomass-based diesel
“compet[es] for research and development dollars
with other types of advanced biofuels,” and that, “[b]y
establishing [the biomass-based diesel] volume requirement[] at [a] level[] lower than . . . the expected
production of [biomass-based diesel],” EPA was “creating
the potential for some competition between [biomassbased diesel] and other advanced biofuels to satisfy the
advanced biofuel” applicable volume and providing
“incentives for the continued development of” those
competitors’ fuels. 81 Fed. Reg. at 89,797; see also EPA
Coffeyville Br. 24 (“Above 2.1 billion gallons, biomassbased diesel will have to compete with other types
of advanced biofuel.”). Such competition will likely
“temper to some extent [biomass-based diesel] prices.”
Final Statutory Factors Assessment for the 2018
Biomass Based Diesel (BBD) Applicable Volume,
EPA-HQ-OAR-2016-0004-3708, at 10 (Dec. 12, 2016)
(Supplemental Assessment), Coffeyville J.A. 533. That
is a cognizable injury to NBB’s members. See NBB v.
EPA, 843 F.3d at 1015-16; see also Delta Constr. Co. v.
EPA, 783 F.3d 1291, 1299 (D.C. Cir. 2015) (per
curiam).
Though NBB failed to identify any of its members—
ordinarily a prerequisite for organizations alleging
associational standing, see Summers v. Earth Island
Inst., 555 U.S. 488, 497-98 (2009)—that omission is
not fatal here because NBB’s members comprise “the
entire biomass-based diesel category of the Renewable
Fuel Standard[s]” and represent no other interests.
Coffeyville J.A. 134. Consistent with “the real purpose
of the [standing] inquiry—that is, for the court to be

67a
satisfied that the requisite injury really has occurred
or will occur in the future to members of the organization[],” Pub. Citizen v. FTC, 869 F.2d 1541, 1552 (D.C.
Cir. 1989), there is no need to identify injured members when “all the members of the organization are
affected by the challenged activity,” Summers, 555
U.S. at 499 (citing NAACP v. Ala. ex rel. Patterson, 357
U.S. 449, 459 (1958)). Because EPA’s rule subjects the
biomass-based diesel industry to increased competition, with anticipated pricing effects, NBB “meet[s]
the constitutional prerequisites of injury, causation,
and redressability.” NBB v. EPA, 843 F.3d at 1015.
B. Merits of NBB’s Challenges
NBB advances two challenges to the applicable
volume EPA set for biomass-based diesel: First, that
EPA erred in considering the interaction of biomassbased diesel with the yet-to-be established 2018
advanced biofuel applicable volume, and second, that
EPA’s consideration of the six statutory factors was
arbitrary and capricious and contrary to law. We reject
both claims.
First, EPA reasonably chose a 2018 biomass-based
diesel applicable volume that would “maintain[] support
for growth in [biomass-based diesel] volumes” while
also encouraging the “development of other advanced
biofuels.” 2017 Rule, 81 Fed. Reg. at 89,798/1. Congress
directed EPA to consider the lessons learned from its
retrospective “review” of the program, apply them in
its prospective “analysis of” the six statutory factors,
and set a biomass-based diesel volume that will
apply fourteen months in the future. See 42 U.S.C.
§ 7545(o)(2)(B)(ii).
EPA’s approach is consistent with the structure and
purposes of the statute. Congress set a minimum

68a
applicable volume for biomass-based diesel of one
billion gallons for each year from 2012 forward, id.
§ 7545(o)(2)(B)(i)(IV), (v), while specifying statutory
minimum volumes for the advanced biofuel category
containing biomass-based diesel that grow year by year
to 21 billion gallons by 2022, id. § 7545(o)(2)(B)(i)(II),
(iii). EPA reasonably concluded that, by nesting
biomass-based diesel together with cellulosic (and
other unspecified) biofuels within the advanced biofuel
category, and specifically charting a higher, steeper,
and longer initial growth curve for advanced biofuel,
Congress anticipated that production of other types
of advanced biofuels could step up to help meet
the advanced biofuel volume requirement. See 2017
Rule, 81 Fed. Reg. at 89,797/1. EPA also reasonably
concluded that increasing fuel diversity serves one of
Congress’s primary goals in establishing the Renewable
Fuel Standards program: improving the nation’s
“energy independence and security.” See Pub. L. No.
110-140, preamble; see also 2017 Rule, 81 Fed. Reg.
at 89,798/3. EPA also reasonably anticipated that
enhanced competition in the advanced biofuels market
would help “temper to some extent [biomass-based
diesel] prices,” Supplemental Assessment 10, Coffeyville
J.A. 533, thereby ameliorating Congress’s concern
that, with a too-high target volume, the “price of biomassbased diesel fuel” would “increase significantly,” 42
U.S.C. § 7545(o)(7)(E)(ii). And fuel diversity may
produce environmental benefits insofar as certain
advanced biofuels, such as ethanol from food waste,
will “likely have significantly lower impacts on wetlands, ecosystems, and wildlife habitats” than would
greater reliance on biomass-based diesel. Supplemental
Assessment 6, Coffeyville J.A. 529.
NBB’s arguments to the contrary turn on reading
the statutory directive that EPA “review . . . the

69a
implementation of the program during calendar years
specified in the tables,” id. § 7545(o)(2)(B)(ii), to
confine EPA’s consideration to biomass-based diesel’s
statutory volumes and actual performance, and to
prevent EPA from considering other fuel categories or
future years. In particular, NBB takes issue with
EPA’s consideration of the not-yet-finalized 2018
advanced biofuel applicable volume, which NBB
contends led EPA to set the biomass-based diesel
volume too low.
NBB’s objections are not supported by the text or
purpose of the statute. Assuming NBB is right that
EPA’s “review of the implementation of the program”
consists of a retrospective assessment, the agency
must also conduct “an analysis of” six statutory factors.
Id. § 7545(o)(2)(B)(ii). And those factors plainly require
a prospective assessment—an assessment that would
likely miss “important aspects of the problem,” State
Farm, 463 U.S. at 43, if it ignored the interaction, now
and in the future, of the requirements for all the
categories of renewable fuels. See, e.g., 42 U.S.C.
§ 7545(o)(2)(B)(ii)(I) (requiring an “analysis of” the
“impact of the production and use of renewable fuels
on,” among other things, “the environment”). Though
EPA set the biomass-based diesel requirement lower
than NBB wished, Congress did not intend to incentivize growth of biomass-based diesel “at all costs.” ACE,
864 F.3d at 714 (quoting Am. Express Co. v. Italian
Colors Rest., 570 U.S. 228, 234 (2013)).
NBB objects that setting the 2018 biomass-based
diesel applicable volume below expected production
might lead to a depressed advanced biofuel volume for
2018. But the agency specifically anticipated “that the
2018 advanced biofuel requirement will be larger than
the 2017 advanced biofuel volume requirement.” 2017

70a
Rule, 81 Fed. Reg. at 89,798/1. EPA has never set
the biomass-based diesel applicable volume at the
“maximum potential production” level, id. at 89,799/3,
yet the “growing supply of” biomass-based diesel has
consistently “allowed EPA to establish higher advanced
biofuel” applicable volumes, id. at 89,797/3. EPA opted
for “allowing room within the advanced biofuel volume
requirement for the participation of non-[biomassbased diesel] advanced fuels” as a reasonable way
“to encourage the development and production of a
variety of advanced biofuels over the long term without reducing the incentive for [biomass-based diesel]
beyond the [biomass-based diesel applicable volume]
in 2018.” Id. at 89,797-98.
Second, in setting the 2018 biomass-based diesel
applicable volume, EPA reasonably compared the
advantages and disadvantages of biomass-based
diesel to those of other fuels. NBB contends that the
statute confines EPA to assessing advantages of
biomass-based diesel over petroleum, not considering
other renewable fuels, and that the agency failed to
“meaningfully” consider the six factors. NBB Br. 9-10.
Both arguments miss the mark.
NBB suggests that, because the statute “was
intended to ‘increase the production of clean renewable fuels’ as a substitute for petroleum fuel,” id. at 21
(quoting Pub. L. No. 110-140, preamble), the only
relevant comparison is to petroleum, not to other
categories of renewable fuel. But NBB identifies
nothing in section 7545(o)(2)(B)(ii) or any other section
that requires EPA to assess the performance of
a particular renewable solely by reference to petroleum fuel. Its analysis would require us to read
the term “renewable fuels” used throughout section
7545(o)(2)(B)(ii) to refer to the single renewable fuel

71a
being analyzed, even though the statutory definition
of “renewable fuel” includes all types of renewables.
See 42 U.S.C. § 7545(o)(1)(J). And if EPA could compare the benefits of each specific fuel only to petroleum, it might be unable to set rational applicable
volumes for each specified category of renewable fuel
after 2022, when the statute no longer sets any specific
volumes. See id. § 7545(o)(2)(B)(iii)—(v). EPA could
easily conclude, for example, that each renewable fuel
had a lower “impact . . . on the environment” than
petroleum fuel, see id. § 7545(o)(2)(B)(ii)(I), but, no
matter their differing merits in serving the statute’s
goals, the agency would be barred from making
relative judgments among renewable fuel categories.
NBB also argues that EPA failed to give meaningful
consideration to the six statutory factors, and instead
“pre-determined the outcome,” NBB Br. 20, but the
record shows otherwise. EPA considered in detail how
setting the biomass-based diesel applicable volume at
a level higher or lower than 2.1 billion gallons would
affect the six statutory factors. See 2017 Rule, 81 Fed.
Reg. at 89,798-99. EPA further elaborated its analysis
of the factors in an 11-page supplemental memorandum
evaluating effects of its proposed biomass-based
diesel volume on renewable fuel production rates, the
environment, and the economy. See Supplemental
Assessment 1-11, Coffeyville J.A. 524-34. EPA concluded that, over the long term, “[a] variety of different
types of advanced biofuels, rather than a single type
such as [biomass-based diesel], would positively impact
energy security . . . and increase the likelihood of the
development of lower cost advanced biofuels that meet
the same [greenhouse gas] reduction threshold as
[biomass-based diesel].” Supplemental Assessment 3,
Coffeyville J.A. 526. EPA thus concluded that the
statutory factors supported its biomass-based diesel

72a
applicable volume. See 2017 Rule, 81 Fed. Reg. at
89,798/3.
At bottom, NBB’s objections rest on a policy
disagreement: NBB urges that, instead of setting a
level that would support continued investment in the
biomass-based diesel industry while also encouraging
producers of other types of advanced biofuel to compete to satisfy the 2018 advanced biofuel applicable
volume at lower cost, EPA should have reserved to
biomass-based diesel alone a volume nearer to that
industry’s maximum production potential. But NBB’s
proposed “simple solution”—that EPA should have
“set[] a meaningful [biomass-based diesel] volume”
while planning to “increas[e] the 2018 advancedbiofuel volume to provide room for the production of
other advanced biofuels when it set that volume a year
later,” NBB Br. 23—describes what EPA actually did.
A mere disagreement with the particular calibration
of a line drawn in the exercise of an agency’s
reasonable judgment is no basis to invalidate a rule.
Therefore, we deny NBB’s petition.
VII. Conclusion
For these reasons, the petitions for review are
denied.
So ordered.

73a
WILLIAMS, Senior Circuit Judge, concurring in part
and concurring in the judgment:
The Clean Air Act’s Renewable Fuel Program operates
on an annual cycle. It provides annual credits, authorizes annual waivers, and calls for annual reviews, see,
e.g., 42 U.S.C. § 7545(o)(5), (7), (10)—all to implement
Congress’s annual goals, see id. § 7545(o)(2)(B).
Each year, as part of this annual affair, the Environmental Protection Agency embarks on an elaborate
rulemaking. Id. § 7545(o)(3)(B). In doing so, it receives
an annual estimate of the total volume of fuel to be
sold to inform it in setting the annual “renewable fuel
obligation,” id. § 7545(o)(B)(i), which “shall . . . be
applicable to refineries, blenders, and importers, as
appropriate,” id. § 7545(o)(3)(B)(ii)(I). So EPA is to
specify appropriateness among those three categories.
But “appropriate” as of when?
Coffeyville Petitioners say appropriate as of the
annual rulemaking.
But EPA says appropriate as of the last time EPA
happened to consider the issue, no matter how many
years earlier that was. The initial determination
sticks for “all years,” EPA says, “unless and until” EPA
chooses, in its “discretion,” to “undertake [an] annual
reevaluation[].” Denial of Petitions for Rulemaking to
Change the RFS Point of Obligation, EPA-HQ-OAR2016-0544-0525, at 7 (Mar. 13, 2018) (“EPA Denial”),
J.A. 779; see also EPA Br. 66 (claiming “discretion” to
decide “whether, how, and when” it will “reconsider its
initial designation”). Even when affected parties point
to a series of market “disparities” that they say have
developed and render the earlier determination “not
appropriate,” and point to § 7545(o)(3)(B)(ii)(I) as
entitling them to a fresh determination, see, e.g.,

74a
Valero Energy Corporation Comments, EPA-HQOAR-2016-0004-1746, at 1, 14 (July 11, 2016), J.A.
138, 151, EPA claims that that section does nothing
of the sort, see EPA Denial at 8, J.A. 780 (asserting
full “discretion” to decide “when” and “under what
circumstances” it will consider the issue). In Part V.A
of the court’s opinion, my colleagues accept EPA’s
theory. I, however, disagree. So while I otherwise join
the court’s opinion in full, I cannot joint Part V.A—
though I do, in the end, concur in the judgment.
* * *
At the risk of oversimplifying, we can boil this
annual process down to three steps.
First, the annual goal. Congress sets annual
(steadily increasing) goals for the volume of renewable
transportation fuel to be sold or introduced into
commerce in the United States, with special targets
for some subsets of renewable fuel. 42 U.S.C.
§ 7545(o)(2)(B)(i).
Next, the annual estimate. The Energy Information
Administration projects the total volume of transportation fuel that will be sold into commerce in a given
year (as well as volumes of biomass-based diesel and
cellulosic biofuel). 42 U.S.C. § 7545(o)(3)(A); see, e.g.,
Letter from Adam Sieminski, Administrator, U.S.
Energy Information Administration, to Gina McCarthy,
Administrator, U.S. Environmental Protection Agency,
EPA-HQ-OAR-2016-0004-3646 (Oct. 19, 2016), J.A.
494.
Finally, the annual obligation. This is set by EPA
during the agency’s annual rulemaking. And it is
expressed in terms of a single percentage of transportation fuel sold into commerce (the “renewable
fuel obligation”) by any obligated party (regardless

75a
of category). 42 U.S.C. § 7545(o)(3)(B)(ii); see, e.g.,
Renewable Fuel Standard Program: Standards for
2017 and Biomass-Based Diesel Volume for 2018, 81
Fed. Reg. 89,746, 89,751/3 (Dec. 12, 2016) (“2017
Rule”). The basic idea is this: If EPA knows (i) the
annual goal for the volume of renewable fuel introduced into commerce (see step one above), and (ii) the
annual estimate for the total volume of fuel to be
introduced into commerce (see step two above), then
EPA—after filling in any gaps in the goals left by
Congress, see 42 U.S.C. § 7545(o)(2)(B)(ii), and making
any necessary adjustments to the estimates provided
by the Energy Information Administration, see id.
§ 7545(o)(3)(A)—can set the minimum percentage of
renewable fuel that must be introduced into commerce
by “obligated parties.” If everything works out well,
Congress’s annual goal should, more or less, be met.
But who are these “obligated parties”? Under
the Act, EPA must tell us. The first among the
three “Required elements” of the annual determination is that it “be applicable to refineries,
blenders, and importers, as appropriate.” 42 U.S.C.
§ 7545(o)(3)(B)(ii)(I) (emphasis added).
Even though EPA “determine[s] and publish[es]”
the annual obligation anew “[e]ach [] calendar year[],”
42 U.S.C. § 7545(o)(3)(B)(i), since 2010 it hasn’t
considered what parties are “appropriate” to obligate.
Regulation of Rules and Fuel Additives, 75 Fed. Reg.
14,670, 14,722 (Mar. 26, 2010); see also Regulation
of Fuels and Fuel Additives, 72 Fed. Reg. 23,900,
23,923/2 (May 1, 2007). Rather, year in and year out,
the agency has simply “indicated,” “in passing,” that
the renewable fuel obligation “would apply to ‘. . .
producers and importers,’” “consistent with [its]
preexisting” determination. EPA Br. 69-70 (quoting

76a
2017 Rule, 81 Fed. Reg. at 89,746/2). That’s it. In my
view, however, the language of the statute requires
more. EPA’s contrary reading seems to me to go
unreasonably “beyond the meaning that the statute
can bear.” U.S. Postal Serv. v. Postal Regulatory
Comm’n, 886 F.3d 1253, 1255 (D.C. Cir. 2018) (quoting
MCI Telecomm. Corp. v. AT&T Co., 512 U.S. 218, 229
(1994)).
* * *
The key provision says, “[n]ot later than November
30 of each [] calendar year[],” EPA “shall determine
and publish in the Federal Register . . . the renewable
fuel obligation.” 42 U.S.C. § 7545(o)(3)(B)(i). The first
of the “Required elements” of that annual obligation is
that it shall “be applicable to refineries, blenders, and
importers, as appropriate.” Id. § 7545(o)(3)(B)(ii)(I).
This much tells us a few things. First, Congress
required EPA to set the renewable fuel obligation
annually. That feature of the requirement pretty
clearly indicates a congressional expectation of possible
year-to-year variation in all the mandatory elements—
not merely in the percentage chosen (which is addressed
in subclauses (II) and (III)). Second, one explicitly
required element of this annual determination is a
selection among “refineries, blenders and importers,”
a selection that must be “appropriate.” Taken together,
the Act seems inevitably to require EPA to apply (at
least) some thought to the issue of what market
sectors should be obligated—thought that the agency
must apply each time it sets the annual obligation.
After all, the term “appropriate” “naturally and
traditionally includes consideration of all the relevant
factors,” not just a recitation that some time ago the
agency considered the factors that it then thought
relevant. Michigan v. EPA, 135 S. Ct. 2699, 2707

77a
(2015) (emphasis added) (quoting White Stallion
Energy Center, LLC v. EPA, 748 F.3d 1222, 1266 (D.C.
Cir. 2014) (Kavanaugh, J., concurring in part and
dissenting in part)). The agency, in other words, must
“exercise its discretion to choose among the options”
that Congress has given it, Maj. op. 45 (quoting Kisor
v. Wilkie, 139 S. Ct. 2400, 2449 (2019) (Kavanaugh, J.,
concurring in the judgment)), not “explain[]” why, in
the agency’s opinion, it’s “appropriate” not to choose
among the options that Congress has given it, id.; see
Response to Comments, EPA-HQ-OAR-2016-00043753, at 542 (Dec. 12, 2016), J.A. 761 (declaring the
point-of-obligation “issue” “beyond the scope of this
rulemaking”).
Suppose a law school charter—adopted at the
school’s founding in 1920—calls on the dean to
annually set a “tort credits obligation,” consisting of a
minimum number of credit hours students must
devote to certain tort subjects; the dean is to make the
obligation “applicable to negligence, defamation,
battery, and alienation of affections, as appropriate.”
The first dean, in 1921, sets the obligation at three
credit hours per subject—and applies it to all the
subjects. For the 2020-21 academic year, the tenth
dean likewise duly requires students to devote at least
three credits hours to those same subjects including
alienation of affections. Students understandably
protest, since that tort is now a bygone relic. See Fitch
v. Valentine, 2005-CA-01800-SCT (¶¶ 79-81) (Miss.
2007) (Dickinson, J., concurring), 959 So. 2d 1012,
1036 (noting 31 states have “completely abolished” it).
But the dean adamantly refuses even to consider their
entreaties, “explain[ing]” (Maj. op. 45) they’re “beyond
the scope” (J.A. 761) of topics relevant to the annual
credit determination, which, after all, is perfectly
“consistent with [a] preexisting” 1921 determination

78a
that that application was “appropriate” (EPA Br. 70).
EPA’s reasoning (on the procedural point—whether or
not the phrase “applicable . . . as appropriate” requires
it to consider the issue) is, in essence, as startling as
the dean’s. Never mind whether, as a substantive
matter, studying the tort—or exempting blenders—is
actually “appropriate.” Cf. Maj. op. 52. EPA tells us it
need not even address the point—ever again.
EPA’s response does more to hurt than to help its
cause. The agency points us to similarities between the
provision we’ve been discussing, § 7545(o)(3)(B)(ii)(I),
and § 7545(o)(2)(A)(iii)(I), which I’ll call the “compliance provision.” The two echo each other, see Oral
Arg. Tr. 70:19–25, both using the “applicable . . . as
appropriate” formulation.
Annual determination, 42 U.S.C. § 7545(o)(3)(B)(i),
(ii)(I):
[E]ach . . . calendar year[] . . . , the
Administrator
of
the
Environmental
Protection Agency shall determine and
publish in the Federal Register . . . the
renewable fuel obligation . . . . The renewable
fuel obligation . . . shall . . . be applicable to
refineries, blenders, and importers, as
appropriate.
Compliance provision, 42 U.S.C. § 7545(o)(2)(A)(i),
(iii)(I):
Not later than [August 8, 2006], the Administrator shall promulgate regulations . . . .
[T]he regulations . . . shall contain compliance
provisions applicable to refineries, blenders, distributors, and importers, as appropriate . . . .

79a
As EPA reads the two, the agency may define
the point of obligation once—while announcing the
compliance provisions at the outset of the program.
See EPA Br. 66. Congress’s command to make the
annual renewable fuel obligation “applicable . . as
appropriate” is simply, in the agency’s view, a crossreference back to the “applicable . . . as appropriate”
determination made by EPA at the outset in its
adoption of compliance regulations. See, e.g., id. at 6970; Oral Arg. Tr. 70:19-71:15, 72:13-24, 73:16-74:13.
The agency’s reading, however, seems utterly
implausible. When Congress uses “identical words” in
“different parts of the same statute,” we normally infer
that those words carry “the same meaning.” Henson v.
Santander Consumer USA Inc., 137 S. Ct. 1718, 1723
(2017) (quoting IBP, Inc. v. Alvarez, 546 U.S. 21, 34
(2005)). So if “applicable . . . as appropriate,” in the
context of setting the compliance regulations, means
(as everyone agrees it means) that EPA is to contemporaneously assess the appropriateness of its decision,
then the same phrase, in the context of setting the
annual renewable fuel obligation, must mean the
same thing: EPA is to make a contemporaneous
assessment of appropriateness—rather than, as the
agency implausibly claims, treat a decision made long
ago as dispositive for the present.
The majority responds—somewhat bafflingly—that
nothing in the phrase “applicable . . . as appropriate”
indicates “when or in what context EPA must make the
appropriateness determination.” Maj. op. 46 (emphasis
added). But that can’t be right. Imagine a daycare
advertises that it will dress kids for recess, “as appropriate.” Would any reasonable speaker of English
really harbor any doubt as to whether there existed
a “particular temporal” connection between the

80a
selection made and the selection’s appropriateness?
Id. at 45. Surely parents would be surprised to learn
that the school’s clothing selection for a snowy,
December day was not “appropriate” in light of the
then-pounding blizzard, but, rather, was “appropriate”
in light of the sunshine from six months earlier, when
the daycare first opened.
In fact, had Congress wanted EPA to readopt a prior
determination, without any contemporaneous analysis as to appropriateness, “it could easily have chosen
clearer language” to do just that. NLRB v. SW General,
Inc., 137 S. Ct. 929, 939 (2017). Related provisions of
the same statute provide examples of such straightforward wording. An obvious possibility would be to
replace “applicable to refineries, blenders, and importers,
as appropriate,” with “applicable to Obligated Parties
(as defined by the Administrator under 42 U.S.C.
§ 7545(o)(2)),” thus using the pattern adopted in
§ 7545(h)(1), (k)(3)(B)(i). Another obvious way of expressing what EPA says Congress meant would have
been to modify “refineries, blenders, and importers”
with the phrase, “in conformity with the compliance
provisions established by the Administrator,” thus
paralleling the approach of § 7545(b)(2). Both formulations, relying on a past participle, easily invite the
construction that EPA prefers—allowing the administrator to rely on a decision made at some unspecified
time in the past. “The fact that [Congress] did not
adopt [any of these] readily available and apparent
alternative[s] strongly supports rejecting [EPA’s] reading.” Knight v. Commissioner, 552 U.S. 181, 188 (2008).
Further, rather than using such easy alternatives,
Congress chose language that, as read by EPA, makes
a mess of virtually all of § 7545(o)(3)(B)(ii). Again,
subclause (I) requires the “renewable fuel obligation”

81a
to “be applicable to refineries, blenders, and importers,
as appropriate.” 42 U.S.C. § 7545(o)(3)(B)(ii)(I). If
Congress had envisioned EPA “identif[ying] the
‘appropriate’ obligated parties” in its exercise of the
compliance provision (§ 7545(o)(2)(A)(iii)(I)), rather
than of this clause, as EPA says it did, see EPA Br. 7,
then subclause (I) would be doing no work at all—
contrary to the “principle of statutory construction
that we must ‘give effect, if possible, to every clause
and word of a statute,”‘ Williams v. Taylor, 529 U.S.
362, 404 (2000) (quoting United States v. Menasche,
348 U.S. 528, 538-39 (1955)).
EPA and the majority respond that subclause (I) is
needed to “clarify[]” that distributors—who can be
subjected to the compliance provisions—“cannot be”
subjected to the renewable fuel obligation. Oral Arg.
Tr. 75:9-12 (emphasis added); see also Maj. op. 47.
Compare 42 U.S.C. § 7545(o)(2)(A)(iii)(I) (providing
that the compliance provisions shall be “applicable to
refineries, blenders, distributors, and importers, as
appropriate” (emphasis added)), with id. §
7545(o)(3)(B)(ii)(I) (providing that the renewable fuel
obligation shall be “applicable to refineries, blenders,
and importers, as appropriate”). But the need for
clarity could be attributed to “most superfluous
language.” SW General, 137 S. Ct. at 941. And if clarity
were actually Congress’s goal, if all Congress wanted
to do in subclause (I) was exclude “distributors” from
the universe of potential obligated parties, Maj. op. 47,
it chose an exceedingly odd way of getting there:
inserting into an annual exercise the task of indicating
what entities are “appropriate” targets for the
renewable fuel obligation. Wouldn’t it have been more
straightforward to just reference EPA’s prior
determination, and then directly state—for the

82a
purpose of clarity—that the renewable fuel obligation
may not apply to “distributors”?
In any case, it’s hard to see what distributor-based
obscurity EPA sees a need for subclause (I) to correct.
Because the renewable fuel obligation concerns only
fuel that is “sold or introduced into commerce in
the United States,” 42 U.S.C. § 7545(o)(2)(A)(i),
(o)(3)(B)(ii)(II) (emphasis added), the obligation applies,
for any gallon of fuel, only once—i.e., when the fuel
enters the American economy upstream, not when
distributors transport the same fuel downstream.
Once the sale or introduction “into” commerce is
complete—once a given unit of fuel is already flowing
through American commerce—that same unit of
fuel cannot be sold or introduced “into” American
commerce again; it’s already there. While one, for
example, might say that a fuel line, which carries fuel
from a car’s tank to its engine, carries fuel “in” the car,
no one would say that it carries fuel “into” the car. So
too, while one might say that a distributor, which
transports fuel from the economy’s refineries to its
retailers, see 40 C.F.R. § 80.2(l); EPA Denial at 9, J.A.
781, transports fuel “in” the economy, no one would
say that it transports (or sells or introduces) fuel “into”
the economy; again, the fuel is already in the relevant
process. Congress itself recognizes the distinction, referring to fuel that is “sold or introduced into commerce,”
42 U.S.C. § 7545(o)(2)(A)(i), (o)(3)(B)(ii)(II) (emphasis
added), and fuel that is “sold or distributed in . . .
commerce,” id. § 7545(u)(4) (emphasis added). Because
distributors do only the latter—they move fuel “in,” not
“into,” commerce—there is nothing for subclause (I) to
clarify. These downstream intermediaries can never
fall within the universe of potentially obligated parties.

83a
My colleagues don’t claim to disagree; at most, they
declare it “non-obvious” that “distributors cannot be
subjected to the point of obligation.” Maj. op. 47. But
what’s “non-obvious” about it, even if we put the plain
meaning of “into commerce in the United States”
aside? That phrase appears throughout the statute—
and can’t possibly include downstream, distributor
transactions. Take the statutory provision concerning
the Energy Information Administration, which says
that the agency must provide EPA with an estimate
of the “volume[] of transportation fuel . . . projected
to be sold or introduced into commerce in the United
States.” 42 U.S.C. § 7545(o)(3)(A). Does Congress really
expect that estimate—and the regulatory burdens “based
on” that estimate, id. § 7545(o)(3)(B)(i), (o)(7)(D)(i)—to
radically fluctuate based on the frequency of transactions among the distributors that happen to line the
distribution network? So if every distributor starts
selling to another distributor, or several of them, the
calculated volume of fuel “sold or introduced into commerce in the United States” would balloon overnight?
I doubt it.
EPA, it seems, shares my skepticism. The agency
itself describes the renewable fuel obligation, not in
terms of downstream intermediaries, like distributors,
but in terms of the initial, upstream players—those
“responsible for introducing [fuel] into the domestic
gasoline pool.” 72 Fed. Reg. at 23,904/1 (emphasis
added). Indeed, when defining the renewable fuel
obligation, EPA speaks not of sales that happen to
occur, distributor-to-distributor, along the supply
chain, but only of initial injections into U.S. commerce
as a consequence of the upstream “produc[tion]” or
“import[ation]” of transportation fuel. 40 C.F.R.
§ 80.1407(a), (b).

84a
What about blenders, asks the majority? Aren’t they
potentially obligated parties, even though they, like
distributors, handle fuels that have already been
“introduce[d]” into U.S. commerce by other upstream
entities, like refineries? Maj. op. 46-47. Yes, of
course, they are. But that’s because blenders—unlike
distributors—are the ones who initially sell or introduce various types of finished transportation fuel “into
commerce in the United States.” E15, for instance, a
blend of 85% gasoline, 15% ethanol, generally enters
“into” American commerce at the hands of a blender—
the entity that actually blends the various components. Just ask EPA, which references the “ethanol
blenders that introduce E15 into commerce.” 76 Fed.
Reg. 44,406, 44,410/3 (July 25, 2011). A distributor, in
contrast—and by definition, whether that’s a “postenactment regulat[ory]” definition, Maj. op. 47, or a
pre-enactment dictionary definition—never introduces
anything “into” commerce. It only distributes (i.e.,
“transports” or “deliver[s]”) finished transportation
fuel, such as E15, from one point to another. See 40
C.F.R. § 80.2(l); Webster’s Third New International
Dictionary 660 (1961) (defining “distribute”). So subclause (I), as EPA reads it, is, in fact, a superfluity,
because the agency could not place the point of
obligation on distributors whether that clause existed
or not.
The muddle generated by EPA’s reading doesn’t end
there. Consider the effect on subclause (III). That
provision provides that the “renewable fuel obligation
. . . shall . . . consist of a single applicable percentage
that applies to all categories of persons specified in
subclause (I).” 42 U.S.C. § 7545(o)(3)(B)(ii)(III). But if
EPA is right, and the point of obligation is determined,
not under subclause (I), but under the compliance
provision, why does Congress take such a circuitous

85a
route to get there—a reference in subclause (III) to
subclause (I), which, in turn, in EPA’s reasoning (but
without linguistic underpinning), refers back to the
compliance provision? Couldn’t Congress in subclause
(III) have just alluded to decisions made by EPA under
the compliance provision directly? Cf., e.g., 42 U.S.C.
§ 7545(o)(4)(A). EPA doesn’t say.
Instead, the agency puts essentially all its eggs in
the compliance provision basket. EPA argues, first and
foremost, that its power to promulgate compliance
provisions is broad and includes the power to set the
point of obligation. And “nothing,” it says, requires it
to “reconsider” that determination. See, e.g., EPA Br.
67-68. My colleagues offer a similar thought, claiming
that Congress knew how to call for a “redo” if that is
what it really wanted. Maj. op. 48. Both arguments,
however, miss the point. When Congress mandates
an annual “determin[ation]” in 42 § 7545(o)(3)(B)(ii),
there is nothing to be redone or reviewed. The determination must happen anew each year, and the
specific instruction to apply that determination “to
refineries, blenders, and importers, as appropriate,”
controls, id. § 7545(o)(3)(B)(ii)(I); any general authorization to promulgate compliance provisions (including,
I’ll assume, license to not “reconsider” them) must
yield to that specific instruction. See SW General, 137
S. Ct. at 941 (“[I]t is a commonplace of statutory
construction that the specific governs the general.”
(alteration in original) (quoting RadLAX Gateway Hotel,
LLC v. Amalgamated Bank, 566 U.S. 639, 645 (2012)).
“[B]asic principles of administrative law,” unfortunately for the majority, only further erode EPA’s
position. Maj. op. 52. We “generally ‘presume[] that
Congress expects it statutes to be read in conformity
with the[] [Supreme] Court’s precedents.’” Porter v.

86a
Nussle, 534 U.S. 516, 528 (2002) (second alteration in
original) (quoting United States v. Wells, 519 U.S. 482,
495 (1997)). And those precedents make clear that an
agency, when exercising its congressionally delegated
authority, must “consider [every] important aspect of
the problem.” Motor Vehicle Mfrs. Ass’n of US. v. State
Farm Mutual Ins. Co., 463 U.S. 29, 43 (1983). Failure
to do so “would be arbitrary and capricious.” Id. With
that background in mind, it “would be strange indeed”
if Congress really expected EPA, year in and year out,
to set the renewable fuel standards for the entire
economy, yet allowed the agency—sub silentio—to
do so without considering ever again whether a
“foundational” element of the regulatory program was
“appropriate.” Maj. op. 49.
Retreating from the statutory language, EPA claims
that reading the Act to require it to appropriately
identify the point of obligation each year would be
inconsistent with Congress’s “purpose.” Specifically,
the agency says, it would “reduce the regulatory
certainty required for private parties to plan for
growth.” EPA Br. 72. But EPA’s fears are vastly
overblown. Its concern about upsetting investmentbacked expectations is a reason to not change the point
of obligation; it is not a reason to not consider doing so.
The same goes for my colleagues’ concerns about the
credit trading program, see Maj. op. 50, even if that
program really does require (as my colleagues seem to
assume it does) rock solid stability in the point of
obligation—a dubious proposition, given that credits
are held individual-entity-by-individual-entity, so that
shrinkage or swelling of the number of covered entities
has no impact on the needed computations. EPA’s
duty is to “articulate a satisfactory explanation for its
action,” State Farm, 463 U.S. at 43—an explanation
that must consider the industry’s (including the credit

87a
traders’) reliance on a prior determination, see, e.g.,
FCC v. Fox Television Stations, Inc., 556 U.S. 502, 515
(2009) (explaining that it “would be arbitrary and
capricious to ignore” the fact that a “prior policy has
engendered serious reliance interests”); Nat’l Cable &
Telecomms. Ass’n v. FCC, 567 F.3d 659, 670 (D.C. Cir.
2009) (similar). In fact, given the substantial reliance
interests at stake, along with the agency’s prior findings, it seems likely that (in the absence of significantly
changed circumstances or a compelling new analysis)
EPA would be able to make rather short work of the
annual analysis. In most years, the prior analyses and
the reliance interests would probably dictate the
conclusion.
In any event, especially when the alleged downside
of petitioners’ claim is so chimerical, our “role is not to
‘correct’ the [statutory] text so that it better serves
[Congress’s] purposes.” Va. Dep’t of Medical Assistance
Servs. v. U.S. Dep’t of Health & Human Servs., 678
F.3d 918, 926 (D.C. Cir. 2012) (some internal quotation marks omitted) (quoting Engine Manufacturers
Ass’n v. EPA, 88 F.3d 1075, 1089 (D.C. Cir. 1996)).
That is a job for Congress.
For these reasons, I respectfully disagree with the
panel’s conclusion, which grants EPA essentially
unfettered discretion as to when—or even if—it will
consider the appropriateness of the point of obligation.
Indeed, the panel, it seems to me, arrived at its
conclusion only by extending to EPA the type of
“reflexive” deference that the Supreme Court has
recently criticized. Kisor, 139 S. Ct. at 2415 (quoting
Pereira v. Sessions, 138 S. Ct. 2105, 2120 (2018)
(Kennedy, J., concurring)). The Court has made clear
that before we may declare a statute genuinely
ambiguous—and, thus, before we, an Article III court,

88a
may surrender to an executive agency’s (often selfserving) declaration of what the law means—we must
exhaust all the “traditional tools” of statutory construction. Kisor, 139 S. Ct. at 2415 (quoting Chevron
U.S.A. Inc. v. Natural Resources Defense Council, Inc.,
467 U.S. 837, 843 n.9 (1984)). Then and only then—
“when that legal toolkit is empty”—may we “wave the
ambiguity flag.” Id.
The majority, however, in apparent haste to bow to
EPA’s admittedly self-serving declaration of what the
law means, see Maj. op. 51 (describing the “burden[s]”
that EPA would rather avoid), doesn’t actually use any
of the tools of statutory construction in an attempt to
discern Congress’s meaning. For example, besides
acknowledging that EPA’s reading of the phrase
“applicable . . . as appropriate” “is not ineluctable,”
Maj. op. 48, the majority has almost nothing to say
about that phrase’s ordinary meaning. Although the
majority declares it “ambiguous,” id. at 49, my
colleagues do not offer a single example of the phrase
being used in the way EPA desires—where the duty to
make a selection, “as appropriate,” (somehow) permits
the decisionmaker wholly to ignore the contemporaneous context of his selection. But see supra pp. 5, 7
(offering examples where EPA’s interpretation makes
no sense). The majority’s treatment of the presumption of consistent usage isn’t much better. It says that
there are multiple “permissible” ways to ascribe the
same meaning to the same words, but doesn’t offer
any, see Maj. op. 46—all the while overlooking an
obvious interpretation that satisfies the presumption
(i.e., EPA must consider the factors that are relevant
at the time of its decision), see supra pp. 6-7. Finally,
the majority writes off the canon against surplusage
without actually finding that the language at issue
isn’t superfluous. The majority avers that a finding

89a
of superfluity “rests on a complicated series of
inferences,” Maj. op. 47, but that’s not unusual, or
reason to shy away from wading through the muddle.
Complex regulatory schemes “can sometimes make
the eyes glaze over. But hard interpretive conundrums,
even relating to complex rules, can often be solved.”
Kisor, 139 S. Ct. at 2415. To solve such conundrums,
however, we must embrace the canons of interpretation as the useful tools that they are for discerning
Congress’s meaning, not as pests to be dodged and
swatted away in our rush to deference. Here, when
those tools are properly applied, we can discern
Congress’s meaning—which “is the law and must be
given effect.” Chevron, 467 U.S. at 843 n.9.
Nonetheless, I concur in the judgment. As we
explain today with regard to claims brought by the
Alon Petitioners, EPA adequately explained, at
around the time it set the annual obligation for 2017,
why it was not “appropriate” (in light of the facts as
they then existed) to change the point of obligation.
See Maj. op., Part IV.B. Although that explanation
arose in the context of a petition for rulemaking—and
was thus subject to a more deferential form of
arbitrary and capricious review—I would hold here
(for the same reasons that we give in Part IV.B of the
majority opinion) that EPA’s reasoning was sufficient
even under the deference level that demands more of
the agency.
The difference in our standard of review between an
appeal from the agency’s annual determination under
§ 7545(o)(3)(B)(i), (ii)(I), on the one hand, and an
agency’s conventional duty to entertain a petition for
a rulemaking to revise an existing regulation, on the
other, is in practice fairly slight. Under both understandings, the agency is bound to give suitable weight

90a
to reliance interests, and indeed to the general
advantage of regulators’ not rocking too many boats. A
party challenging the status quo faces some sort of
burden in either context—to point to new facts, or to
new discoveries of facts, or to previously unnoticed
flaws in the agency’s analysis, etc. There is, to be sure,
a subtle difference in the deference level, but deference
levels themselves build in a good deal of subjectivity. I
nonetheless write separately because I see Congress
as having imposed a specific, if modest, duty, on the
agency, and having thereby provided an explicit
avenue for review. That explicitness seems to me
designed to, and likely to, concentrate the mind of the
administrator—a congressional choice that we should
honor.

91a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
————
No. 17-1258
————
Consolidated with 18-1027, 18-1040, 18-1041
————
AMERICAN FUEL & PETROCHEMICAL MANUFACTURERS,
Petitioner,
v.
ENVIRONMENTAL PROTECTION AGENCY,
Respondent,
SMALL RETAILERS COALITION, et al.,
Intervenors.
————
On Petitions for Review of an Action of the
United States Environmental Protection Agency
————
Argued February 20, 2019
Decided September 6, 2019
————
Thomas A. Lorenzen and Samara L. Kline argued
the causes for Obligated Petitioners. Suzanne Murray
argued the cause for petitioner-intervenor Small Retailers
Coalition. With them on the briefs were Julie R.
Domike, Michael J. Scanlon, Richard S. Moskowitz,
Robert J. Meyers, Elizabeth B. Dawson, Megan H.

92a
Berge, Lisa M. Jaeger, Brittany M. Pemberton, and Clara
Poffenberger. Evan A. Young entered an appearance.
Bryan M. Killian argued the cause for petitioner
National Biodiesel Board. With him on the briefs was
Douglas A. Hastings.
Devorah Ancel argued the cause for Environmental
Petitioners. With her on the briefs was Eric Huber.
Benjamin R. Carlisle, Attorney, and Michael R.
Eitel, Senior Trial Attorney, U.S. Department of
Justice, argued the causes for respondent. With them
on the brief were Jeffrey H. Wood, Acting Assistant
Attorney General, Jonathan D. Brightbill, Deputy
Assistant Attorney General, and David P. W. Orlin,
Attorney, U.S. Environmental Protection Agency.
Thomas Allen Lorenzen argued the cause for intervenors in support of respondent responding to National
Biodiesel Board. With him on the brief were Robert A.
Long Jr., Kevin King, Stacy Linden, Richard S.
Moskowitz, Robert J. Meyers, and Elizabeth B.
Dawson. David Y. Chung and John P. Wagner entered
appearances.
Seth P. Waxman, David M. Lehn, Saurabh Sanghvi,
Claire H. Chung, Robert A. Long, Jr., Kevin King,
Matthew W. Morrison, Bryan M. Stockton, Bryan M.
Killian, and Douglas A. Hastings were on the brief
for intervenors Growth Energy, et al. in support of
respondent.
Matthew W. Morrison, Bryan M. Stockman, Seth P.
Waxman, David M. Lehn, Saurabh Sanghvi, Claire H.
Chung, Bryan M. Killian, and Douglas A. Hastings
were on the brief for intervenors Renewable Fuels
Association, et al. in support of respondent.

93a
Before: HENDERSON, TATEL, and GRIFFITH, Circuit
Judges.
Opinion for the Court filed PER CURIAM.
PER CURIAM: The Clean Air Act’s Renewable Fuel
Program mandates that certain amounts of renewable
fuel must be introduced into the U.S. fuel supply each
year. In late 2017, the EPA promulgated its final 2018
Rule, which, as in previous years, established overall
targets for the fuel market and imposed individual
compliance obligations on fuel refineries and importers.
These consolidated cases concern various challenges to
the 2018 Rule. Several petitioners maintain it is too
strict, others allege it is too lax, and still others argue
that the EPA failed to follow proper procedures in its
promulgation. We conclude that all these challenges
lack merit, except for one: that the EPA violated its
obligations under the Endangered Species Act by
failing to determine whether the 2018 Rule may affect
endangered species or critical habitat. We therefore
grant the petition for review filed by the Gulf
Restoration Network and Sierra Club and remand the
2018 Rule without vacatur for the EPA to comply with
the Endangered Species Act. We deny all other
petitions for review.
I. Background
A. The Renewable Fuel Program
Enacted in 2005 and amended in 2007, the Renewable
Fuel Program (the “Program” or “RFS Program”),
alternatively called the Renewable Fuel Standard,
was designed “[t]o move the United States toward
greater energy independence and security” and “to
increase the production of clean renewable fuels.”
Energy Independence and Security Act of 2007, Pub.
L. No. 110-140, pmbl., 121 Stat. 1492, 1492; see also

94a
id. §§ 201–210 (amending the Program); Energy Policy
Act of 2005, Pub. L. No. 109-58, § 1501, 119 Stat. 594,
1067-76 (enacting the Program). To accomplish these
goals, the Program regulates suppliers through “applicable volume[s]”—mandatory and annually increasing
quantities of renewable fuels that must be “introduced
into commerce in the United States” each year—and
tasks the EPA Administrator with “ensur[ing]” that those
annual targets are met. 42 U.S.C. § 7545(o)(2)(A)(i). As
we explained in Americans for Clean Energy v. EPA,
“[b]y requiring upstream market participants . . . to
introduce increasing volumes of renewable fuel into
the transportation fuel supply, Congress intended the
Renewable Fuel Program to be a ‘market forcing
policy’ that would create ‘demand pressure to increase
consumption’ of renewable fuel.” 864 F.3d 691, 705 (D.C.
Cir. 2017) (first quoting Renewable Fuel Standard
Program: Standards for 2014, 2015, and 2016 and
Biomass-Based Diesel Volume for 2017, 80 Fed. Reg.
77,420, 77,423 (Dec. 14, 2015); then quoting Monroe
Energy, LLC v. EPA, 750 F.3d 909, 917 (D.C. Cir. 2014)).
The Program specifies annual fuel-volume requirements for four overlapping categories of fuel. The first
and broadest category, “renewable fuel,” includes any
“fuel that is produced from renewable biomass and
that is used to replace or reduce the quantity of fossil
fuel present in” either “a transportation fuel,” 42 U.S.C.
§ 7545(o)(1)(J) or “home heating oil or jet fuel,” id.
§ 7545(o)(1)(A); see also Regulation of Fuels and Fuel
Additives: Changes to Renewable Fuel Standard
Program, 75 Fed. Reg. 14,670, 14,687 (Mar. 26, 2010)
(including “home heating oil” and “jet fuel” within the
definition of “renewable fuel”). Next are “advanced
biofuel[s],” a subset of the renewable-fuel category
defined as any “renewable fuel, other than ethanol
derived from corn starch, that has lifecycle greenhouse

95a
gas emissions . . . at least 50 percent less than” “the
average lifecycle greenhouse gas emissions . . . for
gasoline or diesel” as of 2005. 42 U.S.C. § 7545(o)(1)(B)(i),
(C). Lastly, of the fuels falling under the advancedbiofuel umbrella, the Program singles out two in
particular: “cellulosic biofuel,” a fuel derived from the
fibrous parts of plants, see id. § 7545(o)(1)(E), and
“biomass-based diesel,” a renewable substitute for
conventional diesel, see id. §§ 7545(o)(1)(D), 13220(f).
Because the definitions of these four fuel categories
are “nested,” so, too, are their applicable volumes.
Ams. for Clean Energy, 864 F.3d at 731. As depicted
below, the Program will double- or even triple-count
the more specialized fuels, such that one gallon of
advanced biofuel simultaneously counts as one gallon
of renewable fuel, and one gallon of either cellulosic
biofuel or biomass-based diesel also counts as one
gallon of both advanced biofuel and renewable fuel.

96a

The Program lists calendar years and corresponding
applicable volumes for each type of fuel. These tables
run through 2022 for renewable fuel, advanced biofuel,
and cellulosic biofuel; for 2018, the statute mandates
applicable volumes of 26, 11, and 7 billion gallons,
respectively. See 42 U.S.C. § 7545(o)(2)(B)(i)(I)—(III).
In contrast, the Program provides applicable volumes
for biomass-based diesel through only 2012. See id.
§ 7545(o)(2)(B)(i)(IV). For all later years, the statute
sets a floor of 1 billion gallons, see id. § 7545(o)(B)(i)(IV),
(v), and directs the Administrator to establish, “no
later than 14 months” before the relevant year, an
applicable volume “based on a review of the implementation of the program during” previous years and

97a
“an analysis of” six other broad factors such as the
fuel’s effect on “the environment,” “energy security,”
and “cost to consumers,” id. § 7545(o)(B)(ii).
Although the statutory tables initially appear to
admit no exception, their applicable volumes in fact
provide only starting points. Under certain circumstances, the Program grants the Administrator authority
to exercise so-called waivers to reduce applicable
volumes below statutory levels. Three waivers are
relevant to this case.
The first waiver is mandatory. The Program requires
that if in any year “the projected volume of cellulosic
biofuel production is less than the minimum applicable volume” set by statute, then “the Administrator
shall reduce the applicable volume of cellulosic
biofuel . . . to the projected volume available during
that calendar year.” Id. § 7545(o)(7)(D)(i). Put simply,
regardless of the applicable volume Congress established in the Program, the EPA may require by
regulation no more cellulosic biofuel than the market
is projected to provide in any given year.
The second waiver flows from the first. For any year
in which the EPA reduces the applicable volume of
cellulosic biofuel based on a projected shortfall, “the
Administrator may also reduce the applicable volume
of renewable fuel and advanced biofuels . . . by the
same or a lesser volume.” Id. Unlike its mandatory
cousin, this “cellulosic waiver” is discretionary: if cellulosic biofuel is projected to underperform statutory
levels, the Administrator may reduce renewable fuel
and advanced biofuel volumes by the entire cellulosic
deficit, by some percentage of the shortfall, or by
nothing at all. See id.; see also Regulation of Fuels and
Fuel Additives: 2013 Renewable Fuel Standards, 78
Fed. Reg. 49,794, 49,810 (Aug. 15, 2013) (interpreting

98a
the cellulosic waiver provision “as authorizing [the]
EPA to reduce both total renewable fuel and advanced
biofuel, by the same amounts, if [the] EPA reduces the
volume of cellulosic biofuel”). Because cellulosic biofuel
is nested within advanced biofuel, if the Administrator
exercises anything less than a full cellulosic waiver,
other advanced biofuels will need to make up for the
difference.
The last waiver, the so-called general waiver, is also
discretionary. It permits the Administrator to “reduc[e]
the national quantity of renewable fuel required” by
the Program “based on a determination” that any of
three circumstances exist: first, “that implementation
of the requirement would severely harm the economy
. . . of a State, a region, or the United States,” 42 U.S.C.
§ 7545(o)(7)(A)(i); second, “that implementation of the
requirement would severely harm the . . . environment
of a State, a region, or the United States,” id.; or third,
“that there is an inadequate domestic supply,” id.
§ 7545(o)(7)(A)(ii). The Administrator may exercise
the general waiver in response to a petition by a
state or regulated party or “on his own motion.” Id.
§ 7545(o)(7)(A).
After exercising any waivers and finalizing an
applicable volume for each type of fuel, the EPA must
by November 30 of each year calculate and promulgate
“renewable fuel obligation[s] that” will “ensure[] that
the [Program’s] requirements . . . are met” in the
upcoming year. Id. § 7545(o)(3)(B)(i). In broad strokes,
this task requires the EPA to identify the entities
responsible for collectively achieving applicable volumes,
quantify each entity’s individual obligation, and ensure
those entities’ successful compliance.
To begin with, there is the threshold question of
who, exactly, must satisfy renewable fuel obligations—

99a
that is, who are the “obligated parties”? Although the
statute states that “[t]he renewable fuel obligation
determined for a calendar year . . . shall . . . be
applicable to refineries, blenders, and importers, as
appropriate,” id. § 7545(o)(3)(B)(ii)(I), the EPA has
since the Program’s inception declined to include
blenders—defined as “part[ies] that simply blend[]
renewable fuel into gasoline or diesel fuel,” 40 C.F.R.
§ 80.1406(a)(1)—within the definition of “obligated
party,” see Regulation of Fuels and Fuel Additives:
Renewable Fuel Standard Program, 72 Fed. Reg.
23,900, 23,924 (May 1, 2007) (designating obligated
parties); Regulation of Fuels and Fuel Additives:
Changes to Renewable Fuel Standard Program, 75
Fed. Reg. at 14,721-22 (same). Instead, the EPA defines
an obligated party as “any refiner that produces gasoline or diesel fuel within the 48 contiguous states or
Hawaii, or any importer that imports gasoline or
diesel fuel into the 48 contiguous states or Hawaii
during a compliance period.” 40 C.F.R. § 80.1406(a)(1).
The Program does, however, permit “small refiner[ies]”
to receive exemptions from renewable fuel obligations
if they demonstrate that compliance would inflict
“disproportionate economic hardship.” 42 U.S.C.
§ 7545(o)(9)(B).
Next, each year the EPA must transform its aggregate, fuel-sector-wide applicable volumes into individual
compliance obligations that sum to the requisite
whole. To do this, the Program instructs the EPA to
translate the applicable volumes into “percentage[s] of
transportation fuel sold or introduced into commerce
in the United States.” Id. § 7545(o)(3)(B)(ii)(II). By
dividing the applicable volumes for each fuel type by
an estimate of the total gasoline and diesel volume
that will be used in the coming year (subject to some
adjustments), the EPA generates “percentage standards”

100a
which then “inform each obligated party of how much
renewable fuel it must introduce into U.S. commerce
based on the volumes of fossil-based gasoline or diesel
it imports or produces.” Ams. for Clean Energy, 864
F.3d at 699; see also 40 C.F.R. § 80.1405(c) (setting out
the percentage-standard formula). In other words, the
EPA estimates what percentage of the overall fuel
supply each renewable-fuel type should constitute and
then requires each obligated party to replicate those
percentages on an individual basis.
Although the nuances of the percentage standard
are mostly beyond the scope of this case, one feature
requires mention. When calculating percentage standards for any given year, the EPA accounts for any
small refineries that have received exemptions by
requiring non-exempt obligated parties to produce
proportionally more. See Regulation of Fuels and Fuel
Additives: 2011 Renewable Fuel Standards, 75 Fed.
Reg. 76,790, 76,805 (Dec. 9, 2010) (explaining that
small-refinery exemptions “result in a proportionally
higher percentage standard for remaining obligated
parties”). The problem is that while the EPA must
promulgate annual percentage standards by November
30 each year, refineries may petition for an exemption
“at any time,” 42 U.S.C. § 7545(o)(9)(B)(i), and the EPA
has no mechanism to adjust renewable fuel obligations
to account for exemptions granted after each year’s
percentage standards are finalized. As a result, because
the EPA cannot ensure that non-exempt obligated
parties compensate for the renewable-fuel shortfall
created by belated exemptions, those gallons of
renewable fuel simply go unproduced.
Finally, after the obligated parties have been
identified and their percentage standards have been
set, there remains the matter of compliance. The

101a
Program does not require each obligated party to
produce precisely the right mix of fuel itself. See id.
§ 7545(o)(5) (directing the EPA to establish a “[c]redit
program”). Instead, for every gallon of renewable fuel
entering the U.S. market, producers and importers
may generate a set of “Renewable Identification
Numbers” (RINs). See 40 C.F.R. §§ 80.1426, 80.1429(b)
(describing how RINs are “generated” and then
“separated” from their fuel); Ams. for Clean Energy,
864 F.3d at 699 (same). Each year, obligated parties
must generate or purchase enough RINs to meet their
renewable fuel obligations, which the obligated parties
then satisfy by “retir[ing]” RINs at an annual compliance demonstration. 40 C.F.R. § 80.1427. To prevent
fuel that ultimately leaves the U.S. market from
satisfying obligated parties’ renewable fuel obligations, the EPA also requires exporters to retire any
RINs (or an equivalent number of RINs) that were
generated by exported fuel. See 40 C.F.R. § 80.1430
(listing requirements for renewable-fuel exporters).
An obligated party lacking enough RINs may, under
certain circumstances, carry forward a deficit, while
an obligated party possessing excess RINs may save
those RINs for the following year. See 42 U.S.C.
§ 7545(o)(5)(B), (D) (addressing the transfer of RINs
and the ability to carry forward a RIN deficit); 40
C.F.R. § 80.1427(b) (addressing “[d]eficit carryovers”);
id. § 80.1428(c) (addressing “RIN expiration”).
B. The 2018 Rule
To fulfill its annual rulemaking obligation under
42 U.S.C. section 7545(o)(3)(B)(i), the EPA proposed a
rule in July 2017 to set renewable fuel applicable
volumes and percentage standards for 2018 and a
biomass-based diesel applicable volume for 2019.
Renewable Fuel Standard Program: Standards for

102a
2018 and Biomass-Based Diesel Volume for 2019
(“Proposed Rule”), 82 Fed. Reg. 34,206 (proposed July
21, 2017). The Proposed Rule explained that “[r]ealworld challenges, such as the slower-than-expected
development of the cellulosic biofuel industry, . . . have
made the volume targets established by Congress for
2018 beyond reach for all fuel categories other than
[biomass-based diesel].” Id. at 34,207. The EPA thus
proposed reducing the cellulosic biofuel applicable
volume to match the projected volume of cellulosic biofuel
available in 2018 and exercising its discretionary
cellulosic waiver authority to reduce the applicable
volumes for advanced biofuel and total renewable fuel
a corresponding amount. Id. at 34,208-10. It determined that the market for biomass-based diesel,
however, outproduced the minimum requirements of
the Program and therefore proposed maintaining for
2019 its applicable volume for biomass-based diesel
set for 2018. Id. at 34,210-11.
The Proposed Rule further solicited comment on
three other issues. First, although the EPA initially
concluded that it should not exercise its general
waiver authority to reduce applicable volumes further,
it solicited comment on whether it should exercise
that authority due to either severe economic harm or
inadequate domestic supply. Id. at 34,213. Second,
it solicited comment on how it should account for
small refinery exemptions when translating the 2018
applicable volumes into percentage standards. Id. at
34,241-42. And third, it solicited comment on the
current RIN trading market. Id. at 34,211. It clarified,
however, that it was “not soliciting comment on any
aspect of the current RFS regulatory program other
than those specifically related to RIN trading . . . and
the proposed annual standards for 2018 and biomassbased diesel applicable volume for 2019.” Id.

103a
During the comment period, the EPA published
supplemental information regarding its proposal and
requested further comment on aspects of the Proposed
Rule. See Renewable Fuel Standard Program: Standards
for 2018 and Biomass-Based Diesel Volume for 2019;
Availability of Supplemental Information and Request
for Further Comment (“Supplemental Information”),
82 Fed. Reg. 46,174 (Oct. 4, 2017). In particular, in
response to this court’s intervening decision in Americans
for Clean Energy, 864 F.3d 691, the EPA solicited
comment on the meaning of the phrases “inadequate
domestic supply” and “severe economic harm” in the
general waiver provision, 42 U.S.C. section 7545(o)(7)(A).
See Supplemental Information, 82 Fed. Reg. at
46,177-79.
Over 235,000 comments later, the EPA promulgated
its final 2018 Rule in December 2017. See Renewable
Fuel Standard Program: Standards for 2018 and
Biomass-Based Diesel Volume for 2019 (“2018 Rule”),
82 Fed. Reg. 58,486, 58,487 (Dec. 12, 2017). The 2018
Rule tracked the Proposed Rule with only slight
modifications. The EPA reduced the applicable volume
for cellulosic biofuel to match the agency’s updated
projection of the amount of cellulosic biofuel that would
be produced in 2018. Id. at 58,487. It also exercised its
full cellulosic waiver authority to reduce the applicable volumes for advanced biofuel and renewable fuel
by an equal amount. Id. And as anticipated in the
Proposed Rule, the EPA declined to exercise its
general waiver authority to reduce applicable volumes
further due to inadequate domestic supply or severe
economic harm. Id. The EPA adopted the following
final applicable volumes and percentage standards:

104a
2018 RULE: APPLICABLE VOLUMES &
PERCENTAGE STANDARDS
Applicable Volume
(billions of gallons)
Cellulosic Biofuel
0.288
Biomass-Based
2.1 (2019)
Diesel
Advanced Biofuel
4.29
Total Renewable
19.29
Fuel

Percentage
Standard
0.159%
1.74%
2.37%
10.67%

Id. at 58,487, 58,491. The EPA further explained
that it calculated the percentage standards without
prospectively adjusting for potential small refinery
exemptions and that it did not intend to adjust retroactively the fuel percentage standards to account for
exemptions it subsequently granted. Id. at 58,523. The
EPA also declined to address as “beyond the scope of
this rulemaking” comments asking it to reconsider its
RIN policy for renewable fuel exports and its definition
of obligated parties. Assessment and Standards Div.,
Office of Transp. and Air Quality, EPA, EPA-420-R-17007, Renewable Fuel Standard Program – Standards for
2018 and Biomass-Based Diesel Volume for 2019:
Response to Comments 223 (December 2017) (“Response
to Comments”), Joint Appendix (J.A.) 1446.
C. Procedural History
After the EPA promulgated its final rule, four groups
of interested parties petitioned for review in this court.
American Fuel & Petrochemical Manufacturers, a
national trade association of U.S. refineries and petrochemical manufacturers, and Valero Energy Corporation,
a Texas-based energy company that refines transportation fuels, produces biofuels, and sells them in

105a
the United States (together, the “Obligated Parties”),
both filed petitions for review challenging the 2018
Rule as setting applicable volumes and percentage
standards too high. On the other hand, the National
Biodiesel Board, a biodiesel industry trade association, petitioned for review of the 2018 Rule on the
ground that the Rule set applicable volumes and percentage standards too low. Independently, the Sierra
Club and Gulf Restoration Network, two nonprofit
environmental groups (together, the “Environmental
Petitioners”), filed a joint petition for review of the
2018 Rule, claiming that the EPA violated the Endangered Species Act, 16 U.S.C. §§ 1531-1544, by failing
to consult with the U.S. Fish and Wildlife Service
and the National Marine Fisheries Service regarding
whether the 2018 Rule would adversely affect threatened or endangered species. Several other parties
intervened, including the Small Retailers Coalition, a
national trade association of small gasoline and diesel
retailers, which intervened on behalf of the Obligated
Parties and now argues that the EPA violated the
Regulatory Flexibility Act, 5 U.S.C. §§ 601-612, by
failing to assess the 2018 Rule’s potential effects on
small fuel retailers.
While the petitions before us were pending, another
panel of this court resolved several petitions challenging the EPA’s final rule setting applicable volumes and
percentage standards for 2017 and the applicable
volume for biomass-based diesel for 2018. See Alon
Ref. Krotz Springs, Inc. v. EPA, No. 16-1052, slip op.
at 6-7 (D.C. Cir. Aug. 30, 2019) (deciding related case
Coffeyville Res. Ref & Mktg., LLC v. EPA, No. 17-1044
(D.C. Cir. filed Feb. 9, 2017)).

106a
II. Jurisdiction and Standards of Review
We have jurisdiction of a timely petition for review
of the EPA’s regulations implementing the Program.
42 U.S.C. § 7607(b)(1). We may reverse the EPA’s
actions under the Program if we find them to be “arbitrary, capricious, [or] an abuse of discretion.” Id.
§ 7607(d)(9)(A). We will sustain the EPA’s actions,
however, so long as the agency “consider[ed] all of the
relevant factors and demonstrate[d] a reasonable
connection between the facts on the record and the
resulting policy choice.” Sierra Club v. Costle, 657 F.2d
298, 323 (D.C. Cir. 1981). In conducting our review, we
“give an ‘extreme degree of deference’ to the EPA’s
evaluation of ‘scientific data within its technical
expertise,’ especially where, as here, we review the
‘EPA’s administration of the complicated provisions of
the Clean Air Act.’” Miss. Comm’n on Envtl. Quality v.
EPA, 790 F.3d 138, 150 (D.C. Cir. 2015) (per curiam)
(citation omitted) (first and second quoting City of
Waukesha v. EPA, 320 F.3d 228, 247 (D.C. Cir. 2003)
(per curiam); then quoting Catawba Cty. v. EPA, 571
F.3d 20, 41 (D.C. Cir. 2009) (per curiam)).
We also may reverse an EPA action under the
Program if we determine that it is “otherwise not in
accordance with law” or “in excess of statutory jurisdiction, authority, or limitations, or short of statutory
right.” 42 U. S.C. § 7607(d)(9)(A), (C). The court reviews
the EPA’s interpretation of the Clean Air Act under
the familiar two-step framework formulated in Chevron,
U.S.A., Inc. v. Natural Resources Defense Council, Inc.,
467 U.S. 837 (1984). Under Chevron, the court defers
to the EPA’s interpretation if the statutory text is
ambiguous and the EPA’s interpretation is reasonable. See id. at 842-45.

107a
We proceed to apply these standards of review to
each of the claims raised in these consolidated cases.
In Part III we address arguments regarding the 2018
Rule’s applicable volumes, including claims that the
EPA erred both in exercising its full cellulosic waiver
authority and in declining to exercise its general waiver
authority. Next, in Part IV we discuss challenges to
the ways in which the EPA translates applicable
volumes into compliance obligations, specifically its
treatment of RINs generated by renewable fuel exports,
its definition of “obligated parties,” and its method for
accounting for small refinery exemptions when calculating percentage standards. In Part V we deal with
the claim that the EPA violated the Regulatory
Flexibility Act in promulgating the 2018 Rule. And
finally, in Part VI we consider whether the EPA violated the Endangered Species Act by failing to engage
in interagency consultation before issuing the 2018 Rule.
III. Applicable Volumes
We begin with the 2018 Rule’s applicable volumes.
To arrive at those requirements, the EPA proceeded
through a series of interlocking steps. It began by
projecting 288 million gallons of cellulosic biofuel
production in 2018—6.71 billion gallons short of the
Program’s 7-billion-gallon statutory target—and exercised its mandatory waiver accordingly. See 2018 Rule,
82 Fed. Reg. at 58,492, 58,495-504. Next, after estimating “reasonably attainable” volumes of other
advanced biofuels and considering “the costs and benefits associated with” achieving those volumes, the EPA
decided to exercise its full cellulosic waiver authority
to reduce advanced biofuel and renewable fuel applicable volumes to 4.29 and 19.29 billion gallons, respectively.
Id. at 58,513. And finally, the EPA considered but
rejected using its general waiver authority, concluding

108a
that neither “severe economic harm” nor “inadequate
domestic supply” warranted further reductions in
applicable volumes. Id. at 58,516-18.
Petitioners find fault in each of these steps. First,
the Obligated Parties argue that the EPA miscalculated its projection of cellulosic biofuel production.
Second, the National Biodiesel Board contends that
the EPA impermissibly considered financial costs
when deciding to set applicable volumes of advanced
biofuels below reasonably attainable levels. And third,
the Obligated Parties argue that, for various reasons,
the EPA unreasonably interpreted and refused to
exercise its general waiver authority. None of these
challenges has merit.
A. Liquid Cellulosic Biofuel Projection
In the 2018 Rule, the EPA projected that 288 million
gallons of cellulosic biofuel would be produced in 2018:
the sum of 274 million gallons of liquefied and compressed natural gas and 14 million additional gallons
of liquid cellulosic biofuel. See 2018 Rule, 82 Fed. Reg.
at 58,503 tbl.III.D.3-1. Only this latter liquid estimate
is at issue in this case.
To arrive at its liquid cellulosic projection, the EPA
“use[d] the same general approach as . . . in previous
years.” Id. at 58,498. It began by sorting potential
producers according to whether they had previously
“achieved consistent commercial scale production” of
liquid cellulosic biofuel. Id. Then it defined two ranges
“of likely production volumes for 2018,” one “for each
group of companies.” Id. It set the low end of each
range at last year’s “actual RIN generation” (for
consistent producers) or zero (for new producers) and
estimated the high end of each range (for both groups)
by considering “a variety of factors,” including each

109a
facility’s “expected start-up date,” “ramp-up period,”
and “capacity.” Id. at 58,499. And finally, the EPA
selected what it calls a “percentile value”—in simplified terms, a number somewhere between the endpoints
of each range—to extract “from the established
range[s] a single projected production volume for each
group of companies.” Id. at 58,498-99. The lower the
percentile value, the lower the resulting projection.
The Obligated Parties complain that by relying on
this percentile method, which has produced overestimations in the past, the 2018 Rule “failed to correct
chronic errors” in the EPA’s liquid cellulosic biofuel
projections. Obligated Parties Br. 41. But the record
reveals just the opposite. Recognizing that its “estimates for liquid cellulosic biofuel exceeded actual
production of liquid cellulosic biofuel” in previous
years, the EPA adjusted its percentile values downward in the 2018 Rule to “the percentile values that
would have resulted in accurate production projections” in 2016 and 2017. 2018 Rule, 82 Fed. Reg. at
58,499-500. The result was the 10th percentile for
new producers and the 12th percentile for consistent
producers, down from the 25th and 50th percentiles,
respectively, that the EPA had used in 2016 and 2017.
See id. at 58,500-01. The 2018 Rule, then, hardly
presents “a situation in which [the] EPA has arbitrarily refused to reconsider a projection methodology that
has proven unsuccessful in the past.” Ams. for Clean
Energy, 864 F.3d at 728.
Given that the Obligated Parties offer no other
grounds to doubt the EPA’s liquid cellulosic biofuel
projection methodology, we conclude that the EPA’s
estimate, as required, “took a ‘neutral aim at accuracy’
and was otherwise reasonable and reasonably explained.”

110a
Id. at 729 (quoting Am. Petroleum Inst. v. EPA, 706
F.3d 474, 476 (D.C. Cir. 2013)).
B. Cellulosic Waiver
Having projected that only 288 million gallons of
cellulosic biofuel would be produced in 2018, the
EPA did as the Program requires and “reduce[d] the
applicable volume of cellulosic biofuel” from 7 billion
gallons “to [that] projected volume.” 42 U.S.C.
§ 7545(o)(7)(D)(i); see also 2018 Rule, 82 Fed. Reg. at
58,492 (explaining that the EPA was “setting the
cellulosic biofuel volume requirement at a level lower
than the statutory applicable volume”). The EPA
then confronted the question of whether to exercise its
discretionary cellulosic waiver. Put another way, given
the absence of 6.71 billion gallons of cellulosic biofuel
that Congress had predicted would help satisfy the
Program’s overall 11-billion-gallon advanced biofuel
requirement, the EPA needed to decide whether to
“reduce the applicable volume” of the latter fuel type
“by the same or a lesser volume” as it had reduced the
former. 42 U.S.C. § 7545(o)(7)(D)(i). The EPA analyzed
this question in two stages.
It began by considering what volumes of advanced
biofuels would be “reasonably attainable in 2018,”
excluding volumes whose attainment would result
in the “diversion of advanced feedstocks from other
uses or diversion of advanced biofuels from foreign
sources.” 2018 Rule, 82 Fed. Reg. at 58,505. Based on
an extensive analysis of various advanced biofuels
(primarily imported sugarcane ethanol and advanced
biodiesel and renewable diesel), the EPA projected
that in addition to 288 million gallons of cellulosic
biofuel, about 4.11 billion gallons of non-cellulosic
advanced biofuels were reasonably attainable. See id.
at 58,513. Although less than the statute’s 11-billion-

111a
gallon target, the EPA’s combined 4.4-billion projection, in a sense, exceeded statutory expectations: while
the Program implicitly requires 4 billion gallons of
non-cellulosic advanced biofuel (11 billion minus 7
billion), the EPA estimated that up to 4.11 billion
gallons could, in fact, be made available (110 million
gallons above the 4-billion-gallon floor).
Next, the EPA had to decide whether to require
those 110 million gallons of non-cellulosic advanced
biofuels “to partially backfill for”—i.e., compensate
for—“missing cellulosic volumes.” Id. at 58,505. Acknowledging that it had mandated such backfilling in
previous years, the EPA nonetheless explained that,
“as a result of a stronger policy focus on the economic
impacts of the RFS program,” it had adopted in the
2018 Rule a “new approach to balancing relevant
considerations” that “plac[ed] a greater emphasis on
cost considerations.” Id. at 58,504, 58,513. The EPA
“present[ed] illustrative cost projections for . . . the
two advanced biofuels . . . most likely to provide the
marginal increase in volumes,” “sugarcane ethanol
and soybean biodiesel,” and estimated per-gallon marginal cost increases ranging from $0.61 to $1.56 for the
former (compared to gasoline) and $0.95 to $1.30 for
the latter (compared to diesel). Id. at 58,513. “In light
of these comparative costs,” the EPA concluded, “it is
reasonable to forgo the marginal benefit that might be
achieved by establishing the advanced biofuel standard to require an additional 110 million gallons.” Id.
In the end, then, the EPA decided to exercise its full
cellulosic waiver authority to reduce the advanced
biofuel applicable volume—and, by extension, the
renewable fuel applicable volume—by 6.71 billion
gallons. See id. (explaining that the EPA interprets
“the cellulosic waiver provision . . . to provide equal

112a
reductions in advanced biofuel and total renewable
fuel”).
The National Biodiesel Board argues that by taking
cost considerations into account, the EPA erred in
exercising its full cellulosic waiver. We disagree.
The Board first argues that the EPA “waive[d] the
advanced-biofuel volume solely to save obligated parties
money,” NBB Br. 23, and that in so doing, the 2018
Rule “strayed too far” from the Program’s “market
forcing” purpose, id. at 21 (quoting Ams. for Clean
Energy, 864 F.3d at 710). Neither proposition is
correct. To begin with, the EPA hardly “[s]et[] the
advanced-biofuel volume based entirely on costs.” Id.
To the contrary, in calculating the reasonably attainable volume of advanced biofuels, the EPA analyzed
many factors, all of which justified a 6.6-billion-gallon
reduction—and only then did it rely on cost considerations to support an additional 110-million-gallon decrease.
And the EPA’s decision to consider costs fell well
within its discretion. As this court observed in Americans
for Clean Energy, because “the text of the cellulosic
waiver provision does not direct [the] EPA to ‘consider
particular factors,’” the “EPA enjoys broad discretion”
“to consider ‘a range of factors’ in determining whether
to exercise its cellulosic waiver authority.” 864 F.3d at
734 (quoting Monroe Energy, 750 F.3d at 915-16). The
Board offers no persuasive reason to conclude that
those factors must exclude costs.
The Board next contends that the EPA failed to
justify its decision to abandon its former practice of
requiring non-cellulosic advanced biofuels to backfill
for cellulosic deficits up to reasonably attainable
levels. Under normal circumstances, the 2018 Rule’s
explanation would have been perfectly sufficient:
the EPA both “display[ed] awareness that it [was]

113a
changing position” and offered “good reasons for the
new policy.” FCC v. Fox Television Stations, Inc., 556
U.S. 502, 515 (2009). The Board, however, argues that
this is not the typical case. Because the EPA’s prior
practice of requiring all reasonably attainable levels to
be produced “engendered serious reliance interests,”
says the Board, the 2018 Rule was required to “provide
‘a more detailed justification’ than usual. NBB Br. 24
(quoting Fox Television Stations, 556 U.S. at 515)).
According to the Board, the EPA failed to satisfy this
heightened requirement.
Again, we disagree. First, it is far from obvious that
renewable fuel producers possess the sort of reliance
interests that merit special consideration. Neither the
statute nor the EPA ever suggested that the Program’s
statutory applicable volumes would be enforced without modification. To the contrary, as the EPA argues,
annual volumes are “always dependent on a variety of
considerations,” including the “EPA’s projection of
the volume of cellulosic biofuel,” its “calculation of
reasonably attainable volumes,” and its decision regarding whether to “exercise[] its other waiver authorities.”
EPA Br. 28. And second, even where “serious reliance
interests” do exist, what is required is not better
reasons but rather more tailored reasons. “[I]t is not
that further justification is demanded by the mere fact
of policy change; but that a reasoned explanation is
needed for disregarding facts and circumstances that
underlay or were engendered by the prior policy.” Fox
Television Stations, 556 U.S. at 515-16. The EPA did
just that in its 2018 Rule, which explains that the EPA
declined to require backfilling because, in its view, any
“marginal benefit” generated by the additional 110
million gallons of advanced biofuel would be outweighed by their steep substitution costs. 2018 Rule,

114a
82 Fed. Reg. at 58,513. No further explanation was
required.
Finally, the Board suggests that the non-delegation
doctrine prohibits any interpretation of the EPA’s
cellulosic waiver authority broad enough to permit the
EPA to consider costs. This argument we easily reject.
To satisfy the constitutional requirement that “[a]ll
legislative Powers . . . shall be vested in . . . Congress,”
U.S. Const. art. I, § 1, all that is required “when Congress
confers decisionmaking authority upon agencies” is
that it “lay down by legislative act an intelligible
principle to which the person or body authorized to
[act] is directed to conform,” Whitman v. Am. Trucking
Ass’ns, 531 U.S. 457, 472 (2001) (alteration in original)
(quoting J. W. Hampton, Jr., & Co. v. United States,
276 U.S. 394, 409 (1928)). “Or in a related formulation,
the Court has stated that a delegation is permissible if
Congress has made clear to the delegee ‘the general
policy’ he must pursue and the ‘boundaries of [his]
authority.’” Gundy v. United States, 139 S. Ct. 2116,
2129 (2019) (alteration in original) (quoting Am. Power
& Light Co. v. SEC, 329 U.S. 90, 105 (1946)). Congress
provided more than enough direction in the Program’s
cellulosic waiver provision, which constrains both when
and to what extent the EPA may reduce statutory
applicable volumes: only after projecting a cellulosic
biofuel deficit and only by an amount less than or
equal to that projected shortfall. See 42 U.S.C.
§ 7545(o)(7)(D)(i) (stating that “[f]or any calendar year
in which the Administrator makes . . . a reduction” in
the applicable volume for cellulosic biofuel based on a
projected shortfall, “the Administrator may also reduce
the applicable volume of renewable fuel and advanced
biofuels requirement established under paragraph
(2)(B) by the same or a lesser volume”).

115a
C. General Waiver
After reducing applicable volumes of cellulosic biofuel,
advanced biofuel, and renewable fuel by the amount of
the cellulosic shortfall, the EPA then considered
whether “severe[] harm [to] the economy or environment” or “an inadequate domestic supply” existed such
that further reductions were justified. 42 U.S.C.
§ 7545(o)(7)(A). Answering those inquiries in the negative, the EPA declined to exercise its general waiver.
The Obligated Parties now raise various challenges to
that decision, and we consider each in turn.
1. Sequencing the Cellulosic and
General Waivers
Before addressing the particulars of the EPA’s
general waiver determination, the Obligated Parties
make an antecedent argument: that the EPA began its
analysis at the wrong baseline. They ground their
contention in the Program’s general waiver provision,
which states that the EPA “may waive the requirements of paragraph (2)”—that is, the statutory applicable
volumes—“by reducing the national quantity of renewable fuel required under paragraph (2).” 42 U.S.C.
§ 7545(o)(7)(A). According to the Obligated Parties,
this language requires the “EPA to consider whether
domestic supply would be inadequate to meet statutorilyspecified volumes . . . and whether meeting those
volume requirements would trigger severe economic
harm.” Obligated Parties Br. 22. In other words, the
Obligated Parties argue that instead of considering
whether to “further reduc[e]” applicable volumes after
exercising its cellulosic waiver, 2018 Rule, 82 Fed.
Reg. at 58,516, the EPA should have conducted its
general waiver analysis as if the cellulosic waiver had
never happened.

116a
The Obligated Parties ask too much. As an initial
matter, the statute is at least ambiguous when it
comes to sequencing the cellulosic and general
waivers. Both provisions grant the EPA authority to
“waive” or “reduce” the applicable volumes established
by “paragraph (2),” but neither provision indicates
what the EPA should do if, as here, it has already
decided to reduce those volumes. 42 U.S.C. § 7545(o)(7)(A)
(the EPA may use the general waiver to “waive the
requirements of paragraph (2) . . . by reducing the
national quantity of renewable fuel required under
paragraph (2)”); id. § 7545(o)(7)(D) (the EPA may use
the cellulosic waiver to “reduce the applicable volume
of renewable fuel and advanced biofuels requirement
established under paragraph (2)(B)”).
Consequently, because “Congress has not directly
addressed the precise question at issue,” we need
determine only “whether the agency’s answer is based
on a permissible construction of the statute.” Chevron,
467 U.S. at 843. And indeed it is. Not only is it reasonable to interpret one waiver authority as reducing
paragraph (2)’s volumes for purposes of the other
waiver authority, but, as the EPA points out, “[t]here
is no logical reason why [the agency] should base its
waiver decision” on hypothetical volumes “that will
not actually be implemented . . . because they have
been reduced.” EPA Br. 37. We have no basis, therefore, for overriding the EPA’s reasonable interpretation
of the Program’s text with a requirement—cumbersome
at best and absurd at worst—that the EPA conduct
counterfactual analyses of scenarios it has already
rejected.
2. Severe Economic Harm
We turn, then, to the EPA’s examination of whether
the 2018 Rule’s applicable volumes as reduced by the

117a
cellulosic waiver “would severely harm the economy . . .
of a State, a region, or the United States.” 42 U.S.C.
§ 7545(o)(7)(A)(i). The EPA concluded no, and the
Obligated Parties now raise two objections: one interpretive, the other analytical.
The Obligated Parties first take issue with the
EPA’s interpretation of the requisite causal link between
applicable volumes, on the one hand, and severe harm
to the economy, on the other. The EPA interprets the
general waiver provision “as requiring a demonstration that implementation of the RFS Program itself
would cause severe economic harm (as opposed to allowing a waiver if severe economic harm were demonstrated for any reason, or if the RFS merely contributed
to severe harm).” Memorandum from David Korotney,
Office of Transp. and Air Quality, EPA, to Docket
EPA-HQ-OAR-2017-0091, Assessment of Waivers for
Severe Economic Harm or BBD Prices for 2018, at 15
(Nov. 30, 2017) (“Assessment of Waivers”), J.A. 1051.
The Obligated Parties argue that by “requir[ing]
proof that a single market factor—RFS volume
requirements—is the sole cause of the harm,” the EPA
has ensured that its test will almost never be met.
Obligated Parties Br. 25.
The EPA has set a high bar, to be sure, but we
disagree with the Obligated Parties’ assertion that the
bar is so high as to be unreasonable. At bottom, this
dispute comes down to an interpretation of the phrase
“would severely harm the economy.” 42 U.S.C.
§ 7545(o)(7)(A)(i). The degree of causation required by
that text is an open question, and although “agencies
must operate within the bounds of reasonable interpretation” of even ambiguous statutory phrases, Util.
Air Regulatory Grp. v. EPA, 573 U.S. 302, 321 (2014)
(internal quotation marks omitted), courts, by the

118a
same token, “may not substitute [their] own construction of a statutory provision for a reasonable
interpretation made by the administrator of an agency,”
Chevron, 467 U.S. at 844. The EPA argues that in the
Program, Congress intentionally “set a high threshold”
for an economic-harm determination by “requiring . . .
direct causation and a high degree of confidence.” EPA
Br. 41. And indeed, this court has previously observed
that “Congress intended the . . . Program to be . . .
market forcing.” Ams. for Clean Energy, 864 F.3d at
705 (internal quotation marks omitted). Accordingly,
we cannot now fault the EPA for declining to reduce
applicable volumes below statutory levels absent
some clearly and causally demonstrable harm. That
EPA’s interpretation is stringent hardly makes it
unreasonable.
As to the Obligated Parties’ analytical objection,
they question whether the EPA provided adequate
reasons for its determination that “further reductions”
of applicable volumes “on the basis of severe economic
harm” were not “warranted.” 2018 Rule, 82 Fed. Reg.
at 58,518. To reach this conclusion, the EPA first
acknowledged various comments regarding the 2018
Rule’s financial “impacts on specific companies” but
explained that “statements generally claiming financial difficulties, potential for closure, and the high cost
of RIN purchases alone” failed to support a determination “that severe economic harm to a State, a region,
or the United States [was] occurring.” Assessment of
Waivers 5, J.A. 1041. Then, observing “that the 2018
volumes generated through the maximum reduction
permitted under the cellulosic waiver authority are
nearly the same as the volume requirements for 2017,”
the EPA explained that it would, in effect, use 2017
as a test case by considering both “[w]hether severe
economic harm ha[d] occurred . . . in 2017, and . . .

119a
whether the economic conditions in 2018 might be
expected to be substantially different than those in
2017.” 2018 Rule, 82 Fed. Reg. at 58,518. Based on
its assessment of “market overcompliance, retail fuel
prices, fuel supply, crop prices, and refinery closures”
in recent years along with “crop-based feedstock
futures prices” and “projected gasoline demand” for
2018, the EPA concluded that the 2017 requirements
had not “caus[ed] severe economic harm to a State, a
region, or the United States” and that “market conditions in 2018” were unlikely “to cause compliance with
the applicable standards to have a higher potential for
severe economic harm than in 2017.” Assessment of
Waivers 14-15, J.A. 1050-51.
With this analysis, the EPA sufficiently “examine[d]
the relevant data and articulate[d] a satisfactory
explanation for its action.” Motor Vehicle Mfrs. Ass’n
v. State Farm Mut. Auto. Ins. Co., 463 U.S. 29,
43 (1983). Although the EPA declined to conduct a
state-by-state or region-by-region analysis, “an agency
need not—indeed cannot—base its every action upon
empirical data; depending upon the nature of the
problem, an agency may be ‘entitled to conduct . . . a
general analysis based on informed conjecture.’”
Chamber of Commerce v. SEC, 412 F.3d 133, 142 (D.C.
Cir. 2005) (alteration in original) (quoting Melcher v.
FCC, 134 F.3d 1143, 1158 (D.C. Cir. 1998)). Here,
based on “the limited time available” to conduct its
analysis, “the lack of clear evidence of severe economic
harm provided in comments,” and its ability to “grant
waivers . . . during the compliance year should sufficient evidence become available,” the EPA reasonably
elected to begin with “a high-level investigation of a
number of broad economic indicators” to see if they
“provide[d] evidence of possible severe economic
harm that would justify further EPA investigation.”

120a
Assessment of Waivers 7, J.A. 1043. The EPA then
reasonably concluded that they did not. See id.
The Obligated Parties nonetheless argue that the
EPA erred by “ignor[ing] actual data regarding state
and regional economic jeopardy.” Obligated Parties
Br. 29 (emphasis omitted). For this claim, they cite two
facts: first, that “the largest refiner on the East Coast”
declared bankruptcy after the 2018 Rule went into
effect, portending, in the Obligated Parties’ view, additional “refinery shutdowns,” Obligated Parties Reply
Br. 12, 15; and second, that RIN costs are “escalating”
and, in the Obligated Parties’ estimation, not easily
passed on to consumers, Obligated Parties Br. 29.
But the EPA did, in fact, address this purported
evidence of economic harm. As to threatened refinery
closures, the EPA noted that the commenting refineries lacked “any concrete evidence that their financial
difficulties are caused primarily or even significantly
by the RFS program.” Assessment of Waivers 5, J.A.
1041. And as to compliance costs, the EPA explained
that the refineries had failed to show “why they cannot
recoup the cost of RINs through higher prices of their
products.” 2018 Rule, 82 Fed. Reg. at 58,517. Although
the Obligated Parties may disagree with the EPA’s
analysis, they have fallen far short of showing that the
EPA either “entirely failed to consider an important
aspect of the problem” or “offered an explanation for
its decision that runs counter to the evidence before
the agency, or is so implausible that it could not be
ascribed to a difference in view or the product of
agency expertise.” Motor Vehicle Mfrs. Ass’n, 463 U.S.
at 43. Mindful that we may not “substitute [our]
judgment for that of the agency,” id., we conclude that
the EPA did not act arbitrarily and capriciously in

121a
declining to exercise the economic-harm prong of its
general waiver authority.
3. Inadequate Domestic Supply
The Obligated Parties also take issue with the EPA’s
failure to exercise the general waiver “based on a
determination . . . that there is an inadequate domestic
supply.” 42 U.S.C. § 7545(o)(7)(A)(ii). The dispute
turns on the meaning of the phrase “domestic supply”:
the Obligated Parties argue that it includes only fuel
produced domestically, while the EPA, at least until
the 2018 Rule, had interpreted the term to include any
fuel available domestically, including imports. See
Supplemental Information, 82 Fed. Reg. at 46,177
(noting that the EPA had previously considered
“biofuel imports as part of the domestic supply”). But
recently the EPA’s enthusiasm for its imports-inclusive interpretation has turned tepid. In its October
2017 Supplemental Information, the EPA sought
comments on whether to adopt a production-only
interpretation under which the agency would continue
to “consider the availability of imports . . . in determining whether to exercise its discretion to use the waiver
authority,” but only after “ma[king] the threshold
finding that there was an inadequate domestic supply”
of fuel produced in the United States and, even then,
only “as one factor among others.” Id. at 46,178.
After dipping its toe into the water, however, the
EPA waded no further. Instead, the final 2018
Rule analyzed each category of fuel under both a
production-only and an imports-inclusive interpretation of “domestic supply.” Concluding that “a waiver is
not warranted” “[u]nder either approach,” the EPA
adopted neither definition—in effect, deciding not to
decide. 2018 Rule, 82 Fed. Reg. at 58,516. Its analysis
proceeded as follows.

122a
The EPA began by discussing the supply of “nonadvanced” renewable fuel—primarily corn ethanol—
that could fill the 15-billion-gallon gap between the
Program’s requirement of 11 billion gallons of advanced
biofuel (4.29 after the cellulosic waiver) and 26 billion
gallons of total renewable fuel (19.29 after the
cellulosic waiver). 2018 Rule, 82 Fed. Reg. at 58,51617. Explaining that “the total domestic production
capacity of corn ethanol in the [United States] is about
16 billion gallons” and that “total production . . . in
2016 exceeded 15 billion gallons,” the EPA concluded
the market could supply sufficient “conventional
renewable fuel” with or without imports. Id. at 58,517.
Turning next to cellulosic biofuel, the EPA explained
that 286 million gallons of its 288-million-gallon projection was “expected to come from domestic sources”
and that pre-2018 “carryover cellulosic biofuel RINs”
were available to facilitate “additional compliance
flexibility.” Id. “Given the importance that Congress
placed on the growth of cellulosic biofuel volumes” and
the 2018 Rule’s “projection that compliance with a 288
million gallon requirement is feasible,” the EPA
decided it “would not exercise its discretion to lower
the 288 million gallon projected cellulosic biofuel volume
by 2 million gallons even if [it] were to interpret the
term ‘domestic supply’ to exclude imported volumes.”
Id.
That left only non-cellulosic advanced biofuel.
Having already determined that 4.11 billion gallons
(4.4 billion minus 288 million) was “reasonably
attainable,” the EPA dismissed any concern that there
would be an “inadequate domestic supply” of advanced
biofuel under an imports-inclusive interpretation.
See id. at 58,516. But, as the EPA acknowledged, a
production-only interpretation presented a closer

123a
question. The EPA observed that “a significant portion
of the advanced biofuel available in previous years has
been from imported biofuels,” and it noted comments
“suggest[ing] that, without imported volumes, the
domestic industry could not ramp up production quickly
enough to compensate for the exclusion of imports
from our analysis.” Id. at 58,517. The 2018 Rule,
however, also highlighted comments to the contrary.
“Some commenters pointed to total domestic production capacity and feedstock availability,” the EPA
explained, “to argue that domestic producers are capable of compensating for volumes that would not be
provided through imports.” Id. Faced with this
“uncertainty,” the EPA concluded that based on “the
distinct possibility that the domestic industry could
compensate for exclusion of imports” and “the availability of imported volumes and carryover RINs,” it
“would not choose to exercise its authority to grant a
waiver on the basis of inadequate domestic supply for
2018 even if it interpreted the term ‘domestic supply’
to exclude imports.” Id.
This belt-and-suspenders approach, though perhaps
not maximally efficient, relieved the EPA of any
obligation to choose conclusively one interpretation of
“domestic supply” over the other. To be sure, “an
agency rule would be arbitrary and capricious if the
agency . . . entirely failed to consider an important
aspect of the problem.” Motor Vehicle Mfrs. Ass’n, 463
U.S. at 43. But by explaining that it would decline to
exercise its general waiver under either a productiononly or imports-inclusive interpretation, the EPA made
that choice itself unimportant. And because the EPA
sufficiently “acknowledge[d] factual uncertainties and
identif[ied] the considerations it found persuasive”
with respect to each of its alternative analyses, we find
no fault in the substance of the 2018 Rule’s “predictive

124a
judgments” about the adequacy of domestic supply.
Rural Cellular Ass’n v. FCC, 588 F.3d 1095, 1105 (D.C.
Cir. 2009).
Nor are we persuaded by the Obligated Parties’
contention that the imports-inclusive option would
have “impermissibly twisted the [Program’s] statutory
language.” Obligated Parties Br. 32. Implied by the
Obligated Parties’ interpretive argument is a bold
assertion: that the EPA could have acted arbitrarily
and capriciously by merely contemplating, without
adopting, an erroneous interpretation of the statutory
text. But even assuming that premise, we conclude
that the EPA permissibly considered what would have
been a reasonable interpretation of an ambiguous
statutory phrase. Indeed, this court has previously
offered “import capacity” as an example of the sorts of
“supply-side factors” that the “‘inadequate domestic
supply’ provision authorizes [the] EPA to consider”
when “examining whether the supply of renewable
fuel is adequate.” Ams. for Clean Energy, 864 F.3d at
710. We can hardly blame the EPA for permitting
itself to consider whether this court spoke accurately.
See Supplemental Notice, at 46,178 & n.19 (explaining
the EPA’s view that “the court’s statements,” while
“dicta,” “may indicate the scope of permissible, but not
required, interpretations”).
In conclusion, even though the EPA declined to
interpret “inadequate domestic supply,” its refusal to
exercise the domestic-supply prong of its general
waiver authority was nonetheless “the product of
reasoned decisionmaking.” Motor Vehicle Mfrs. Ass’n,
463 U.S. at 52. We reject the Obligated Parties’
contrary arguments.

125a
4. Ethanol Projection
Before moving away from the EPA’s general waiver
analysis, we must address one final point: the Obligated
Parties’ argument that the EPA failed to produce a
well-reasoned estimate of attainable ethanol production, thus making “its final volume determinations . . .
arbitrary and capricious.” Obligated Parties Br. 41; see
also Oral Arg. Tr. 8-9 (conceding that any errors in the
EPA’s ethanol projection could affect only the general
waiver, as the EPA exercised in full its cellulosic
waiver).
The Obligated Parties misapprehend the EPA’s
ultimate task. The Program imposes no free-floating
obligation on the EPA to estimate “the reasonably
attainable supply of ethanol.” Obligated Parties Br.
37. Nor does it permit, much less require, the EPA to
craft applicable volumes of any fuel from scratch.
Instead, the statute establishes applicable volumes—
in 2018, 26 billion gallons of renewable fuel, no more
than 15 gallons of it “non-advanced,” see 42 U.S.C.
§ 7545(o)(2)(B)(i)—and permits the EPA to “waive
[those] requirements” only if the Administrator determines that the statutory mandates “would severely
harm the economy or environment” or “that there is an
inadequate domestic supply,” id. § 7545(o)(7)(A). As
we have explained before, “[n]othing in the text of . . .
the [Program] plainly requires [the] EPA to support its
decision” against exercising the general waiver “with
specific numerical projections.” Am. Petroleum Inst.,
706 F.3d at 481. “Certainly [the] EPA must provide a
reasoned explanation for its actions, but rationality
does not always imply a high degree of quantitative
specificity.” Id.
The 2018 Rule’s explanation is more than
satisfactory. Citing the Renewable Fuels Association’s

126a
“2017 Ethanol Industry Outlook,” the EPA explained
that the U.S. market had the capacity to produce
“about 16 billion gallons” of corn ethanol and had in
fact produced some 15.25 billion gallons in 2016. 2018
Rule, 82 Fed. Reg. at 58,517 & n.135. The EPA further
supplied a lengthy memorandum analyzing “various
conditions and constraints in the marketplace . . .
for the two most prominent biofuels, ethanol and
biodiesel.” Memorandum from David Korotney, Office
of Transp. and Air Quality, EPA, to Docket EPA-HQOAR-2017-0091, Market Impacts of Biofuels 1 (Nov.
27, 2017), J.A. 1180. “[B]ased both on levels achieved
in the past and” predictions regarding “how the
market might respond to the applicable standards,”
the EPA offered “a range of possible outcomes with
varying levels of [ethanol blends], imported sugarcane
ethanol, advanced biodiesel and renewable diesel, and
conventional biodiesel and renewable diesel,” all of
which would satisfy the (post-cellulosic waiver) “total
renewable fuel and advanced biofuel volume requirements of 19.29 and 4.29 billion gallons, respectively.”
Id. at 11, J.A. 1190. This analysis provided more than
enough support for the EPA’s determination that
neither inadequate supply nor economic harm warranted use of the general waiver.
D. 2019 Biomass-Based Diesel Applicable Volume
In addition to establishing renewable fuel obligations for cellulosic biofuel, advanced biofuel, and
renewable fuel for calendar year 2018, the 2018 Rule
also finalized the biomass-based diesel applicable
volume for 2019—a year for which the Program lists
no statutory applicable volume. See 2018 Rule, 82 Fed.
Reg. at 58,518-22. Following the same “approach [it
used] in setting the final [biomass-based diesel] volume

127a
requirement for 2018,” the EPA decided to maintain
the biomass-based diesel requirement at 2.1 billion
gallons, the same as in 2018. Id. at 58,522. Central to
the EPA’s analysis was its assessment that because
“RIN generation data has consistently demonstrated
that the advanced biofuel volume requirement . . .
[is] capable of incentivizing the supply of [biomassbased diesel] above and beyond the [biomass-based
diesel] volume requirement,” “the 2019 advanced
volume requirement”—not the biomass-based diesel
requirement—would drive “the level of [biomass-based
diesel] production and imports that occur in 2019.” Id.
at 58,521-22. In other words, the EPA determined that
while its biomass-based diesel requirement might set
a floor on production, it would hardly impose a ceiling.
The EPA therefore concluded that a 2.1-billion-gallon
requirement would “strike[] the appropriate balance
between” “maintaining support for the [biomass-based
diesel] industry” and “providing a market environment where the development of other advanced
biofuels is incentivized.” Id.
The National Biodiesel Board argues that by considering “the future, then-not-set 2019 advancedbiofuel volume,” the EPA impermissibly “bas[ed] the
2019 [biomass-based diesel] volume on a factor” absent
from the statute’s enumerated list. NBB Br. 28; see
also 42 U.S.C. § 7545(o)(2)(B)(ii), (v) (requiring that
applicable volumes should be established “based on a
review of the implementation of the program during”
previous years and on “an analysis of” six other
factors). We need not, however, linger long on this
argument, as it has been resolved by this court’s
decision in Alon Refining. See slip op. at 65. Therefore,
we deny the Board’s petition.

128a
IV. Other Facets of the Program
The Obligated Parties and the National Biodiesel
Board also challenge three of the EPA’s regulations
implementing the Program. The Obligated Parties
contend that the EPA, as part of the 2018 rulemaking
process, should have reconsidered both its RIN policy
for renewable fuel exports and its definition of
“obligated party.” The National Biodiesel Board, in
turn, argues that the EPA should have accounted for
retroactively granted small refinery exemptions in
calculating percentage standards. As explained below,
the Obligated Parties’ challenges are untimely and the
National Biodiesel Board’s challenge was not preserved.
A. The EPA’s RIN Policy for
Renewable Fuel Exports
Under the EPA’s current regulations, obligated
parties cannot use RINs generated from renewable
fuel that is later exported from the United States to
satisfy their renewable fuel obligations under the
Program. See 40 C.F.R. § 80.1430. Instead, exporters
must use those RINs to offset their own Exporter
Renewable Volume Obligation. Id. During the 2018
rulemaking process, several parties submitted comments asking the EPA to remove the Exporter
Renewable Volume Obligation. Rather than address
the substance of these comments, the EPA stated:
“These comments are all beyond the scope of this
rulemaking as EPA did not propose any changes to the
overall structure of the RFS program or otherwise seek
comment on these issues.” Response to Comments 223,
J.A. 1446. The Obligated Parties now argue that the
EPA acted arbitrarily and capriciously in refusing to
engage with comments regarding renewable fuel
exports for two reasons: first, because those comments
were within the scope of the EPA’s Proposed Rule and

129a
Supplemental Information and second, because the
EPA’s obligation to make a reasoned decision required
it to reevaluate its RIN policy for renewable fuel
exports as part of the 2018 rulemaking.
The EPA correctly dismissed comments regarding
its RIN policy for renewable fuel exports as outside
the scope of the 2018 Rule. In the Proposed Rule, the
EPA delineated those issues for which it was—and
was not—soliciting comment: “EPA is not soliciting
comment on any aspect of the current RFS regulatory
program other than those specifically related to RIN
trading . . . and the proposed annual standards for
2018 and biomass-based diesel applicable volume for
2019.” Proposed Rule, 82 Fed. Reg. at 34,211.
The Obligated Parties do not dispute that the EPA’s
RIN policy for renewable fuel exports falls outside
these enumerated subjects for comment. Instead, the
Obligated Parties point to five other statements in the
Proposed Rule and Supplemental Information that
they argue brought the EPA’s RIN policy for renewable fuel exports within the scope of the rulemaking:
(1) the EPA’s acknowledgment that “[r]eal-world challenges” have rendered unattainable congressional goals
for the production of most categories of renewable fuel,
id. at 34,207; (2) the EPA’s observation that the
variable volume of annual renewable fuel imports
and exports “affect[s] the price of renewable fuel,”
Supplemental Information, 82 Fed. Reg. at 46,176;
(3) the EPA’s concern that increasing reliance on
renewable fuel imports may jeopardize energy independence and security, Proposed Rule, 82 Fed. Reg. at
34,212; (4) the EPA’s affirmance of the importance of
maintaining the liquidity of the RIN market by
maintaining an “adequate RIN bank,” id. at 34,213;
and (5) the EPA’s requests for comments “on all
aspects of this proposal” and “any aspect of this

130a
rulemaking,” id. at 34,242. It is not clear that these
statements, on their face, open the EPA’s RIN policy
for renewable fuel exports for comment. Whatever the
potential meaning of these statements in isolation, the
Proposed Rule’s express limitation of the subjects on
which the EPA was soliciting comment unambiguously communicates its decision not to solicit comment
on its RIN policy for renewable fuel exports. Accordingly,
we find no error in the EPA’s treatment of comments
requesting that it reconsider its RIN policy for renewable fuel exports as outside the scope of the 2018
rulemaking.
Because comments regarding the EPA’s RIN policy
for exported renewable fuel were outside the scope of
the 2018 rulemaking, we lack jurisdiction to consider
the Obligated Parties’ instant challenge to the policy.
Generally, “[a] petition for review of action of [the
EPA] in promulgating . . . any control or prohibition
under [the Program] . . . shall be filed within sixty days
from the date notice of such promulgation, approval,
or action appears in the Federal Register.” 42 U.S.C.
§ 7607(b)(1). Section 7607(b)(1)’s sixty-day filing
deadline is jurisdictional. See Sierra Club v. EPA, 895
F.3d 1, 16 (D.C. Cir. 2018). Here, the EPA promulgated its current version of its regulation governing
renewable fuel exports in 2014. See RFS Renewable
Identification Number (RIN) Quality Assurance Program,
79 Fed. Reg. 42,078, 42,115 (July 18, 2014). The
Obligated Parties filed their first petition in this case
more than three years later—well outside the statutory sixty-day filing period. Although a party may file
an otherwise untimely petition challenging a regulation if the promulgating agency subsequently expressly
or constructively “reopens” the issue, Nat. Res. Def.
Council v. EPA, 571 F.3d 1245, 1265 (D.C. Cir. 2009)
(per curiam), our conclusion that comments regarding

131a
the EPA’s RIN policy for renewable fuel exports were
outside the scope of the 2018 rulemaking forecloses the
claim that the EPA reopened the issue. We therefore
lack jurisdiction to consider the Obligated Parties’
challenge to the EPA’s current rule preventing refineries and importers of renewable fuel from using RINs
from renewable fuel later exported to discharge their
renewable fuel obligations.
In an apparent attempt avoid the sixty-day filing
period, the Obligated Parties argue that the EPA
acted arbitrarily and capriciously by failing even to
reconsider its RIN policy for renewable fuel exports.
According to the Obligated Parties, altering that policy
is a significant alternative that the EPA should have
considered when settling on the 2018 Rule’s applicable
volumes and percentage standards. Although an agency
must consider comments “relevant to the agency’s
decision and which, if adopted, would require a change
in an agency’s proposed rule,” it “does not have to
‘make progress on every front before it can make
progress on any front.’” Nat’l Mining Ass’n v. MSHA,
116 F.3d 520, 549 (D.C. Cir. 1997) (per curiam) (first
quoting Home Box Office, Inc. v. FCC, 567 F.2d 9, 35
n.58 (D.C. Cir. 1977) (per curiam); then quoting Pers.
Watercraft Indus. Ass’n v. Dep’t of Commerce, 48 F.3d
540, 544 (D.C. Cir. 1995)). Here, the Obligated Parties
have not explained how a change in the EPA’s RIN
policy for renewable fuel exports would have required
the agency also to change its proposed applicable
volumes and percentage standards. Therefore, the
EPA could, without acting arbitrarily and capriciously, take the discrete action of establishing annual
applicable volumes and percentage standards under
the Program while declining to reconsider its RIN
policy for renewable fuel exports.

132a
B. The EPA’s Definition of “Obligated Party”
The Clean Air Act gives the EPA some leeway in
determining which parties in the transportation fuel
industry must comply with the Program’s percentage
standards. The Act provides that renewable fuel
obligations “shall . . . be applicable to refineries,
blenders, and importers, as appropriate.” 42 U.S.C.
§ 7545(o)(3)(B)(ii)(I) (emphasis added). Exercising its
discretion under the statute, the EPA has long declined
to obligate blenders. See 40 C.F.R. § 80.1406(a)(1).
Refineries and importers have repeatedly objected to
the EPA’s decision not to require blenders to help
shoulder the Program’s regulatory burden, including
in comments to the 2018 Rule. The EPA, however,
dismissed those comments as outside the scope of the
rulemaking.
There is no doubt that the EPA is correct that
comments regarding the agency’s “obligated party”
definition fell outside the scope of the 2018 rulemaking. In the Proposed Rule, the EPA expressly declared
that it was not reopening the issue: “EPA is not reopening for public comment in this rulemaking the
current definition of ‘obligated party.’” Proposed Rule,
82 Fed. Reg. at 34,211. Because the EPA did not
reopen the issue, the Obligated Parties’ challenge to
the EPA’s rule is untimely by over seven years, see
Regulation of Fuels and Fuel Additives: Modifications
to Renewable Fuel Standard Program, 75 Fed. Reg.
26,026, 26,037 (May 10, 2010), and we therefore lack
jurisdiction to review the limited reach of the EPA’s
regulations obligating only refineries and importers of
transportation fuel, see Sierra Club, 895 F.3d at 16.
The Obligated Parties, however, again attempt to
side-step the sixty-day filing requirement by arguing

133a
that the EPA acted contrary to the Clean Air Act as
well as arbitrarily and capriciously by declining to
reconsider its definition of “obligated party” in promulgating the annual applicable volumes and percentage
standards in the 2018 Rule. We need not consider this
argument because this court’s recent decision in Alon
Refining resolves the issue. See slip op. at 53.
C. The EPA’s Method of Accounting for
Small Refinery Exemptions
After establishing the applicable volumes for a
particular year, the EPA translates those volumes
into percentage standards by dividing the applicable
renewable fuel volumes by the total volume of transportation fuel expected to be sold in the United States
in that year. See 42 U.S.C. § 7545(o)(3)(B)(ii)(II); 40
C.F.R. § 80.1405(c). Thus, if every obligated party
incorporates the required percentage of renewable fuel
into the gasoline and diesel it sells, the transportation
fuel industry as a whole will achieve the established
applicable volumes. As noted above, however, the
Program requires the EPA to exempt from compliance
small refineries experiencing disproportionate economic
hardship in complying with their renewable fuel
obligations. 42 U.S.C. § 7545(o)(9). By permitting some
obligated parties to incorporate less renewable fuel
into the gasoline and diesel they sell, small refinery
exemptions can impede attainment of overall applicable volumes. To avoid such a shortfall, the EPA
raises the percentage standard for non-exempt parties
in a given year by subtracting from its calculations the
transportation fuel contributions of small refineries
that were granted exemptions before the EPA established the percentage standard for that year. See 40
C.F.R. § 80.1405(c).

134a
This solution, however, is only partial: the EPA does
not currently account for small refinery exemptions
granted after it promulgates percentage standards for
that year—so-called retroactive exemptions. To address
any deficiency in its current approach, the EPA
solicited comment on how it should account for small
refinery exemptions in its calculation of the 2018
percentage standards. Proposed Rule, 82 Fed. Reg. at
34,241-42. The EPA ultimately maintained its
previous policy of adjusting fuel percentages for
exemptions granted before the percentage standards
are promulgated but not for exemptions granted after.
2018 Rule, 82 Fed. Reg. at 58,523.
The National Biodiesel Board challenges the EPA’s
decision to retain its policy of disregarding retroactive
small refinery exemptions as failing to “ensure[]” that
obligated parties’ renewable fuel contributions achieve
total applicable volumes pursuant to 42 U.S.C. section
7545(o)(3)(B)(i). The Board argues that the EPA
should have adopted a policy whereby it (1) adjusts the
final percentage standards ex ante to account “for
small-refinery exemptions [the EPA] is reasonably
likely to grant after promulgating the standards” and
(2) corrects any deficiencies resulting from exemptions
actually granted ex post by “increasing later years’
standards.” NBB Br. 18.
The Board, however, did not make its current
challenge during the 2018 rulemaking. Under the
Clean Air Act, “[o]nly an objection to a rule or procedure which was raised with reasonable specificity
during the period for public comment . . . may be raised
during judicial review.” 42 U.S.C. § 7607(d)(7)(B). “The
court enforces this provision ‘strictly’ to ensure that
[the] EPA has an opportunity to respond to every
challenge” and so that “the court enjoys the benefit of

135a
the agency’s expertise and possibly avoids addressing
some of the challenges unnecessarily.” Motor & Equip.
Mfrs. Ass’n v. Nichols, 142 F.3d 449, 462 (D.C. Cir.
1998) (citation omitted) (quoting Nat. Res. Def. Council
v. Thomas, 805 F.2d 410, 427 (D.C. Cir. 1986)).
“[A]lthough we allow commenters ‘some leeway in
developing their argument before this court,’ the
comment must have provided ‘adequate notification of
the general substance of the complaint.’” Nat. Res. Def.
Council, 571 F.3d at 1259 (quoting S. Coast Air
Quality Mgmt. Dist. v. EPA, 472 F.3d 882, 891 (D.C.
Cir. 2006)).
The Board identifies two sets of comments it claims
preserved its current challenge, but both failed to give
“adequate notification of the general substance” of the
Board’s current proposal. Id. In one set of comments,
the American Petroleum Institute suggested that the
EPA cease granting retroactive exemptions altogether.
In a similar vein, the other set of comments by BP
Products of North America asked the EPA to cease
granting retroactive exemptions or, in the alternative,
to adjust applicable volumes after the standards are
promulgated to account for any retroactive exemptions. The Board’s offered solutions are significantly
different from these proposals—the Board does not
ask the EPA to cease granting retroactive exemptions
or to adjust the applicable volumes for the same year
in which the retroactive exemptions are later granted.
Rather, the Board suggests that the EPA should
project the number of retroactive exemptions it expects
to grant when calculating percentage standards or
should adjust the following year’s applicable volumes
to account for any shortfall resulting from the grant of
retroactive exemptions. The comments submitted to
the EPA therefore did not raise the Board’s current
proposals with “reasonable specificity,” 42 U.S.C.

136a
§ 7607(d)(7)(B), leaving the EPA no opportunity to
respond to the Board’s challenge and burdening this
court with potentially unnecessary challenges, see
Motor & Equip. Mfrs. Ass’n, 142 F.3d at 462.
At oral argument, the Board acknowledged that
neither of its proposals “specifically was in front of the
Agency” but claimed that they are merely “alternative
proposals” and that the Board “d[oes] not have a
specific proposal” that the EPA must adopt. Oral Arg.
Tr. 64, 66. Instead, the Board argued that “the Court
should tell EPA that its duty to ensure requires it to
do something, and then send [the 2018 Rule] back to
the Agency for the Agency to decide what that something is.” Oral Arg. Tr. 65-66. Regardless whether we
can vacate the 2018 Rule due to the EPA’s failure to
do an unspecified “something,” the Board did not make
this argument in its briefs and has therefore forfeited
the issue. See Elec. Privacy Info. Ctr. v. Presidential
Advisory Comm ‘n on Election Integrity, 878 F.3d 371,
379 n.6 (D.C. Cir. 2017).
As a fallback, the Board argues that the EPA’s
policy regarding small refinery exemptions is a “vital
assumption” underlying the 2018 Rule and therefore
no comment was necessary to preserve its current
challenge. Under the “key assumption” doctrine, an
agency has the “‘duty to examine key assumptions as
part of its affirmative burden of promulgating and
explaining a non-arbitrary, non-capricious rule’ and
therefore . . . ‘must justify that assumption even if no
one objects to it during the comment period.’” Okla.
Dep’t of Envtl. Quality v. EPA, 740 F.3d 185, 192 (D.C.
Cir. 2014) (alteration in original) (quoting Appalachian
Power Co. v. EPA, 135 F.3d 791, 818 (D.C. Cir. 1998)
(per curiam)). But the key assumption doctrine applies
to aspects of a rule that are foundational to its

137a
existence, such as assumptions regarding the agency’s
statutory authority, see Nat. Res. Def. Council v. EPA,
755 F.3d 1010, 1023 (D.C. Cir. 2014) (“[T]hat EPA had
statutory authority . . . to exempt some hazardouswaste-derived fuels from regulation was a ‘key assumption’ underlying EPA’s exercise of its discretion . . . .”
(internal quotation mark omitted)), or those pertaining
to the agency’s analytical methodology, see Small
Refiner Lead Phase-Down Task Force v. EPA, 705 F.2d
506, 535 (D.C. Cir. 1983) (“[A]ggregate analysis is a
vital assumption underlying the [EPA’s] model. Thus,
EPA must justify that assumption even if no one
objects to it during the comment period . . . .”). How the
EPA accounts for exemptions granted to a subset of
a subset of a subset of obligated parties (small
fuel refineries experiencing disproportionate economic
hardship) is hardly an assumption undergirding the
entire 2018 Rule. In any event, the EPA examined
its policy regarding retroactive exemptions, solicited
comment on the issue, and reasonably rejected the
proposals it received. See Proposed Rule, 82 Fed. Reg.
at 34,241-42; 2018 Rule, 82 Fed. Reg. at 58,523. Thus,
to the extent the EPA’s method of accounting for
retroactive exemptions in its percentage standard calculations is a “key assumption,” the EPA has carried
its “affirmative burden . . . [to] justify that assumption.” Okla. Dep’t of Envtl. Quality, 740 F.3d at 192
(quoting Appalachian Power Co., 135 F.3d at 818).
V. Regulatory Flexibility Act
The Regulatory Flexibility Act requires an agency to
perform a regulatory flexibility analysis when conducting a rulemaking. 5 U.S.C. §§ 603(a), 604(a). As
part of that analysis, the agency must assess any
potential effects its proposed rule may have on small
entities and must consider alternatives that would

138a
“minimize any significant economic impact” on small
entities to which the rule will apply. Id. § 603(b)(3), (c);
accord id. § 604(a)(4), (6). Intervenor Small Retailers
Coalition argues that the court should vacate the 2018
Rule because the EPA failed to perform a regulatory
flexibility analysis assessing the potential impact of
the 2018 Rule on small fuel retailers. Although the
Regulatory Flexibility Act argument was articulated
in a joint brief filed by the Obligated Parties and the
Coalition, the parties agree that only the Coalition
raises the argument.
We decline to exercise our discretion to hear this
argument brought only by an intervenor and not by
any of the petitioners. By failing to file a timely petition for review, the Coalition forfeited any guarantee
to judicial review of its claim. See E. Ky. Power Coop.,
Inc. v. FERC, 489 F.3d 1299, 1305 (D.C. Cir. 2007).
Generally, “[i]ntervenors may only argue issues that
have been raised by the principal parties.” Nat’l Ass’n
of Regulatory Util. Comm’rs v. ICC, 41 F.3d 721, 729
(D.C. Cir. 1994). “[O]nly in ‘extraordinary cases’ will
we depart from our general rule.” Id. at 730 (quoting
Lamprecht v. FCC, 958 F.2d 382, 389 (D.C. Cir. 1992)).
For example, we will consider an intervenor-only
argument that raises “‘an essential’ predicate” to the
issues raised by the petitioners—that is, if the
argument has been “fully litigated in the agency
proceedings and [is] potentially determinative of the
outcome of judicial review.” Synovus Fin. Corp. v. Bd.
of Governors, 952 F.2d 426, 433-34 (D.C. Cir. 1991).
But we are reticent to consider an intervenor-only
argument if the intervenor “had every incentive to
petition for review of the administrative decision and
its failure to do so was without excuse.” Id. at 434.

139a
The Coalition’s challenge does not constitute an
extraordinary case. Instead of demonstrating that its
argument presents an “essential predicate” to the
issues the petitioners raise or is otherwise of unusual
importance, the Coalition emphasizes (1) that the EPA
did not object to its motion to intervene, (2) that the
Regulatory Flexibility Act argument raises a pure
question of law, and (3) that the Coalition has a history
of challenging the EPA’s definition of obligated parties. The Coalition points to no case, and we are aware
of none, in which we have relied on similar facts to
justify considering an intervenor-only argument.
On the other hand, we believe this case is indistinguishable from Time Warner Entertainment Co. v.
FCC, 56 F.3d 151 (D.C. Cir. 1995). In Time Warner, we
declined to consider an argument under the Regulatory
Flexibility Act made only by the intervenor, the Small
Cable Business Association. Id. at 202-03. In doing so,
we observed that the Association had “participated
in the agency proceedings and had the opportunity
to file an independent petition for review of the
Commission’s alleged rejection of the Association’s . . .
[Regulatory Flexibility Act] claim[].” Id. at 202. Just so
here. The Coalition submitted comments on the
Proposed Rule asking the EPA to conduct a regulatory
flexibility analysis, and the EPA’s alleged failure to
conduct the requested analysis gave the Coalition
every incentive to file its own petition for review of the
final 2018 Rule. The Coalition has offered no excuse
for its failure to do so. We therefore decline to exercise
our discretion to consider the Coalition’s arguments
under the Regulatory Flexibility Act.
VI. Endangered Species Act
Finally, the Environmental Petitioners argue that
the EPA failed to comply with its obligations under the

140a
Endangered Species Act (ESA), 16 U.S.C. §§ 15311544. The ESA requires agencies to determine whether
certain proposed actions may affect endangered and
threatened species, known as “listed species,” and
their critical habitat. Generally, unless an agency
determines that an action will not affect these species
and habitat, the agency must consult with the U.S.
Fish and Wildlife Service and the National Marine
Fisheries Service (the “Services”). The Environmental
Petitioners contend that the EPA disregarded these
obligations by failing to determine whether the 2018
Rule may affect listed species and critical habitat. This
challenge clears several threshold hurdles: we have
jurisdiction, the Environmental Petitioners have standing, and the Environmental Petitioners preserved
their challenge. On the merits, we agree with the
Environmental Petitioners that the EPA did not
comply with the ESA.
A. Jurisdiction
We have jurisdiction over challenges to “final
action[s]” taken by the EPA under the Clean Air Act.
42 U.S.C. § 7607(b)(1); see supra Part II. The term
“final action” in the Clean Air Act is synonymous with
“final agency action” in the Administrative Procedure
Act. See Indep. Equip. Dealers Ass’n v. EPA, 372 F.3d
420, 428 (D.C. Cir. 2004). This means that the Clean
Air Act empowers us to hear challenges to “discrete
agency actions,” but we may not consider more
sweeping “programmatic” attacks. See Norton v. S.
Utah Wilderness All., 542 U.S. 55, 62-65 (2004); Lujan
v. Nat’l Wildlife Fed’n, 497 U.S. 871, 891 (1990).
The EPA argues that the Environmental Petitioners’
claim is outside our jurisdiction because it is a broad
attack seeking “wholesale improvement of” the RFS
Program. EPA Br. 85 (quoting Lujan, 497 U.S. at 891).

141a
We do not understand the claim so broadly.
Although the Environmental Petitioners criticize the
RFS Program and complain that the EPA has never
consulted on the Program during the past decade,
their actual challenge is to the 2018 Rule. According to
their petition, they “seek review” of “the EPA’s failure
to comply with the requirements” of the ESA “in
promulgating the Final Rule,” and they charge the
EPA “in this instance” with failing to consult with the
Services “to ensure that the Final Rule” would not
harm listed species. Envtl. Pet’rs Pet. ¶ 2, No. 18-1040
(D.C. Cir. Feb. 9, 2018). Because the promulgation of
the 2018 Rule is a discrete agency action, this
challenge is squarely within our jurisdiction under the
Clean Air Act.
B. Standing
The EPA also argues that we may not consider the
challenge because the Environmental Petitioners lack
standing. “The Constitution limits our ‘judicial Power’
to ‘Cases’ and ‘Controversies,’ and there is no justiciable case or controversy unless the plaintiff has
standing.” West v. Lynch, 845 F.3d 1228, 1230 (D.C.
Cir. 2017) (quoting U.S. Const. art. III, § 2). An
association like each of the Environmental Petitioners
has standing “only if (1) at least one of its members
would have standing to sue in his own right; (2) the
interest it seeks to protect is germane to its purpose;
and (3) neither the claim asserted nor the relief
requested requires the member to participate in the
lawsuit.” Ctr. for Biological Diversity v. EPA, 861 F.3d
174, 182 (D.C. Cir. 2017) (quoting Am. Trucking Ass’ns
v. Fed. Motor Carrier Safety Admin., 724 F.3d 243, 247
(D.C. Cir. 2013)).
The parties do not dispute that one of the
Environmental Petitioners—the Sierra Club—satisfies

142a
the latter two elements of associational standing. Nor
could they. As an organization dedicated to protecting
and enjoying the environment, Addendum to Envtl.
Pet’rs Br. (“Add.”) 275, 289, the Sierra Club “has an
obvious interest in challenging the EPA’s failure to
engage in consultation,” a process that ensures that
agency action “does not go forward without full consideration of its effects on listed species,” Ctr. for
Biological Diversity, 861 F.3d at 182 (internal quotation marks omitted). Also, the claim asserted (that the
EPA violated its obligations under the ESA) and the
relief requested (an order requiring the EPA to comply
with its obligations) do not require any member of the
Sierra Club to participate in this suit. See id.
The only disputed element of associational standing
is the first: whether at least one of the Sierra Club’s
members would have standing to sue in his or her own
right. Generally, a plaintiff must meet three requirements to have standing. The plaintiff must have
suffered (1) a concrete and particularized injury that
(2) was caused by the challenged conduct and (3) is
likely to be redressed by a favorable judicial decision.
See Hollingsworth v. Perry, 570 U.S. 693, 704 (2013)
(citing Lujan v. Defs. of Wildlife, 504 U.S. 555, 560-61
(1992)); Ctr. for Biological Diversity, 861 F.3d at
181-82.
This case involves a twist on the usual standing
inquiry because the claim—that the EPA failed to
meet its obligations under the ESA—describes an
“archetypal procedural injury.” Ctr. for Biological
Diversity, 861 F.3d at 182 (quoting WildEarth
Guardians v. Jewell, 738 F.3d 298, 305 (D.C. Cir.
2013)). In cases involving a procedural injury, our
“primary focus” is “whether a plaintiff who has
suffered personal and particularized injury has sued a

143a
defendant who has caused that injury,” and our
analyses of the injury and of causation tend to involve
similar concepts. Fla. Audubon Soc’y v. Bentsen, 94
F.3d 658, 664 (D.C. Cir. 1996) (en banc) (citing Lujan,
504 U.S. at 572 n.7); see Ctr. for Biological Diversity,
861 F.3d at 182-83. As to injury, the Sierra Club must
show that the failure to comply with the ESA “affects
its members’ concrete . . . interests,” Ctr. for Biological
Diversity, 861 F.3d at 183; in other words, that the
failure “demonstrably increased some specific risk of
environmental harm[s]” that “imperil” the members’
“particularized interests” in a species or habitat with
which the members share a “geographic nexus,”
Fla. Audubon Soc’y, 94 F.3d at 666-68; see Ctr. for
Biological Diversity, 861 F.3d at 183-84. As to
causation, the Sierra Club must show two links: “one
connecting the omitted procedural step to some
substantive government decision that may have been
wrongly decided because of the lack of that procedural
requirement” and “one connecting that substantive
decision to the plaintiff’s particularized injury.” Ctr.
for Biological Diversity, 861 F.3d at 184 (alterations
and internal quotation marks omitted). The Sierra
Club need not show that harm to a member “has in
fact resulted from the EPA’s procedural failures,” but
the Club must “demonstrate that there is a ‘substantial probability’ that local conditions will be adversely
affected” by the final decision infected with procedural
failures and “thus harm a [Club] member.” Id. (quoting Am. Petroleum Inst. v. EPA, 216 F.3d 50, 63 (D.C.
Cir. 2000) (per curiam)).
The Sierra Club has established injury and causation through at least two of its members, C. Elaine
Giessel and William Fontenot. We begin by describing
their interests, then we explain how the 2018 Rule
affects those interests.

144a
Giessel has aesthetic and recreational interests
in observing the whooping crane. Watching birds,
including whooping cranes, is one of her family’s
favorite activities. Add. 286. For many years, she has
supported the conservation of critical habitat for the
whooping crane. In 1997, she helped create an organization that supports a Texas wildlife refuge; she now
visits the refuge annually to see the whooping cranes.
Id. at 283-84. She also belongs to an organization that
supports the Quivira National Wildlife Reserve in
Kansas, and several times per year she visits that
refuge and another in Kansas, the Cheyenne Bottoms
State Waterfowl Management Area. She intends to
continue visiting these areas “for the foreseeable
future,” and her “enjoyment would be greatly diminished by the loss of the Whooping cranes.” Id. at 285.
These interests are “undeniably . . . cognizable interest[s]
for purpose of standing.” Ctr. for Biological Diversity,
861 F.3d at 183 (quoting Lujan, 504 U.S. at 562-63).
Fontenot has similarly cognizable educational and
conservation interests in observing and studying the
sturgeon that live in the Gulf of Mexico and the
Mississippi River Basin. He has visited their habitat
in the Gulf and intends to do so again in the future.
Add. 298. As the Conservation Chairman for a Sierra
Club Chapter, he has “been active in efforts to protect
the Gulf Sturgeon and its habitat,” including commenting on the 2011 draft plan for the Bogue Chitto Refuge
at the mouth of the Mississippi River. Id. at 299. He
has studied sturgeon, such as those in the Pearl River
in the Mississippi River Basin, and he wishes to
continue studying the species because it helps him
understand, protect, and educate others about the
Gulf and the Mississippi River. Id. at 296-99.

145a
The interests of Giessel and Fontenot are harmed by
the EPA’s alleged failure to comply with its ESA
obligations in promulgating the 2018 Rule. The EPA’s
own 2018 Triennial Report concluded that the Program’s
annual standards likely cause the conversion of uncultivated land into agricultural land for growing crops
that can be used to make biofuels. Since the Program
was enacted, acreage planted with corn and soybeans
has increased, and the evidence suggests that some of
this increase “is a consequence of increased biofuel
production mandates.” Id. at 123-25. In the same
vein, a declaration by Dr. Tyler Lark, an associate
researcher at the University of Wisconsin-Madison’s
Center for Sustainability and the Global Environment,
explains that many studies have found that the RFS
Program has heightened demand for ethanol, thus
increasing the production of corn, soybeans, and similar
crops and incentivizing the conversion of uncultivated
land to agricultural land for growing these crops. See
id. at 3-7 (Lark Decl. ¶¶ 4-8). Land conversion is
particularly marked in areas surrounding ethanol
refineries. See id. at 7-8 (Lark Decl. ¶¶ 9-10).
According to the EPA’s Triennial Report and Dr.
Lark, this increase in crop production and land conversion harms the habitats of numerous animals and fish,
see id. at 212-20; id. at 9-18 (Lark Decl. ¶¶ 12-23),
including—critically—the particular habitats of the
whooping cranes and Gulf sturgeon in which Giessel
and Fontenot have interests. Dr. Lark explains that
the Program’s annual standards may negatively affect
the whooping crane “through the loss and fragmentation of habitat.” Id. at 13 (Lark Decl. ¶ 17). Most
relevant to Giessel, “[t]here is substantial conversion
of land to biofuel feedstock crops near the species’
designated critical habitat in Kansas.” Id. In support,
Dr. Lark cites a map showing that potential land

146a
conversion occurred from 2008 to 2016 near and
within the very areas that Giessel visits to observe
whooping cranes: the Quivira National Wildlife Reserve
and Cheyenne Bottoms State Waterfowl Management
Area. Id. The Triennial Report echoes this refrain,
stating that the whooping crane’s critical habitat in
Kansas is “at risk of impairment” due to recent land
conversion, crop production, and ethanol refinery
locations. Id. at 64.
Gulf sturgeon are also at risk. The increase in crop
production and land conversion caused by the Program’s
annual standards “negatively impact[s] water quality.”
Id. at 125-26. In particular, the standards contribute
to oxygen deficiencies (known as hypoxia) in the
northern Gulf of Mexico. Id. Indeed, “[t]he link between
the Renewable Fuel Standard, increased cropping
intensification, and hypoxia in the Gulf of Mexico” is
“well established.” Id. at 20 (Lark Decl. ¶ 27) (citing
studies). This may harm sturgeon, which are “vulnerable” to hypoxia and have migration and feeding ranges
and critical habitat in the Gulf and at the mouth of the
Mississippi River. Id. at 21 (Lark Decl. ¶¶ 28-29);
accord. id. at 65; see also Endangered and Threatened
Wildlife and Plants; Designation of Critical Habitat for
the Gulf Sturgeon, 68 Fed. Reg. 13,370, 13,390, 13,408
(Mar. 19, 2003) (defining the Gulf sturgeon’s critical
habitat to include the Pearl River and the Bogue
Chitto River in the Mississippi River Basin). These are
precisely the waterways where Fontenot observes and
studies sturgeon. See Add. 296-99.
In these ways, the 2018 Rule created a demonstratable risk to the particularized interests of two
Sierra Club members in the whooping crane in Kansas
and the sturgeon in the Gulf and the Mississippi River
Basin. That risk is an injury to those members. We

147a
reached the same conclusion in Center for Biological
Diversity v. EPA, 861 F.3d 174 (D.C. Cir. 2017). There,
an environmental association likewise charged the
EPA with failing to meet its ESA obligations before
approving a pesticide that was toxic to insects. Id. at
180. We held that two members of the association
suffered cognizable injuries because the EPA’s alleged
failure created a “demonstrable risk” to (1) a beetle
that one member sought to observe in a particular
habitat several times a year, and (2) a butterfly that
lived in a county frequently visited by another member,
who intended to return to the county “to look for” the
butterfly. Id. at 183-84. Here, the 2018 Rule poses a
similar risk to species that share a “geographical
nexus” with the Sierra Club members. Id. (quoting
Fla. Audubon Soc’y, 94 F.3d at 667). The members
have suffered cognizable injuries.
As to causation, the EPA’s alleged failure to comply
with its ESA obligations is plainly connected to the
setting of standards in the 2018 Rule, and those
standards might have come out differently if the EPA
had complied. See id. at 184. Also, there is a “substantial probability” that the EPA’s ultimate decision
adversely affected local conditions in Kansas, the Gulf,
and the Mississippi River Basin, harming cranes and
sturgeon to the detriment of Giessel and Fontenot. Id.
(internal quotation marks omitted). This establishes
causation. Again, Center for Biological Diversity is
instructive. In that case, we held that causation existed
due to the substantial probability that approving the
pesticide threatened the members’ interests, particularly given the pesticide’s toxicity to insects and the
“geographical overlap” between the beetle habitat and
the areas of likely pesticide use. Id. at 184-85. The
EPA action here similarly affects the local conditions
that matter to Giessel and Fontenot. The Sierra Club

148a
has established that at least one of its members has
suffered an injury caused by the EPA.
The EPA dismisses all this as “generalized concerns
with RFS statutory provisions and past RFS action,”
which “do not provide ‘evidence’ that the 2018 Rule
causes the same alleged injuries.” EPA Br. 91. We
disagree. The EPA’s argument relies on the wrong
standard. The Environmental Petitioners need not
show that the 2018 Rule “in fact” causes the same
injuries; they must show only a “substantial probability” of injury. Ctr. for Biological Diversity, 861 F.3d
at 183-84 (internal quotation marks omitted). The
EPA’s Triennial Report and the Lark declaration
provide evidence of just that. They describe the effects
of the annual standards promulgated over the past
decade, and the 2018 Rule is simply the next iteration
of those standards. Thus, the report and declaration
certainly serve as evidence of the likely effects of the
2018 Rule.
The EPA also argues that this case is more like
Florida Audubon Society than Center for Biological
Diversity. Not so. In Florida Audubon Society, an
environmental association challenged a new federal
tax credit that allegedly harmed wildlife habitats by
incentivizing ethanol production. 94 F.3d at 662. We
held that no member had standing because there was
only a “general risk” of harm throughout the United
States, without a “geographic nexus” connecting a
member to areas harmed by the tax credit. Id. at 66768. Also, the chain of causation showing that the tax
credit would harm habitats was too “protracted” and
“speculative,” for the chain depended on “predictive
assumptions” about uncertain incentives and “presume[d]
certain ‘independent action[s] of some third party.”’ Id.
at 670 (quoting Simon v. Eastern Ky. Welfare Rights

149a
Org., 426 U.S. 26, 42 (1976)). By contrast, here the
members of the Sierra Club share a geographic nexus
with areas likely affected by the 2018 Rule, and the
chain of causation does not depend on predictive
assumptions about a novel agency action. We have a
decade’s worth of information, including the EPA’s
own Triennial Report, on the effects of the Program’s
annual standards. And unlike in Florida Audubon
Society, those standards do not simply establish
uncertain tax incentives that might lead third parties
to take actions that harm habitats, but rather directly
regulate biofuel producers who are “before this court.”
Id. at 670. It requires “no great speculative leap” to
conclude that the EPA caused an injury to the members of the Sierra Club. Ctr. for Biological Diversity,
861 F.3d at 183 n.7.
This injury is also redressable. In this context, the
requirement of redressability is “relaxed.” Id. at 185
(quoting WildEarth Guardians, 738 F.3d at 306). The
Sierra Club need not show that the EPA “would alter”
the 2018 Rule if ordered to comply with its ESA obligations, but rather that “the EPA could reach a different
conclusion.” Id. (quoting Nat’l Parks Conservation
Ass’n v. Manson, 414 F.3d 1, 5 (D.C. Cir. 2005)). The
Sierra Club has made this showing. There “remains at
least the possibility” that the EPA could set different
standards by, for example, invoking the general waiver
for severe environmental harm. Id.; see 42 U.S.C.
§ 7545(o)(7)(A)(i).
Having established that at least one of its members
would have standing to sue, the Sierra Club has
associational standing. We do not address whether the
other Environmental Petitioner, the Gulf Restoration
Network, has standing. When multiple associations

150a
bring suit, only one must have standing. See Ctr. for
Biological Diversity, 861 F.3d at 182.
C. Preservation
The EPA next argues that we may not consider the
Environmental Petitioners’ challenge because it was
not preserved. As we explained in Part IV.C, the Clean
Air Act directs that “[o]nly an objection to a rule . . .
raised with reasonable specificity during the period for
public comment . . . may be raised during judicial
review.” 42 U.S.C. § 7607(d)(7)(B). An objection is
reasonably specific if it provides “adequate notification
of the general substance of the complaint.” Nat. Res.
Def. Council, 571 F.3d at 1259 (quoting S. Coast Air
Quality Mgmt. Dist., 472 F.3d at 891).
The Environmental Petitioners preserved their
claim in a letter sent to the EPA on July 14, 2017. At
that time, the upcoming fuel standards were those
that were to be promulgated in the 2018 Rule. The
letter criticizes the Program generally, but it also
objects that the EPA did not consult on the Program’s
annual standards. The letter states on its first page
that the EPA has violated the ESA “[b]y failing to
initiate and complete consultation with the [Services]
in . . . setting annual volumetric standards for
renewable fuels” and in “failing to exercise[] its waiver
authority.” J.A. 1450. The letter elaborates that the
“annual standards” have harmed various species, and
in setting the standards, the EPA “ha[s] not complied”
with its obligations under the ESA. J.A. 1458-69. The
letter specifically identifies these annual standards
through 2017.
The EPA argues that the letter is not sufficiently
specific because it does not refer to the forthcoming
2018 standards or urge the EPA to consult on the 2018

151a
Rule in particular. Given these omissions, we too
might doubt that the letter preserved an objection to
the 2018 Rule were it not for some additional facts: the
EPA placed the letter in the administrative record for
the 2018 Rule, and the letter appears on the EPA’s
rulemaking docket as a comment on the 2018 Rule. See
EPA Docket, EPA-HQ-OAR-2017-0091-5030, J.A.
1450; Oral Arg. Tr. 106. In our view, these facts lend
substantial support to the argument that the letter
can be reasonably read to target the 2018 Rule and
provided “adequate notification of the general substance” of the challenge. Nat. Res. Def. Council, 571
F.3d at 1259 (quoting S. Coast Air Quality Mgmt.
Dist., 472 F.3d at 891). After all, the EPA’s own actions
reflect as much.
We note that the letter is dated July 14, 2017,
making it possible that the EPA received the letter
before and not “during the period for public comment”
that opened on July 21. 42 U.S.C. § 7607(d)(7)(B)
(emphasis added); see Proposed Rule, 82 Fed. Reg. at
34,206. But the EPA does not make that argument.
See EPA Br. 86 (arguing that the letter was insufficiently specific, not that it was submitted outside the
comment period); cf. id. at 86-87 & n.39 (arguing that
other documents failed to preserve the challenge because
they were submitted after the comment period).
Perhaps the EPA does not urge this point because the
letter was sent before the comment period but received
during the period, which its placement on the rulemaking docket for the 2018 Rule suggests. In any
event, we need not resolve this issue. Section 7607(d)(7)(B)
does not impose jurisdictional requirements, so we are
not obligated to address issues that go undisputed by
the parties. See EPA v. EME Homer City Generation,
LP, 572 U.S. 489, 511-12 (2014); CTS Corp. v. EPA,
759 F.3d 52, 60 n.2 (D.C. Cir. 2014). On this record

152a
and the arguments before us, we hold that the
Environmental Petitioners preserved their ESA claim.
D. Merits
Because this claim survives the EPA’s threshold
objections, we turn to its merits. The Environmental
Petitioners argue that the EPA did not comply with its
obligations under the ESA in promulgating the 2018
Rule. The ESA requires each federal agency to “insure
that any action authorized, funded, or carried out by
such agency . . . is not likely to jeopardize the
continued existence of any [listed] species or result in
the destruction or adverse modification” of designated
critical habitat by adhering to the consultation process.
16 U.S.C. § 1536(a)(2); see Ctr. for Biological Diversity,
861 F.3d at 177-78; see also 50 C.F.R. § 402.02
(defining “listed species” as those “determined to be
endangered or threatened” under 5 U.S.C. § 1533). As
the first step in this process, the agency must make an
“effects determination,” i.e., the agency must assess
whether a proposed action “may affect” listed species
or critical habitat. 50 C.F.R. § 402.14(a). If so, the
agency must engage in formal consultation with the
Services. Id. But if the agency makes a “no effect”
determination by finding that its proposed action “will
not affect any listed species or critical habitat,” then
“it is not required to consult” with the Services. Ctr.
for Biological Diversity v. US. Dep’t of Interior, 563
F.3d 466, 475 (D.C. Cir. 2009) (emphasis added); see
also 50 C.F.R. §§ 402.13(a), 402.14(b) (the consultation
process terminates and no further action is necessary
if the agency determines, with the written concurrence
of the relevant Service, that the action “is not likely to
adversely affect” any listed species or critical habitat).
The EPA claims that it was not obligated to make
an effects determination or consult with the Services

153a
on the 2018 Rule because the Clean Air Act required
the agency to establish certain fuel volumes, which
eliminated any discretion it might otherwise have had
to act differently based on information gathered
through consulting with the Services. It is true that
the EPA’s duty to consult with the Services “covers
only discretionary agency actions and does not attach
to actions . . . that an agency is required by statute to
undertake.” Nat’l Ass’n of Home Builders v. Defs. of
Wildlife, 551 U.S. 644, 669 (2007). But the EPA’s
argument fails because the agency had discretion to
reduce fuel volumes in at least two ways. First, the
EPA could have invoked its authority to issue a
general waiver allowing it to reduce statutory volumes
that “would severely harm the . . . environment of a
State, a region, or the United States.” 42 U.S.C.
§ 7545(o)(7)(A)(i). Second, the EPA retained discretion
to establish volumes for biomass-based diesel. When
setting such volumes, the EPA must consider six
factors, one of which allows the EPA to modify volumes
based on environmental considerations, such as
concerns about wetland conversion, wildlife habitat,
and water quality. See id. § 7545(o)(2)(B)(ii)(I).
The EPA next argues that it made a “no effect”
determination, thus eliminating any obligation to
consult with the Services. According to the EPA, it
“expressly determined that its actions do not affect”
listed species, EPA Br. 99, by stating in response to
comments that “any harm to threatened or endangered species or their critical habitat that may be
associated with crop cultivation in 2018 could not be
attributed with reasonable certainty to EPA’s action”
in promulgating the 2018 Rule, id. (quoting J.A. 1249);
see also J.A. 1253 (EPA similarly stating that
“whatever impacts or threats to listed and endangered
species or their critical habitats that may be caused by

154a
corn or soy cultivation in 2018 cannot with reasonable
certainty be attributed to” the 2018 Rule).
These statements are not a “no effect” determination. The inability to “attribute[]” environmental harms
“with reasonable certainty” to the 2018 Rule, EPA Br.
99 (quoting J.A. 1249), is not the same as a finding
that the 2018 Rule “will not affect” or “is not likely to
adversely affect” listed species or critical habitat.
Moreover, the EPA made this purported “no effect”
determination in response to comments urging the
EPA to reduce volumes through a finding of “severe
environmental harm” under 42 U.S.C. § 7545(o)(7)(A)(i).
See J.A. 1248-49. Concluding that the 2018 Rule may
not cause harms that meet that high threshold does
not necessarily mean the 2018 Rule will have no effect
on listed species or critical habitat. Finally, the EPA’s
brief omits an important part of the purported “no
effect” determination, which reads: “[W]e believe that
even with additional research and analysis, . . . any
harm to threatened or endangered species or their
critical habitat that may be associated with crop
cultivation in 2018 could not be attributed with
reasonable certainty to EPA’s action . . . .” J.A. 1249
(emphasis added). In other words, the EPA concluded
that it is impossible to know whether the 2018 Rule
will affect listed species or critical habitat. That is not
the same as determining that the 2018 Rule “will not”
affect them.
By failing to make an effects determination, the
EPA did not comply with its obligations under the
ESA. See 16 U.S.C. § 1536(a)(2); 50 C.F.R. §§ 402.13(a),
402.14(a). We therefore grant the Environmental
Petitioners’ petition for review and remand the 2018
Rule to the EPA to make an appropriate effects
determination. See Ctr. for Biological Diversity, 861

155a
F.3d at 188-89; Am. Bird Conservancy, Inc. v. FCC,
516 F.3d 1027, 1034-35 (D.C. Cir. 2008).
The Environmental Petitioners ask us to go a step
further and make the effects determination ourselves.
In their view, the evidence conclusively establishes
that the 2018 Rule “may affect” listed species or critical habitat. Envtl. Pet’rs Br. 28-29. This would trigger
formal consultation, 50 C.F.R. § 402.14(a), and so the
Environmental Petitioners ask us to order the EPA to
consult with the Services, Envtl. Pet’rs Br. 30. On this
record, we decline to make this effects determination
on the EPA’s behalf, preferring instead to allow the
EPA to develop the record and decide the issue in the
first instance on remand. See Ctr. for Biological
Diversity, 861 F.3d at 189 n.13.
Finally, the Environmental Petitioners do not ask
us to vacate the 2018 Rule. Envtl. Pet’rs Br. 31
(seeking remand “without vacatur”). Accordingly, and
consistent with our practice in similar cases, our
remand is without vacatur. See, e.g., Ctr. for Biological
Diversity, 861 F.3d at 188-89; North Carolina v. EPA,
550 F.3d 1176, 1178 (D.C. Cir. 2008) (per curiam).
VII. Conclusion
For the foregoing reasons, we deny the petitions
for review filed by American Fuel & Petrochemical
Manufacturers, Valero Energy Corporation, and the
National Biodiesel Board. We grant the Environmental
Petitioners’ petition for review and remand the 2018
Rule without vacatur for further proceedings consistent with this opinion.
So ordered.

156a
APPENDIX C
Title 42—The Public Health and Welfare
42 U.S.C. § 7545. Regulation of Fuels
[Content Omitted]
42 U.S.C. § 7545(o). Renewable fuel program
(1) Definitions
In this section:
(A) Additional renewable fuel
The term “additional renewable fuel” means
fuel that is produced from renewable biomass
and that is used to replace or reduce the
quantity of fossil fuel present in home heating
oil or jet fuel.
(B) Advanced biofuel
(i) In general
The term “advanced biofuel” means
renewable fuel, other than ethanol derived
from corn starch, that has lifecycle greenhouse gas emissions, as determined by the
Administrator, after notice and opportunity
for comment, that are at least 50 percent
less than baseline lifecycle greenhouse gas
emissions.
(ii) Inclusions
The types of fuels eligible for consideration
as “advanced biofuel” may include any of the
following:
(I) Ethanol derived from cellulose,
hemicellulose, or lignin.

157a
(II) Ethanol derived from sugar or
starch (other than corn starch).
(II) Ethanol derived from waste material, including crop residue, other
vegetative waste material, animal waste,
and food waste and yard waste.
(IV) Biomass-based diesel.
(V) Biogas (including landfill gas and
sewage waste treatment gas) produced
through the conversion of organic matter
from renewable biomass.
(VI) Butanol or other alcohols produced through the conversion of organic
matter from renewable biomass.
(VII) Other fuel derived from cellulosic
biomass.
(C) Baseline lifecycle greenhouse gas emissions
The term “baseline lifecycle greenhouse gas
emissions” means the average lifecycle greenhouse gas emissions, as determined by the
Administrator, after notice and opportunity for
comment, for gasoline or diesel (whichever is
being replaced by the renewable fuel) sold or
distributed as transportation fuel in 2005.
(D) Biomass-based diesel
The term “biomass-based diesel” means renewable fuel that is biodiesel as defined in section
13220(f) of this title and that has lifecycle
greenhouse gas emissions, as determined by the
Administrator, after notice and opportunity for
comment, that are at least 50 percent less than
the baseline lifecycle greenhouse gas emissions.

158a
Notwithstanding the preceding sentence, renewable fuel derived from co-processing biomass
with a petroleum feedstock shall be advanced
biofuel if it meets the requirements of subparagraph (B), but is not biomass-based diesel.
(E) Cellulosic biofuel
The term “cellulosic biofuel” means renewable
fuel derived from any cellulose, hemicellulose,
or lignin that is derived from renewable
biomass and that has lifecycle greenhouse gas
emissions, as determined by the Administrator,
that are at least 60 percent less than the
baseline lifecycle greenhouse gas emissions.
(F) Conventional biofuel
The term “conventional biofuel” means renewable fuel that is ethanol derived from corn
starch.
(G) Greenhouse gas
The term “greenhouse gas” means carbon
dioxide, hydrofluorocarbons, methane, nitrous
oxide, perfluorocarbons,9 sulfur hexafluoride.
The Administrator may include any other
anthropogenically-emitted gas that is determined by the Administrator, after notice and
comment, to contribute to global warming.
(H) Lifecycle greenhouse gas emissions
The term “lifecycle greenhouse gas emissions”
means the aggregate quantity of greenhouse gas
emissions (including direct emissions and significant indirect emissions such as significant
9

So in original. The word “and” probably should appear.

159a
emissions from land use changes), as determined by the Administrator, related to the
full fuel lifecycle, including all stages of fuel
and feedstock production and distribution, from
feedstock generation or extraction through the
distribution and delivery and use of the finished
fuel to the ultimate consumer, where the mass
values for all greenhouse gases are adjusted to
account for their relative global warming
potential.
(I) Renewable biomass
The term “renewable biomass” means each of
the following:
(i) Planted crops and crop residue
harvested from agricultural land cleared or
cultivated at any time prior to December 19,
2007, that is either actively managed or
fallow, and nonforested.
(ii) Planted trees and tree residue from
actively managed tree plantations on nonfederal10 land cleared at any time prior to
December 19, 2007, including land belonging
to an Indian tribe or an Indian individual,
that is held in trust by the United States or
subject to a restriction against alienation
imposed by the United States.
(iii) Animal waste material and animal
byproducts.
(iv) Slash and pre-commercial thinnings
that are from non-federal10 forestlands, including forestlands belonging to an Indian tribe
10

So in original. Probably should be ‘‘non-Federal’’.

160a
or an Indian individual, that are held in
trust by the United States or subject to a
restriction against alienation imposed by the
United States, but not forests or forestlands
that are ecological communities with a
global or State ranking of critically imperiled, imperiled, or rare pursuant to a State
Natural Heritage Program, old growth forest,
or late successional forest.
(v) Biomass obtained from the immediate
vicinity of buildings and other areas regularly occupied by people, or of public infrastructure, at risk from wildfire.
(vi) Algae.
(vii) Separated yard waste or food waste,
including recycled cooking and trap grease.
(J) Renewable fuel
The term “renewable fuel” means fuel that is
produced from renewable biomass and that is
used to replace or reduce the quantity of fossil
fuel present in a transportation fuel.
(K) Small refinery
The term “small refinery” means a refinery
for which the average aggregate daily crude oil
throughput for a calendar year (as determined
by dividing the aggregate throughput for the
calendar year by the number of days in the
calendar year) does not exceed 75,000 barrels.
(L) Transportation fuel
The term “transportation fuel” means fuel for
use in motor vehicles, motor vehicle engines,

161a
nonroad vehicles, or nonroad engines (except for
ocean-going vessels).
(2) Renewable fuel program
(A) Regulations
(i) In general
Not later than 1 year after August 8, 2005,
the Administrator shall promulgate regulations to ensure that gasoline sold or introduced into commerce in the United States
(except in noncontiguous States or territories), on an annual average basis, contains
the applicable volume of renewable fuel determined in accordance with subparagraph (B).
Not later than 1 year after December 19,
2007, the Administrator shall revise the
regulations under this paragraph to ensure
that transportation fuel sold or introduced
into commerce in the United States (except in
noncontiguous States or territories), on an
annual average basis, contains at least the
applicable volume of renewable fuel, advanced
biofuel, cellulosic biofuel, and biomassbased diesel, determined in accordance with
subparagraph (B) and, in the case of any
such renewable fuel produced from new
facilities that commence construction after
December 19, 2007, achieves at least a 20
percent reduction in lifecycle greenhouse gas
emissions compared to baseline lifecycle
greenhouse gas emissions.

162a
(ii) Noncontiguous State opt-in
(I) In general
On the petition of a noncontiguous
State or territory, the Administrator
may allow the renewable fuel program
established under this subsection to apply
in the noncontiguous State or territory
at the same time or any time after the
Administrator promulgates regulations
under this subparagraph.
(II) Other actions
In carrying out this
Administrator may—

clause,

the

(aa) issue or revise regulations
under this paragraph;
(bb) establish applicable percentages under paragraph (3);
(cc) provide for the generation of
credits under paragraph (5); and
(dd) take such other actions as are
necessary to allow for the application
of the renewable fuels program in a
noncontiguous State or territory.
(iii) Provisions of regulations
Regardless of the date of promulgation,
the regulations promulgated under clause
(i)—
(I) shall contain compliance provisions
applicable to refineries, blenders, distributors, and importers, as appropriate,

163a
to ensure that the requirements of this
paragraph are met; but
(II) shall not—
(aa) restrict geographic areas in
which renewable fuel may be used; or
(bb) impose any per-gallon obligation for the use of renewable fuel.
(iv) Requirement in case of failure to promulgate regulations
If the Administrator does not promulgate
regulations under clause (i), the percentage
of renewable fuel in gasoline sold or dispensed to consumers in the United States,
on a volume basis, shall be 2.78 percent for
calendar year 2006.

164a
(B) Applicable volumes
(i) Calendar years after 2005
(I) Renewable fuel
For the purpose of subparagraph (A),
the applicable volume of renewable fuel
for the calendar years 2006 through 2022
shall be determined in accordance with
the following table:

Calendar year:
2006 ..............................
2007 ..............................
2008 ..............................
2009 ..............................
2010 ..............................
2011 ..............................
2012 ..............................
2013 ..............................
2014 ..............................
2015 ..............................
2016 ..............................
2017 ..............................
2018 ..............................
2019 ..............................
2020 ..............................
2021 ..............................
2022 ..............................

Applicable
volume of
renewable fuel
(in billions
of gallons):
4.0
4.7
9.0
11.1
12.95
13.95
15.2
16.55
18.15
20.5
22.25
24.0
26.0
28.0
30.0
33.0
36.0

165a
(II) Advanced biofuel
For the purpose of subparagraph (A), of
the volume of renewable fuel required
under subclause (I), the applicable volume
of advanced biofuel for the calendar years
2009 through 2022 shall be determined
in accordance with the following table:

Calendar year:
2009 ..............................
2010 ..............................
2011 ..............................
2012 ..............................
2013 ..............................
2014 ..............................
2015 ..............................
2016 ..............................
2017 ..............................
2018 ..............................
2019 ..............................
2020 ..............................
2021 ..............................
2022 ..............................

Applicable
volume of
renewable fuel
(in billions
of gallons):
0.6
0.95
1.35
2.0
2.75
3.75
5.5
7.25
9.0
11.0
13.0
15.0
18.0
21.0

166a
(III) Cellulosic biofuel
For the purpose of subparagraph (A), of
the volume of advanced biofuel required
under subclause (II), the applicable volume
of cellulosic biofuel for the calendar years
2010 through 2022 shall be determined
in accordance with the following table:

Calendar year:
2010 ..............................
2011 ..............................
2012 ..............................
2013 ..............................
2014 ..............................
2015 ..............................
2016 ..............................
2017 ..............................
2018 ..............................
2019 ..............................
2020 ..............................
2021 ..............................
2022 ..............................

Applicable
volume of
renewable fuel
(in billions
of gallons):
0.1
0.25
0.5
1.0
1.75
3.0
4.25
5.5
7.0
8.5
10.5
13.5
16.0

167a
(IV) Biomass-based diesel
For the purpose of subparagraph (A), of
the volume of advanced biofuel required
under subclause (II), the applicable volume
of biomass-based diesel for the calendar
years 2009 through 2012 shall be determined in accordance with the following
table:

Calendar year:
2009 ..............................
2010 ..............................
2011 ..............................
2012 ..............................

Applicable
volume of
renewable fuel
(in billions
of gallons):
0.5
0.65
0.80
1.0

(ii) Other calendar years
For the purposes of subparagraph (A),
the applicable volumes of each fuel specified
in the tables in clause (i) for calendar
years after the calendar years specified in
the tables shall be determined by the
Administrator, in coordination with the
Secretary of Energy and the Secretary of
Agriculture, based on a review of the
implementation of the program during
calendar years specified in the tables, and an
analysis of—
(I) the impact of the production and
use of renewable fuels on the environment, including on air quality, climate
change, conversion of wetlands, ecosystems,

168a
wildlife habitat, water quality, and water
supply;
(II) the impact of renewable fuels on
the energy security of the United States;
(III) the expected annual rate of future
commercial production of renewable
fuels, including advanced biofuels in each
category (cellulosic biofuel and biomassbased diesel);
(IV) the impact of renewable fuels on
the infrastructure of the United States,
including deliverability of materials,
goods, and products other than renewable
fuel, and the sufficiency of infrastructure
to deliver and use renewable fuel;
(V) the impact of the use of renewable
fuels on the cost to consumers of
transportation fuel and on the cost to
transport goods; and
(VI) the impact of the use of renewable
fuels on other factors, including job
creation, the price and supply of agricultural commodities, rural economic
development, and food prices.
The Administrator shall promulgate rules
establishing the applicable volumes under
this clause no later than 14 months before
the first year for which such applicable
volume will apply.
(iii) Applicable volume of advanced biofuel
For the purpose of making the determinations in clause (ii), for each calendar
year, the applicable volume of advanced

169a
biofuel shall be at least the same percentage
of the applicable volume of renewable fuel as
in calendar year 2022.
(iv) Applicable volume of cellulosic biofuel
For the purpose of making the determinations in clause (ii), for each calendar
year, the applicable volume of cellulosic
biofuel established by the Administrator
shall be based on the assumption that the
Administrator will not need to issue a
waiver for such years under paragraph
(7)(D).
(v) Minimum applicable volume of biomassbased diesel
For the purpose of making the determinations in clause (ii), the applicable
volume of biomass-based diesel shall not be
less than the applicable volume listed in
clause (i)(IV) for calendar year 2012.
(3) Applicable percentages
(A) Provision of estimate of volumes of gasoline
sales
Not later than October 31 of each of calendar
years 2005 through 2021, the Administrator
of the Energy Information Administration
shall provide to the Administrator of the
Environmental Protection Agency an estimate,
with respect to the following calendar year, of
the volumes of transportation fuel, biomassbased diesel, and cellulosic biofuel projected to
be sold or introduced into commerce in the
United States.

170a
(B) Determination of applicable percentages
(i) In general
Not later than November 30 of each of
calendar years 2005 through 2021, based on
the estimate provided under subparagraph
(A), the Administrator of the Environmental
Protection Agency shall determine and
publish in the Federal Register, with respect
to the following calendar year, the renewable fuel obligation that ensures that the
requirements of paragraph (2) are met.
(ii) Required elements
The renewable fuel obligation determined
for a calendar year under clause (i) shall—
(I) be applicable to refineries, blenders, and importers, as appropriate;
(II) be expressed in terms of a volume
percentage of transportation fuel sold or
introduced into commerce in the United
States; and
(III) subject to subparagraph (C)(i),
consist of a single applicable percentage
that applies to all categories of persons
specified in subclause (I).
(C) Adjustments
In determining the applicable percentage for
a calendar year, the Administrator shall make
adjustments—
(i) to prevent the imposition of redundant
obligations on any person specified in
subparagraph (B)(ii)(I); and

171a
(ii) to account for the use of renewable
fuel during the previous calendar year by
small refineries that are exempt under
paragraph (9).
(4) Modification of greenhouse gas reduction
percentages
(A) In general
The Administrator may, in the regulations
under the last sentence of paragraph (2)(A)(i),
adjust the 20 percent, 50 percent, and 60
percent reductions in lifecycle greenhouse
gas emissions specified in paragraphs (2)(A)(i)
(relating to renewable fuel), (1)(D) (relating to
biomass-based diesel), (1)(B)(i) (relating to
advanced biofuel), and (1)(E) (relating to cellulosic biofuel) to a lower percentage. For the 50
and 60 percent reductions, the Administrator
may make such an adjustment only if he
determines that generally such reduction is not
commercially feasible for fuels made using a
variety of feedstocks, technologies, and processes to meet the applicable reduction.
(B) Amount of adjustment
In promulgating regulations under this
paragraph, the specified 50 percent reduction
in greenhouse gas emissions from advanced
biofuel and in biomass-based diesel may not be
reduced below 40 percent. The specified 20
percent reduction in green-house gas emissions
from renewable fuel may not be reduced below
10 percent, and the specified 60 percent
reduction in greenhouse gas emissions from
cellulosic biofuel may not be reduced below 50
percent.

172a
(C) Adjusted reduction levels
An adjustment under this paragraph to a
percent less than the specified 20 percent
greenhouse gas reduction for renewable fuel
shall be the minimum possible adjustment, and
the adjusted greenhouse gas reduction shall
be established by the Administrator at the
maximum achievable level, taking cost in
consideration, for natural gas fired corn-based
ethanol plants, allowing for the use of a variety
of technologies and processes. An adjustment in
the 50 or 60 percent greenhouse gas levels
shall be the minimum possible adjustment for
the fuel or fuels concerned, and the adjusted
greenhouse gas reduction shall be established
at the maximum achievable level, taking cost in
consideration, allowing for the use of a variety
of feedstocks, technologies, and processes.
(D) 5-year review
Whenever the Administrator makes any
adjustment under this paragraph, not later
than 5 years thereafter he shall review and
revise (based upon the same criteria and standards as required for the initial adjustment) the
regulations establishing the adjusted level.
(E) Subsequent adjustments
After the Administrator has promulgated a
final rule under the last sentence of paragraph
(2)(A)(i) with respect to the method of determining lifecycle greenhouse gas emissions, except
as provided in subparagraph (D), the Administrator may not adjust the percent greenhouse
gas reduction levels unless he determines that
there has been a significant change in the

173a
analytical methodology used for determining
the lifecycle greenhouse gas emissions. If he
makes such determination, he may adjust the
20, 50, or 60 percent reduction levels through
rulemaking using the criteria and standards set
forth in this paragraph.
(F) Limit on upward adjustments
If, under subparagraph (D) or (E), the
Administrator revises a percent level adjusted
as provided in subparagraphs (A), (B), and (C)
to a higher percent, such higher percent may
not exceed the applicable percent specified in
paragraph (2)(A)(i), (1)(D), (1)(B)(i), or (1)(E).
(G) Applicability of adjustments
If the Administrator adjusts, or revises, a
percent level referred to in this paragraph or
makes a change in the analytical methodology
used for determining the lifecycle greenhouse
gas emissions, such adjustment, revision, or
change (or any combination thereof) shall only
apply to renewable fuel from new facilities that
commence construction after the effective date
of such adjustment, revision, or change.
(5) Credit program
(A) In general
The regulations promulgated under paragraph (2)(A) shall provide—
(i) for the generation of an appropriate
amount of credits by any person that refines,
blends, or imports gasoline that contains a
quantity of renewable fuel that is greater
than the quantity required under paragraph
(2);

174a
(ii) for the generation of an appropriate
amount of credits for biodiesel; and
(iii) for the generation of credits by small
refineries in accordance with paragraph
(9)(C).
(B) Use of credits
A person that generates credits under subparagraph (A) may use the credits, or transfer
all or a portion of the credits to another person,
for the purpose of complying with paragraph
(2).
(C) Duration of credits
A credit generated under this paragraph shall
be valid to show compliance for the 12 months
as of the date of generation.
(D) Inability to generate or purchase sufficient
credits
The regulations promulgated under paragraph (2)(A) shall include provisions allowing
any person that is unable to generate or
purchase sufficient credits to meet the requirements of paragraph (2) to carry forward a
renewable fuel deficit on condition that the
person, in the calendar year following the year
in which the renewable fuel deficit is created—
(i) achieves compliance with the renewable fuel requirement under paragraph (2);
and
(ii) generates or purchases additional renewable fuel credits to offset the renewable
fuel deficit of the previous year.

175a
(E) Credits for additional renewable fuel
The Administrator may issue regulations
providing: (i) for the generation of an appropriate amount of credits by any person that
refines, blends, or imports additional renewable
fuels specified by the Administrator; and (ii) for
the use of such credits by the generator, or the
transfer of all or a portion of the credits to
another person, for the purpose of complying
with paragraph (2).
(6) Seasonal variations in renewable fuel use
(A) Study
For each of calendar years 2006 through
2012, the Administrator of the Energy Information Administration shall conduct a study of
renewable fuel blending to determine whether
there are excessive seasonal variations in the
use of renewable fuel.
(B) Regulation of excessive seasonal variations
If, for any calendar year, the Administrator of
the Energy Information Administration, based
on the study under sub-paragraph (A), makes
the determinations specified in subparagraph
(C), the Administrator of the Environmental
Protection Agency shall promulgate regulations
to en-sure that 25 percent or more of the
quantity of renewable fuel necessary to meet
the requirements of paragraph (2) is used
during each of the 2 periods specified in subparagraph (D) of each subsequent calendar
year.

176a
(C) Determinations
The determinations referred to in subparagraph (B) are that—
(i) less than 25 percent of the quantity
of renewable fuel necessary to meet the
requirements of paragraph (2) has been used
during 1 of the 2 periods specified in subparagraph (D) of the calendar year;
(ii) a pattern of excessive seasonal variation described in clause (i) will continue in
subsequent calendar years; and
(iii) promulgating regulations or other
requirements to impose a 25 percent or more
seasonal use of renewable fuels will not
prevent or interfere with the attainment of
national ambient air quality standards or
significantly increase the price of motor fuels
to the consumer.
(D) Periods
The 2 periods referred to in this paragraph
are—
(i) April through September; and
(ii) January through March and October
through December.
(E) Exclusion
Renewable fuel blended or consumed in
calendar year 2006 in a State that has received
a waiver under section 7543(b) of this title
shall not be included in the study under
subparagraph (A).

177a
(F) State exemption from seasonality requirements
Notwithstanding any other provision of law,
the seasonality requirement relating to renewable fuel use established by this paragraph
shall not apply to any State that has received a
waiver under section 7543(b) of this title or any
State dependent on refineries in such State for
gasoline supplies.
(7) Waivers
(A) In general
The Administrator, in consultation with the
Secretary of Agriculture and the Secretary of
Energy, may waive the requirements of
paragraph (2) in whole or in part on petition by
one or more States, by any person subject to the
requirements of this subsection, or by the
Administrator on his own motion by reducing
the national quantity of renewable fuel required
under paragraph (2)—
(i) based on a determination by the
Administrator, after public notice and opportunity for comment, that implementation of
the requirement would severely harm the
economy or environment of a State, a region,
or the United States; or
(ii) based on a determination by the
Administrator, after public notice and
opportunity for comment, that there is an
inadequate domestic supply.

178a
(B) Petitions for waivers
The Administrator, in consultation with the
Secretary of Agriculture and the Secretary of
Energy, shall approve or disapprove a petition
for a waiver of the requirements of paragraph
(2) within 90 days after the date on which the
petition is received by the Administrator.
(C) Termination of waivers
A waiver granted under subparagraph (A)
shall terminate after 1 year, but may be
renewed by the Administrator after consultation with the Secretary of Agriculture and the
Secretary of Energy.
(D) Cellulosic biofuel
(i) For any calendar year for which the
projected volume of cellulosic biofuel production
is less than the minimum applicable volume
established under paragraph (2)(B), as
determined by the Administrator based on the
estimate provided under paragraph (3)(A), not
later than November 30 of the preceding
calendar year, the Administrator shall reduce
the applicable volume of cellulosic biofuel
required under paragraph (2)(B) to the
projected volume available during that calendar
year. For any calendar year in which the
Administrator makes such a reduction, the
Administrator may also reduce the applicable
volume of renewable fuel and advanced biofuels
requirement established under paragraph
(2)(B) by the same or a lesser volume.

179a
(ii) Whenever the Administrator reduces the
minimum cellulosic biofuel volume under this
subparagraph, the Administrator shall make
available for sale cellulosic biofuel credits at the
higher of $0.25 per gallon or the amount by
which $3.00 per gallon exceeds the average
wholesale price of a gallon of gasoline in the
United States. Such amounts shall be adjusted
for inflation by the Administrator for years after
2008.
(iii) Eighteen months after December 19,
2007, the Administrator shall promulgate
regulations to govern the issuance of credits
under this subparagraph. The regulations shall
set forth the method for determining the exact
price of credits in the event of a waiver. The
price of such credits shall not be changed
more frequently than once each quarter. These
regulations shall include such provisions,
including limiting the credits’ uses and useful
life, as the Administrator deems appropriate
to assist market liquidity and transparency,
to provide appropriate certainty for regulated
entities and renewable fuel producers, and to
limit any potential misuse of cellulosic biofuel
credits to reduce the use of other renewable
fuels, and for such other purposes as the Administrator determines will help achieve the goals
of this subsection. The regulations shall limit
the number of cellulosic biofuel credits for any
calendar year to the minimum applicable
volume (as reduced under this subparagraph) of
cellulosic biofuel for that year.

180a
(E) Biomass-based diesel
(i) Market evaluation
The Administrator, in consultation with
the Secretary of Energy and the Secretary of
Agriculture, shall periodically evaluate the
impact of the biomass-based diesel requirements established under this paragraph on
the price of diesel fuel.
(ii) Waiver
If the Administrator determines that
there is a significant renewable feedstock
disruption or other market circumstances
that would make the price of biomass-based
diesel fuel increase significantly, the Administrator, in consultation with the Secretary
of Energy and the Secretary of Agriculture,
shall issue an order to reduce, for up to a 60day period, the quantity of biomass-based
diesel required under subparagraph (A) by
an appropriate quantity that does not exceed
15 percent of the applicable annual requirement for biomass-based diesel. For any
calendar year in which the Administrator
makes a reduction under this subparagraph,
the Administrator may also reduce the applicable volume of renewable fuel and advanced
biofuels requirement established under paragraph (2)(B) by the same or a lesser volume.
(iii) Extensions
If the Administrator determines that
the feedstock disruption or circumstances
described in clause (ii) is continuing beyond
the 60-day period described in clause (ii) or

181a
this clause, the Administrator, in consultation with the Secretary of Energy and the
Secretary of Agriculture, may issue an order
to reduce, for up to an additional 60- day
period, the quantity of biomass-based diesel
required under subparagraph (A) by an
appropriate quantity that does not exceed an
additional 15 percent of the applicable annual
requirement for biomass- based diesel.
(F) Modification of applicable volumes
For any of the tables in paragraph (2)(B), if the
Administrator waives—
(i) at least 20 percent of the applicable
volume requirement set forth in any such
table for 2 consecutive years; or
(ii) at least 50 percent of such volume
requirement for a single year,
the Administrator shall promulgate a rule
(within 1 year after issuing such waiver) that
modifies the applicable volumes set forth in the
table concerned for all years following the final
year to which the waiver applies, except that no
such modification in applicable volumes shall be
made for any year before 2016. In promulgating
such a rule, the Administrator shall comply
with the processes, criteria, and standards set
forth in paragraph (2)(B)(ii).
(8) Study and waiver for initial year of program
(A) In general
Not later than 180 days after August 8, 2005,
the Secretary of Energy shall conduct for the
Administrator a study assessing whether the
renewable fuel requirement under paragraph

182a
(2) will likely result in significant adverse
impacts on consumers in 2006, on a national,
regional, or State basis.
(B) Required evaluations
The study shall evaluate renewable fuel—
(i) supplies and prices;
(ii) blendstock supplies; and
(iii) supply and distribution system capabilities.
(C) Recommendations by the Secretary
Based on the results of the study, the Secretary of Energy shall make specific recommendations to the Administrator concerning waiver of
the requirements of paragraph (2), in whole or
in part, to prevent any adverse impacts described
in subparagraph (A).
(D) Waiver
(i) In general
Not later than 270 days after August 8,
2005, the Administrator shall, if and to the
extent recommended by the Secretary of
Energy under subparagraph (C), waive, in
whole or in part, the renewable fuel requirement under paragraph (2) by reducing the
national quantity of renewable fuel required
under paragraph (2) in calendar year 2006.
(ii) No effect on waiver authority
Clause (i) does not limit the authority of
the Administrator to waive the requirements
of paragraph (2) in whole, or in part, under
paragraph (7).

183a
(9) Small refineries
(A) Temporary exemption
(i) In general
The requirements of paragraph (2) shall
not apply to small refineries until calendar
year 2011.
(ii) Extension of exemption
(I) Study by Secretary of Energy
Not later than December 31, 2008, the
Secretary of Energy shall conduct for the
Administrator a study to determine
whether compliance with the requirements of paragraph (2) would impose a
disproportionate economic hardship on
small refineries.
(II) Extension of exemption
In the case of a small refinery that the
Secretary of Energy determines under
subclause (I) would be subject to a
disproportionate economic hardship if
required to comply with paragraph (2),
the Administrator shall extend the
exemption under clause (i) for the small
refinery for a period of not less than 2
additional years.
(B) Petitions based on disproportionate economic hardship
(i) Extension of exemption
A small refinery may at any time petition
the Administrator for an extension of the

184a
exemption under subparagraph (A) for the
reason of disproportionate economic hardship.
(ii) Evaluation of petitions
In evaluating a petition under clause (i),
the Administrator, in consultation with the
Secretary of Energy, shall consider the
findings of the study under subparagraph
(A)(ii) and other economic factors.
(iii) Deadline for action on petitions
The Administrator shall act on any
petition submitted by a small refinery for a
hardship exemption not later than 90 days
after the date of receipt of the petition.
(C) Credit program
If a small refinery notifies the Administrator
that the small refinery waives the exemption
under subparagraph (A), the regulations
promulgated under paragraph (2)(A) shall
provide for the generation of credits by the
small refinery under paragraph (5) beginning in
the calendar year following the date of
notification.
(D) Opt-in for small refineries
A small refinery shall be subject to the
requirements of paragraph (2) if the small
refinery notifies the Administrator that the
small refinery waives the exemption under
subparagraph (A).

185a
(10) Ethanol market concentration analysis
(A) Analysis
(i) In general
Not later than 180 days after August 8,
2005, and annually thereafter, the Federal
Trade Commission shall perform a market
concentration analysis of the ethanol
production industry using the HerfindahlHirschman Index to determine whether
there is sufficient competition among industry participants to avoid price-setting and
other anticompetitive behavior.
(ii) Scoring
For the purpose of scoring under clause (i)
using the Herfindahl-Hirschman Index, all
marketing arrangements among industry
participants shall be considered.
(B) Report
Not later than December 1, 2005, and annually
thereafter, the Federal Trade Commission shall
submit to Congress and the Administrator a
report on the results of the market concentration analysis performed under subparagraph
(A)(i).
(11) Periodic reviews
To allow for the appropriate adjustment of the
requirements described in subparagraph (B) of
paragraph (2), the Administrator shall conduct
periodic reviews of—
(A) existing technologies;
(B) the feasibility of achieving compliance
with the requirements; and

186a
(C) the impacts of the requirements
described in subsection (a)(2)11 on each individual and entity described in paragraph (2).
(12) Effect on other provisions
Nothing in this subsection, or regulations issued
pursuant to this subsection, shall affect or be
construed to affect the regulatory status of carbon
dioxide or any other greenhouse gas, or to expand or
limit regulatory authority regarding carbon dioxide
or any other greenhouse gas, for purposes of other
provisions (including section 7475) of this chapter.
The previous sentence shall not affect implementation and enforcement of this subsection.
[Content Omitted]

11

So in original. Subsection (a) does not contain a par. (2).

